<html>
<title> - NORTHERN BORDER SECURITY</title>
<body><pre>[Senate Hearing 107-341]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-341
 
                        NORTHERN BORDER SECURITY
=======================================================================


                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                            SPECIAL HEARING

                    OCTOBER 3, 2001--WASHINGTON, DC
                    DECEMBER 5, 2001--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations












 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______

                        U.S. GOVERNMENT PRINTING OFFICE
77-844                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                     Terry Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director

                                 ------                                

            Subcommittee on Treasury and General Government

                BYRON L. DORGAN, North Dakota, Chairman
BARBARA A. MIKULSKI, Maryland        BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              MIKE DeWINE, Ohio
ROBERT C. BYRD, West Virginia        TED STEVENS, Alaska
  (ex officio)                         (ex officio)

                           Professional Staff

                              Chip Walgren
                             Nicole Rutberg
                         Pat Raymond (Minority)
                        Lula Edwards (Minority)
                           











                            C O N T E N T S

                              ----------                              

                       Wednesday, October 3, 2001

                                                                   Page

Statement of Robert C. Bonner, Commissioner, U.S. Customs 
  Service, Department of Treasury................................     1
Opening statement of Senator Byron L. Dorgan.....................     1
Statement of Senator Mike DeWine.................................     4
Statement of Senator Patrick J. Leahy............................     4
Statement of Senator Conrad Burns................................     5
Statement of Robert C. Bonner....................................     7
    Prepared statement...........................................    10
Statement of James W. Ziglar, Commissioner, Immigration and 
  Naturalization Service, Department of Justice..................    12
    Prepared statement...........................................    15
Statement of Senator Patty Murray................................    19
Prepared statement of Colleen Kelley, President, National 
  Treasury Employees Union.......................................    42
Prepared statement of Senator Carl Levin.........................    43
Questions submitted by Senator Byron L. Dorgan...................    44
Questions submitted by Senator Barbara A. Mikulski...............    52
Questions submitted by Senator Ben Nighthorse Campbell...........    52

                      Wednesday, December 5, 2001

Opening statement of Senator Byron L. Dorgan.....................    55
    Prepared statement...........................................    57
Statement of Hon. Charles Schumer, U.S. Senator from New York....    58
    Prepared statement...........................................    60
Statement of Hon. Debbie Stabenow, U.S. Senator from Michigan....    61
    Prepared statement...........................................    63
Statement of Hon. John Hoeven, Governor, State of North Dakota...    66
    Prepared statement...........................................    68
Statement of Hon. Howard Dean, Governor, State of Vermont........    70
    Prepared statement...........................................    72
Statement of Hon. Dick Posthumus, Lieutenant Governor, State of 
  Michigan.......................................................    72
    Prepared statement...........................................    76
Statement of Hon. Hillary Rodham Clinton, U.S. Senator from New 
  York...........................................................    78
    Prepared statement...........................................    79
Statement of Major General Timothy J. Lowenberg, Chairman, 
  Homeland Security, Adjutants General Association of the United 
  States.........................................................    81
Statement of Major General Michael Haugen, Adjutant General of 
  North Dakota...................................................    81
Prepared statement of Senator Carl Levin.........................    84
Prepared statement of Senator Judd Gregg.........................    86
Prepared statement of Judy Martz, Governor, State of Montana.....    87
Prepared statement of Gary Locke, Governor, State of Washington..    89
Prepared statement of George E. Pataki, Governor, State of New 
  York......................................................92<greek-l>

                               (iii) 













                        NORTHERN BORDER SECURITY

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2001

                           U.S. Senate,    
                   Subcommittee on Treasury and    
                                General Government,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan and DeWine.
    Also present: Burns, Leahy, and Murray.

                       DEPARTMENT OF THE TREASURY

                          U.S. Customs Service

STATEMENT OF ROBERT C. BONNER, COMMISSIONER


              opening statement of senator byron l. dorgan


    Senator Dorgan. This hearing will come to order. This is 
the Subcommittee on Treasury, Postal and General Government of 
the Senate Appropriations Committee. We welcome the two 
witnesses who have joined us, Commissioner Bonner, the Customs 
Commissioner, and Commissioner Ziglar, the Commissioner of the 
Immigration Service.
    This hearing is to discuss the issue of border security, 
and especially today we will talk about northern border 
security. It is my intention to hold a series of hearings on 
border security. While there are questions and interesting 
things to talk about a wide range of security issues dealing 
with our borders, I want to especially this morning at today's 
hearing talk about northern border security.
    All of us know that the tragic events of September 11 have 
persuaded this country that we must do much, much more to make 
sure that we protect the security of our country. A country 
cannot and will not be secure unless it has secure borders. We 
are a free country with substantial traffic, and freight, and 
people coming across our border, and we do not want to change 
that. By the same token, we want to make sure that we keep out 
of this country those who are not supposed to come in, and 
especially that we are vigilant in trying to determine and 
detect those who are suspected terrorists who we want to 
prevent from coming into our country.
    Both of the agencies that will testify here today stand on 
the front lines of protecting our borders. In my home State of 
North Dakota, and my colleagues at the dais all represent 
States that border Canada on the northern side, we have remote 
border crossings. Every day we have a few people, in most cases 
one or two people, standing guard, vigilant in trying to make 
sure that those borders are secure.
    The agencies here stand shoulder to shoulder at our border 
stations. I was at one in Pembina, North Dakota on the United 
States-Canadian border last Friday and I must tell you that 
those who are serving our country at these remote sites at the 
ports of entry between the United States and Canada are very 
committed and serve our country very well. They carry out a 
very substantial task for this Nation, to ensure the safety of 
our republic by protecting our borders. As I said, if we do not 
have basic control of our borders then we stand very little 
chance, in my judgment, of keeping terrorists out of this 
country.
    I have long believed that the northern border of our 
country is particularly vulnerable and I want to talk about 
that today. The northern border extends nearly 4,000 miles, and 
as I have stated many times, it is woefully understaffed. I was 
at the port of entry in Pembina when I heard loud and clear, 
not only from Federal workers at Pembina but also local law 
enforcement agencies that they just need more people. Kittson 
County, Minnesota Sheriff Ray Hunt said, a big part of the 
solution is to put more people out here. Very simple, but 
clear.
    Even if we had more staff, in many cases we lack the 
infrastructure necessary to adequately and safely screen the 
millions of passengers and trucks and tons of cargo which enter 
this country every day. As I understand it, about 340,000 
vehicles entry this country from all ports every single day; 
58,000 carriers of cargo enter this country every single day; 
and 1.3 million people come across our borders every single 
day. The agencies here are agencies that are required every day 
to be there to evaluate whether people have the right to come 
into this country, who they are and what their business is.
    Now my concern about the northern border, and I suspect it 
is shared by a number of my colleagues, is that we are not only 
understaffed but we lack the necessary facilities. I have an 
orange cone here which represents the security at a good number 
of our northern border ports of entry. This orange cone, as you 
might imagine, is inexpensive. It is also ineffective.
    I was told on Friday at one of the ports of entry in North 
Dakota that some people, when they enter this country after 
10:00 at night and this orange cone is placed in the middle of 
the road, some people actually get out of their car and move 
the cone and then drive through it. Others have no such 
courtesy. They come whipping through at 60 miles an hour and 
just shred the cone. But at 10:00 at night when a number of 
these border stations close and they put a cone in the middle 
of the road, this is America's security at a border crossing.
    It is not enough. It is not enough to protect this country. 
So let me just show a couple of charts.
    Senator Leahy. At least you get a reflector. We do not get 
a reflector.
    Senator Dorgan. I will show you a couple of others. 
Actually at some ports of entry they have done better than one 
orange cone; they put up multiple orange cones. In the second 
port of entry I will show you what else they do. If they want 
to go higher tech than an orange cone, we have a stop sign on a 
small metal gate telling people that this port is closed and 
you really ought to turn around or you might get fined.
    My point is not to make fun of anybody. It is simply to 
say, this represents the ability that the resources offer these 
agencies to conduct their business at these ports, and it is 
not enough.
    Now well before the attacks of September 11, we in the 
Senate had been talking about this on the Appropriations 
Committee. In fact in this Subcommittees mark we included $25 
million in additional resources this year for something that I 
called the Northern Border Initiative, to hire additional 
agents, inspectors, canine enforcement teams to enforce our 
trade laws and protect our borders. I understand that the 
Commerce, Justice, State Appropriations Subcommittee also 
provided a substantial amount of money for the INS hires and 
infrastructure needs.
    Of course, in light of the events of September 11 this, in 
my judgment, is merely a down payment. I am sure a much, much 
larger requirement is in store for the Customs Service and INS 
and I expect we will hear some about that today.
    Let me be quick to say, your agencies are not without 
tools, from long range patrol aircraft and marine vessels, to 
advanced technology with which to examine the incredible volume 
of cargo entering our 301 ports of entry. We commend you for 
doing a seemingly impossible task. What you lack in manpower, 
technology, or infrastructure you make up in innovation and the 
sheer determination of many wonderful inspectors and agents 
around the country.
    But it is not enough. We have asked you here to discuss 
these efforts and your needs. One major question is how the 
additional emergency funds we provided a few weeks ago in 
response to the attacks might be allocated; see whether you 
have some information about that. We assume that your agencies 
are weighing in with the Office of Management and Budget and 
the Administration in making a strong case for the additional 
resources. We want to help you meet your needs because we want 
to help make our border secure.
    As I indicated, we are aware that after September 11 you 
redoubled your efforts at the borders, the seaports, and the 
airports. Every person I talked to from your two agencies at 
the border has been working long, long hours for many, many 
days and I deeply admire their commitment. I know your 
resources are stretched from this effort so I have asked you to 
discuss with us the northern border security needs today.
    The American people, as all of us know, need confidence 
that we are going to prevent future acts of terrorism by being 
very vigilant among our border ports of entry to make sure 
those who should not come into our country are not getting into 
our country. So let me thank you for being here.
    As I indicated earlier, we will have additional hearings. 
There is a southern border. We, of course, have had more 
resources at the southern border dealing with immigration, 
drugs and terrorism. And we will also explore that at a future 
time. But, I would like especially today to talk about the 
northern border issues.
    We are joined by a number of my colleagues and I would like 
to recognize them. Senator DeWine was here first. Senator 
DeWine?


                    statement of senator mike dewine


    Senator DeWine. Mr. Chairman, I will be very brief because 
I am looking forward to hearing the testimony from our 
witnesses. I want to thank you for holding this hearing this 
morning.
    As you point out, for any number of reasons, our focus on 
our border has been primarily in the South. Events of the last 
several weeks have shown us the importance of that northern 
border. We have a tough challenge as a country. A tremendous 
amount of, not only traffic, but goods go through that northern 
border as well as our southern border. We have to balance the 
security interests of this country along with the economic 
needs of our country. Obviously if it is a choice between the 
two, security must come first.
    I look forward to having the opportunity to question both 
of our witnesses today, Mr. Chairman, about some of these 
particular questions in regard to our northern border. Thank 
you very much.
    Senator Dorgan. Senator Leahy?


                 statement of senator patrick j. leahy


    Senator Leahy. Thank you, Mr. Chairman. I want to thank you 
and Senator Campbell for inviting me to come here even though--
I am on the full committee; not on this subcommittee. I just 
want to make a couple comments. I am delighted that 
Commissioner Bonner and Commissioner Ziglar are here. They 
bring a great deal of expertise and knowledge to this 
situation.
    You point out the lack of staffing on the northern border 
and I could not agree with you more, Mr. Chairman. We do have 
lack of both resources and staffing on the northern border. My 
home State of Vermont has seen huge increases in Customs and 
INS activity since the signing of NAFTA. The number of people 
coming through our borders has risen steeply over the years and 
our staff and our resources have not.
    I am very familiar with the border. I live less than an 
hour's drive from the border in Vermont. I go across it quite 
often and have a pretty good sense of what we have there. I 
usually hear, when I go through, from the people at the border 
crossings, our two major ones at Derby Line and Highgate 
Springs. I cannot tell you how many times the Customs employees 
there have talked to me about the need for more people. I have 
heard very similar to what Senator Dorgan has heard in North 
Dakota.
    There seems to be this disconnect between what the people 
who are on the job, in the field say they need and what we hear 
in Washington on the organizational charts of what they need. 
There is an awful lot of difference. These attacks make these 
differing views even more troubling. Make them more obvious, 
but they make them more troubling.
    I do not pretend that Vermont is the only northern State 
with this problem. Every one of our northern States--we have 
4,000 miles of our northern border. There are 1,773 Customs 
agents. We have a 2,000 mile long southern border. We have 
8,000 agents along that border. About five times more along the 
southern border which is only half the length of our northern 
border. The INS has similar discrepancies.
    Frankly, it seems to me the entire upper tier of our 
country has lost out to the southwestern border and the 
stalemated war on drugs. When we see what happened September 
11, we know how crucial it is to even things out.
    I commend the leadership of this committee. Before 
September 11 they added $25 million to increase Customs agents 
in the North. It is desperately needed.
    Now the anti-terrorism bill that is working its way through 
the Judiciary Committee has a section--I would ask you both to 
take a look at it. I have every reason to believe it will be in 
the final package because it will be accepted before we have 
the final package. It triples the number of Border Patrol 
agents, INS inspectors, and Customs Service personnel in each 
northern border State. It directs $50 million for INS and $50 
million for Customs to improve technology and acquire 
additional equipment for use on the northern border. It waives 
the cap on the number of full-time employees that can be 
assigned to the INS as applied to the northern border. It 
allows the Attorney General to authorize additional overtime 
pay for INS officers to ensure that experienced personnel are 
available. And it gives INS access to criminal history record 
information contained in the FBI's National Crime Information 
Center databases.
    So I want you to take a look at that. I think you are going 
to find it is going to help you a great deal. I have been 
pleased by a number of members of the Judiciary Committee in 
both parties, whether they are from the north or not, who have 
joined onto that. I think it is going to help you and I want 
you to take a look at it. Afterwards, get back to me or my 
staff, let me know what you think about it.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Leahy, thank you very much.
    Senator Burns?


                   statement of senator conrad burns


    Senator Burns. Thank you very much, Mr. Chairman. Thanks 
for holding this hearing. When you say there is almost 4,000 
miles of Canadian border, let me tell you, I represent a State 
where 25 percent of that border is between us and Canada. I 
think it presents unique problems for not only the Customs 
people but the Immigration people, especially in North Dakota 
and Montana because we are similar. We have similar cultures.
    The border has always been porous. In other words, the 
chairman held up the cone today and talked about this is our 
security. He should have gone on and said that they do not have 
to run over the cone. In fact they do not even have to go to 
the cone. They can just go 100 yards to the right or left and 
go across the border. We have farmers in Montana that farm both 
sides of the border. They farm in Canada. They also farm in 
Montana. There are country roads that have no barrier at all in 
crossing between the United States and into Alberta or 
Saskatchewan.
    So we have a unique problem on our northern border. I think 
we will have to ask our questions, yes, we like them secure, 
but we also like them so that they work. I think the chairman 
has done something that is very important here, that the more 
people we have and can give us more flexibility in those 
crossings and make them more facilitate commerce and what we 
have to do on both sides of the border, because we do go back 
and forth a lot.
    I think we will have to ask a lot of questions of the two 
gentlemen that are in front of us today about will we shift 
away from video inspection and consequently more on 
concentrated of human staffing? Are we going to get away from 
that? Montana, we got gates that will not close. They are 
rusted open, so to speak, and the facilities are not good. And 
we have people that are really over-taxed as far as deployment 
of their duties. They are standing 12-hour shifts and these 
type things. So the concentration of the traffic is going to 
have to be facilitated also.
    But we have unique situations. It is because we have 
similar cultures that we do not think before--the agriculture 
in Montana and North Dakota is similar to the ones that are in 
Alberta and Saskatchewan. So we are faced with that. And we 
exchange with the movement of livestock, the movement of farm 
machinery, the movement of a myriad of things, goods and 
services that are used, I would say, within 20 or 30 miles of 
the border either side of it. So we have to look at those 
things too.
    So these hearings are essential. They are very important. 
Just like I said, the security of the country has to be looked 
at first. We know that it is going to inconvenience some of us, 
but I think it is an inconvenience that the American people are 
willing to accept at this time in order to protect our borders. 
Because we know one thing, terrorism is faceless. It is also 
gutless. And it moves between Nations without we even seeing 
them. We know that movement in and out of the country, and the 
freezing of their money and their accounts is something that is 
going to slow them down a little bit. But it will not make us 
100 percent safe. That is a very serious challenge that this 
country has to face.
    So I thank both you gentlemen for what you do. I thank the 
chairman for holding this hearing, keeping in mind that it is 
bigger than just a cone. There is a lot of dirt between light 
bulbs out there, and that is where these people operate. Thank 
you very much, Mr. Chairman.
    Senator Dorgan. Senator Burns, thank you very much.
    Let me again say that the attack on September 11 was an 
attack on freedom everywhere. I should have mentioned, and did 
not in my opening statement, that Canada is a good friend of 
ours. We have a long, common border. We have a great deal in 
common. Canada also cherishes its freedoms. The attack on the 
World Trade Center was on a center that really represented the 
world. It was an attack on all free countries in the world, and 
Canada shares a common purpose with us.
    I want to say that when we talk about the northern border, 
it must be, in my judgment, in close cooperation with the 
Canadians in order for us to do what we need to do on the 
northern border to prevent terrorists from moving back and 
forth across our border. We had a circumstance in Port Angeles, 
Washington which could have resulted in dramatic terrorist acts 
against this country that was foiled. That is up on the 
Canadian side, and coming into this country they apprehended 
the person that was going to commit terrorist acts. But that is 
just an example of what can happen in the future, and it is an 
example of why we must be vigilant.
    Finally, let me say again, America cannot effectively 
combat terrorism if it first does not control its borders. Very 
simple, but plain. Our country cannot effectively combat 
terrorism if it does not control its borders. That is what this 
is all about.
    Now let me introduce Commissioner Bonner. Commissioner, you 
have a long history of service to our country. We appreciate 
your being here. You have just been confirmed by the Senate. I 
was pleased to be supportive of that confirmation, and we are 
pleased that you have assumed the role of leader of the Customs 
Service at this point. Why don't you proceed? Your full 
statement will be made a part of the record. Following that we 
will hear from Commissioner Ziglar and then we will open it up 
for questions.


                     statement of robert c. bonner


    Mr. Bonner. Thank you, Chairman Dorgan, and Senator DeWine. 
I want to thank you for the invitation, Mr. Chairman, to 
testify before this committee today, particularly with respect 
to the issue of securing America's northern borders.
    This, as you know, is my first appearance before the 
committee. In fact it is my first appearance before any 
committee of Congress since being sworn in as the commissioner 
of Customs a week ago last Monday. Mr. Chairman, I want to 
thank you for your support in accelerating my confirmation both 
here and in the Senate.
    I have submitted a prepared statement, Mr. Chairman, and 
with your permission what I intend to do is simply to summarize 
or highlight a few things that I said in the prepared 
statement.
    First of all, as the guardian of the Nation's borders, 
Customs unquestionably has a big role to play in the struggle 
against the forces of terror, terrorists, and the implements of 
terrorism, in the struggle in which our country is now engaged.
    The U.S. Customs Service, I think it is fair to say, is a 
vital link in the chain of homeland security, and in light of 
the attacks on our country on September 11. I certainly am 
committed to do everything in my power to secure our borders, 
all of our borders, against terrorists and the implements of 
terrorism. And to do everything in my power to see that our 
borders are secure, both our land border with Canada, a long 
4,000-mile land border, as well as our seaports and our 
airports. That is certainly my highest priority, and I can 
assure this committee that is the highest priority of the 
Customs Service.
    The northern border is a major focus of our efforts. Given 
this country's historic partnership with Canada--Mr. Chairman 
you just mentioned that--the length of that shared border, and 
the huge flow of travel and trade that crosses between our two 
Nations we must work together, now more than ever, with our 
Canadian partners to increase protection of our mutual 
interest.
    I also want to take this opportunity to acknowledge the 
strong cooperation between the United States Customs Service 
and the Immigration and Naturalization Service, particularly I 
might say, with Commissioner Ziglar's service in these past 
several weeks.
    Customs has consulted closely with Commissioner Ziglar and 
his staff, for example, prior to the implementation of a Level 
1 alert that was put into effect on the morning of September 
11, very shortly after the attacks occurred on our country in 
New York and on the Pentagon that morning. We have monitored 
the effects of our increased security as a result of the Level 
1 alert together in order to minimize traffic and delays, while 
at the same time maintaining the level of security that is 
commensurate with the threat.
    We have also stepped up our efforts between Customs, the 
INS, and the State Department's Bureau of Consular Affairs to 
ensure that information gathered through the advanced passenger 
information system, which is our database on arriving 
commercial air passengers, is exchanged between our agencies in 
a timely and secure way.
    Turning to Customs' efforts on the northern border, Mr. 
Chairman, as you know the Customs Service was addressing 
security along our border with Canada well before the attacks 
of September 11. The arrest, as you alluded to a moment ago, 
the arrest of an Algerian terrorist known as the millennium 
bomber, Ahmed Ressam, by Customs inspectors at Port Angeles, 
Washington, which was less than 2 years ago, set into motion a 
number of measures to bolster security on our northern flank. 
This subcommittee was instrumental in helping Customs to 
implement those initiatives.
    However, in my judgment, we clearly must do more in light 
of the terrorist attacks of September 11. We are currently 
working with the Department of the Treasury and the 
Administration to ensure that the challenges faced by Customs 
are addressed as part of the Administration's counter-terrorism 
supplemental bill. This funding will help us to address both 
our workload and the national security needs that have been 
clearly underscored as a result of the attacks on September 11.
    As I mentioned, as part of our response to the terrorist 
threat U.S. Customs went to a Level 1 alert immediately 
following those attacks for all Customs personnel at all ports 
of entry into the United States. That is the highest state of 
alert, calling for sustained, intensive, anti-terrorist 
operations. We are still at Level 1 alert today. I might say, 
we are likely to be at Level 1 alert at least for the 
foreseeable future.
    All ports of entry have increased vehicle, passenger, 
cargo, and mail examinations that are commensurate with the 
threat at their particular location. We have suspended 
dedicated commuter lane programs and remote inspection 
reporting systems. Every port of entry has been ordered to be 
staffed, and it is certainly my goal----
    Senator Dorgan. Can you repeat that last point? You 
suspended----
    Mr. Bonner. Yes. Customs has suspended dedicated commuter 
lane programs and remote inspection reporting systems. They are 
inadequate, in my judgment, to maintain the security that we 
must maintain at our northern border. Every port of entry has 
been ordered to be staffed with at least two officers. That is 
24 by 7. That is, 24 hours a day, 7 days a week. Nearly 100 
additional Customs inspectors so far have been temporarily 
detailed to northern border posts by the Customs Service to 
ensure that this minimum applies to even our remotest ports of 
entry.
    No point of entry or port of entry into the United States, 
in my judgment, at this time can be left unsecured. I think it 
is time that--certainly, Mr. Chairman, I want to retire those 
orange cones. At least I think it is time that we do that.
    While Customs is sustaining a Level 1 alert through these 
measures, the fact is that we are expending an enormous amount 
of overtime, far beyond normal times. We are asking our people 
to work much longer and harder hours as, Mr. Chairman, you 
learned yourself when you were up in North Dakota on Friday. I 
am concerned that just the amount of hours is going to lead to 
some burn-out of our good Customs inspectors that are manning 
these ports of entry.
    We are also asking for the public and the trade 
communities' patience as we work to protect our country from 
the immediate threat. Responsibility for America's safety must 
be shared by all. I am pleased to report that despite some 
initial concerns about the Level 1 alert causing inordinate 
delays--and they were causing, by the way, very, very long 
delays, particularly at the Michigan border entry points. I am 
talking about the Ambassador Bridge in Detroit, Port Huron, and 
so forth.
    We have in fact, within 4 or 5 days, succeeded in reducing 
substantially the wait times at the border to levels that right 
now are at or near what they were prior to September 11 while 
still being at a Level 1 alert. We have done that through 
working with the industry and coming up with some very good 
initiatives. The Customs Service has come up with some very 
good initiatives that have been helpful to alleviate those wait 
times.
    That has involved consultation and cooperation with our 
partners in the business community, particularly, by the way, I 
might say the U.S. automobile manufacturers. That was, in my 
judgment, also very instrumental to our success in reducing 
those very lengthy wait times that resulted from a Level 1 
alert right after September 11.
    We will continue to work with the private sector to devise 
solutions that meet the needs of business without compromising 
our national security. The $25 million for northern border 
staffing provided, Mr. Chairman, by the Senate-passed version 
of our fiscal year 2002 appropriations bill will help Customs 
to meet its manpower needs. But I certainly will continue to 
explore and am exploring the other options and requirements 
that are necessary to strengthen our security along the 
northern border.
    While our highest priority must be the security of our 
Nation's borders and its ports of entry, efforts to modernize 
the Customs Service must continue. Certainly that includes the 
development of the automated commercial environment, or the ACE 
program. I look forward to working with this committee with 
respect to continuing that infrastructure improvement at the 
U.S. Customs Service.
    I can assure you, Mr. Chairman, that we are fully committed 
to the fight against terrorism, and to the security of our 
borders, both north and south. We look to our trusted friend 
and partner, Canada, to assist us. In fact I might say that one 
of the very first calls that I received after assuming my 
duties as the Commissioner of the United States Customs Service 
came from Rob Wright, who is the Canadian customs and revenue 
commissioner. Commissioner Wright pledged his support and 
cooperation of Canada, Canadian customs, in working with us to 
prevent terrorism and the implements of terrorism from crossing 
our northern border. I am planning to meet, by the way, with 
Commissioner Wright soon and will personally discuss with him 
our joint security efforts.


                           prepared statement


    This subcommittee has also been of invaluable assistance to 
Customs in the past and I expect will be more so in the future 
as we work to protect America against terrorism. I look forward 
to working with you, Mr. Chairman, Senator DeWine, with the 
subcommittee in the future and I would be happy to answer any 
questions that you may have of me.
    [The statement follows:]

                 Prepared Statement of Robert C. Bonner

    Chairman Dorgan, Senator Campbell, members of the Subcommittee, 
thank you for your invitation to testify on the role of the United 
States Customs Service in securing America's Northern Border.
    This is my first appearance before the Congress as Commissioner of 
U.S. Customs, an office I am extremely proud to hold.
    As the guardian of our Nation's borders, Customs has a major role 
to play in the great struggle against the forces of terror in which 
America is now engaged.
    The Customs Service is a vital link in the chain of Homeland 
Security. We will continue to do everything in our power to strengthen 
America's defenses all along our frontiers.
    Of course, the Northern Border is a major focus of our efforts. 
Given the United States' historic partnership with Canada, the breadth 
of our shared border, and the immense flow of travel and trade between 
our two Nations, we must work together to enhance the protection of our 
vital interests at this critical time.
    I also want to take this opportunity to acknowledge the fine 
cooperation between Customs and the Immigration and Naturalization 
Service over these past few weeks.
    Customs consulted closely with Commissioner Ziglar and his staff 
prior to implementation of the Level 1 Alert put into effect following 
the monstrous terrorist attacks of September 11.
    We have continually monitored the effects of our increased security 
measures together to minimize traffic and travel delays.
    We have also stepped up efforts between Customs, the INS, and the 
State Department's Bureau of Consular Affairs to ensure that 
information gathered through the Advance Passenger Information System, 
our database on arriving commercial air passengers, is exchanged 
between our agencies in a secure and timely way.
    Turning to Customs efforts on the Northern Border, as you know, Mr. 
Chairman, the Customs Service was addressing security along our 
frontier with Canada well before the attacks of September 11.
    The previous arrest of an Algerian terrorist, the millennium bomber 
Ahmed Ressam, by Customs inspectors at Port Angeles, Washington, in 
December 1999 set into motion a range of measures to bolster security 
along our northern flank.
    This Subcommittee was instrumental in helping Customs to implement 
those initiatives. However, we clearly must do more in light of the 
recent terrorist attacks.
    Customs is currently working with the Department of the Treasury 
and the Administration to ensure that the challenges faced by the 
agency are addressed as part of the Administration's counter terrorism 
supplemental bill. This funding will help us to address both our 
workload and national security needs.
    Trade and travel between the U.S. and Canada has jumped 
dramatically since the implementation of the North American Free Trade 
Agreement in 1994.
    Protecting our expanding economic ties with Canada, while 
preventing terrorists from exploiting increased traffic flows, is our 
goal on the Northern Border.
    As part of our response to the terrorist threat, U.S. Customs 
implemented a Level One Alert immediately following the attacks for all 
personnel and ports of entry. This is our highest state of alert, 
calling for sustained, intensive anti-terrorist operations.
    We remain at Level 1 alert today.
    All ports of entry have increased vehicle, passenger, cargo, and 
mail examinations commensurate with the threat at their location.
    We have suspended dedicated commuter lane programs and remote 
inspection reporting systems.
    Every port of entry has been ordered to be staffed with at least 
two officers, 24 hours per day, 7 days per week.
    Nearly 100 additional Customs inspectors have been temporarily 
detailed to northern border posts, to ensure that this minimum applies 
even to our remotest ports.
    While Customs is sustaining the Level one alert through these 
measures, the fact is we are expending a vast amount of overtime, 
asking our people to work much longer, harder hours.
    We have also been asking for the public's and the trade community's 
patience as we work to protect our Nation from the immediate threat. 
Responsibility for America's safety must be shared by all.
    I am pleased to report that, despite initial concerns about our 
Level One alert placing an undue burden upon normal border flows, we 
have in fact succeeded in reducing waiting times at the border to the 
levels they were at prior to the September 11 attacks.
    Enhanced cooperation with our partners in the business community 
was instrumental to our success. We pledge to continue to work with our 
partners in the private sector to devise solutions that meet the needs 
of business and our national security.
    The $25 million for Northern Border staffing provided in the 
Senate-passed version of our appropriations bill will help Customs to 
meet its manpower needs. We will continue to explore other options to 
strengthen security along our northern frontier.
    I should also add that, while our first priority will be the 
security of the Nation's borders and its ports of entry, efforts to 
modernize the Customs Service will continue.
    The development of the Automated Commercial Environment, or 
``ACE,'' is essential to Customs' ability to protect America and its 
commerce well into the future.
    I look forward to continuing Customs work with the Subcommittee on 
ACE development, which will harness the promotion of commerce and the 
strengthening of our national defenses.
    Mr. Chairman, the Customs Service is fully committed to the fight 
against terrorism and the security of our borders, north and south.
    We will look to our trusted friend and partner Canada to assist us 
every step of the way.
    One of the very first letters I received upon being confirmed as 
Commissioner of Customs came from my direct counterpart at Canada 
Customs and Revenue, Commissioner Rob Wright.
    In keeping with the tradition of partnership that has always marked 
the relationship between our two agencies, Commissioner Wright pledged 
the full support and cooperation of Canada Customs in preventing 
terrorists and the implements of terrorism from transiting our northern 
border.
    I plan on meeting with Commissioner Wright very soon to further our 
joint security efforts.
    Of course, we will continue to seek the guidance and support of 
this Subcommittee.
    I know that your assistance has been invaluable to Customs in the 
past, and that it will be all the more so in the future as we work to 
defend America from the terrorist threat.
    I want to thank the members of the Subcommittee again for this 
opportunity to testify.
    I look forward to working with you; and I would be happy to answer 
any questions you might have.

    Senator Dorgan. Commissioner Bonner, thank you very much.

                         DEPARTMENT OF JUSTICE

                 Immigration and Naturalization Service

STATEMENT OF JAMES W. ZIGLAR, COMMISSIONER
    Senator Dorgan. We also are joined by Commissioner Ziglar, 
the Commissioner of the Immigration Service. Commissioner 
Ziglar, as all of you know, was an officer with the U.S. 
Senate, the Sergeant-at-Arms. I was pleased to be supportive of 
your nomination, and pleased that you are in your current post 
at this time. We would like to hear your statement. We will 
include the entire statement as part of the record and you may 
summarize.
    Mr. Ziglar, welcome.
    Mr. Ziglar. Thank you, Mr. Chairman, and Senator DeWine. It 
is a real honor to be here today to discuss with you northern 
border security. As I mentioned to you when I first walked in 
here, I am particularly pleased that my first appearance back 
on the Hill in an official capacity at INS is before the 
Senate. I enjoyed very much my 3 years as Sergeant-at-Arms and 
I will be forever grateful for that opportunity.
    I have submitted a much longer statement which I would 
appreciate having in the record.
    First I would like to take a moment to recognize the many 
employees of the INS who have performed superbly during this 
past few weeks of crisis, and before that time. In my 2 months 
now in the job, I have found this organization to be a very 
solid and professional organization that has both the will and 
the determination to make some of the very needed changes that 
we have, both internally and in the aggregate with respect to 
security on our borders.
    I think it is worth noting that the INS bears a very heavy 
burden that most Americans do not recognize. As Commissioner 
Bonner pointed out, the INS and the Customs Service share 
responsibility at the ports of entry throughout the country and 
along our borders. What most people do not know though is that 
the 6,000 miles of land border that we have here, 4,000 of 
which are along the Canadian border, the northern border, the 
INS and the Border Patrol have sole responsibility for those 
points between the ports of entry. That is a pretty heavy 
burden.
    I think most Americans do not realize something that you 
pointed out, if you do the math, Mr. Chairman, is that over 500 
million people cross our borders every year. Now what most 
people do not realize is that most of those people come through 
our borders on either visa waiver programs or other exemptions 
to visas. What most Americans do not realize is that the INS is 
not the agency that issues visas to foreigners wanting to come 
into this country. What most Americans do not realize is that 
the INS has less than 5,000 inspectors to handle those hundreds 
of millions of people crossing our border in conjunction with 
the Customs Service.
    What most Americans do not realize is that we have about 
2,000 investigators and intelligence officers who are 
responsible throughout the country for dealing with 
undocumented aliens, or as some like to call them, illegal 
aliens; those that over-stay their visas or are otherwise out 
of status, smuggling rings, which are a major problem in this 
country, human smugglers bringing people into the country, and 
of course, criminal aliens. We have a very small force to deal 
with all of those different issues within the INS.
    So as I have noted, Mr. Chairman, the INS has a very heavy 
burden to bear when it comes to the border and with respect to 
the interior of this country.
    The tragic events of September 11 have clearly pushed 
border management and border security onto center stage. I am 
here to talk about northern border security, but I would like 
to point out that we have a need for sound operations on all of 
our borders, and that includes both intelligence gathering, 
effective intelligence gathering, and interior enforcement. You 
have to have a seamless network if you are really going to, in 
effect, protect your borders.
    To combat terrorism and to combat other types of criminal 
activity, we have got to have effective cooperation from U.S. 
agencies and our international partners. I must say that the 
cooperation among the FBI, the INS, and the Customs Service, 
certainly in this period of the last three weeks has been a 
very good model for what I think we can do in the future.
    We have a very special long term relationship with the 
Customs Service as a result of the fact that we share 
responsibility at the ports of entry. But in recent weeks, I 
can tell you that that has been a particularly close 
relationship in terms of exchange of data, coordinating our 
activities at the ports, and deploying personnel. Commissioner 
Bonner referred to it a few minutes ago and I would like to 
echo what he said. It has been a very pleasant start to both of 
our new tenures in office.
    I would like to turn to the northern border specifically 
now, and first I would like to address what I think is a common 
misperception, that the northern border is totally undefended 
and totally unprotected. The fact is that we have 965 Border 
Patrol agents, inspectors, and other personnel--and I am 
speaking for INS--on the border as we speak. Obviously, Customs 
has folks there that we share responsibility with. These people 
do an excellent job at what they do, and they do that quite 
often at great personal risk, as you know. However, we need to 
do a lot more. But that is a far cry from saying that we are 
doing nothing on the northern border.
    I would also like to take this opportunity to talk about 
our relationships with the Canadians. It has been a very 
productive and a very friendly and cooperative relationship. 
Let me give you an example. In the first 6 months of this year 
we have apprehended 8,000 criminal aliens on all borders of the 
United States. Four thousand of those have been apprehended on 
the northern border, notwithstanding the significant difference 
in resources between the southwest border and the northern 
border.
    The reason for that in large part is because of the 
relationship we have got with the Canadians in terms of 
intelligence sharing and other information sharing. They have 
been extremely helpful to us in our ability to detect and 
apprehend criminal aliens on the northern border. There are a 
number of other examples such as that, but the point is that it 
is a good relationship and it is a relationship that works. Yet 
we can still do a lot more with the Canadians.
    In looking at the northern border, as you so well know, 
this is a situation where there is not a one-size-fits-all 
remedy to the problem. What might work on the southwestern 
border may not work on the northern border. Particularly, given 
the fact that you have got 4,000 miles of very, varied rugged 
terrain there is absolutely nothing to say that one situation 
or one remedy is going to work. We have got to move our 
remedies according to the terrain that we are dealing with.
    But I will tell you, there are two elements that are needed 
no matter what you do. The first element is expanded and 
enhanced use of advanced technology. The second one is more 
coordination and more cooperation on both sides of the border. 
Those two things I think are essential regardless of what the 
remedy is.
    Technology is an important force multiplier that provides 
real-time information to our inspectors, our agents, and others 
that are on the border. It allows them, like I say, in a real-
time way, to deny unlawful entry to those that we do not want 
in this country, and also to facilitate the flow of commerce. 
You mentioned that, Mr. Chairman, and as you know I have a 
business background so I always think in those terms.
    I have got to tell you, the one thing that troubles me is 
that if we ever get to the point that we want to build a wall 
on our borders, what we will do is we will destroy the 
economies of both our country, Canada, and Mexico. So we have 
to figure out a way to secure our borders and yet facilitate 
the flow of commerce.
    I urge you, and I know you have and I know in a number of 
pieces of legislation you are already addressing this, but I 
urge you to give careful consideration to the use of technology 
as one of the remedies to the problems that we have on the 
borders. The INS is working both through our domestic and our 
international partners to improve the border security. But I 
can also tell you that we are working to improve our processes 
within the INS. Well before September 11 we were making serious 
progress on developing strategies to improve how we do our 
business.
    As part of the restructuring of the INS which the Congress 
and the President gave me as a mandate--certainly I got that 
message going through confirmation. As part of that process I 
have reached out to our employees and others for ideas about 
how we can do our business better. I have got to tell you, we 
have gotten a lot of great ideas, particularly from the inside, 
and we are still in the process of evaluating some of those 
ideas.
    But within the context of what we believe is doable and 
what is currently doable and what is effective there are a 
number of measures that we are working on with the 
Administration to implement as we speak. I am only going to 
talk about two or three here, but in my written text is a much 
longer list of things.
    One, obviously, is increasing the number of Border Patrol 
agents, inspectors, investigators, and intelligence agents. 
Also equipping those folks with the kind of technology that 
will multiply their ability to do their jobs effectively.
    Second, we want to expand our access to biometric ID 
systems such as IDENT. I know, Senator DeWine, you have been 
quite interested in that particular system. We are looking at 
requiring air carriers to provide us with advance passenger 
information before boarding passengers so that we can 
intercept, before they come into this country, passengers who 
are terrorists, criminals, or others who are inadmissible into 
the United States.
    We also want to expand our lookout system to all parts of 
the INS system. That way we have more than one opportunity to 
detect somebody who is in the country or about to come into the 
country that is not admissible.
    We also--and this is very important. We are in the process 
as we speak of upgrading our infrastructure, our information 
technology infrastructure, and our data sharing infrastructure 
so that that information would be, again, available on a real-
time basis to inspectors, adjudicators, and our investigators 
as well as other appropriate law enforcement agencies, so that 
we have a much better coverage on those people that we are 
attempting to detect who are trying to get into this country.
    Mr. Chairman, one thing that I would like to highlight, and 
that is that we have a real problem at the INS that most other 
agencies do not have, and that is the overtime cap. It is now 
becoming a real problem for us. It is on a calendar-year basis 
and it is a number that we cannot go over with respect to our 
employees. We now find ourselves, with respect to a lot of 
employees, just because we have been understaffed, hitting that 
overtime cap and it is only the beginning of October.
    We are now having to shift personnel around in order to 
find people who are not at the cap, moving them around. It is 
getting to be expensive and inefficient. I know that that is in 
the terrorism bill that the Administration is working on with 
Congress, but that is a critical item. If for some reason that 
legislation is not going to move quickly, we would sure like 
another vehicle to get that done if it is possible, because we 
really do have a problem.

                           prepared statement

    Mr. Chairman, we must increase security, no question about 
it. But in doing so, we must not forget what made this country 
great. It is our openness to new ideas and to new people, and a 
commitment to individual civil liberties, shared values, 
innovation, and the free market. If in response to the events 
of September 11 we sacrifice those things in search of 
security, then the terrorists will have won and we will be left 
with neither security nor freedom.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.
    [The statement follows:]

                 Prepared Statement of James W. Ziglar

    Mr. Chairman and Members of the Committee, I want to thank you for 
the opportunity to testify today on ``Northern Border Security.'' This 
is my first appearance before the Congress since assuming the post of 
Commissioner of Immigration and Naturalization. I am pleased that the 
Senate provided my first opportunity to return to Capitol Hill in an 
official capacity. I very much enjoyed my tenure as the Senate Sergeant 
at Arms from November 1998 to August 2001. It was an experience and 
opportunity for which I will be forever grateful.
    Although I have served as Commissioner for only two months, I have 
not viewed that as a liability in responding to the tragic events of 
September 11, primarily because of the highly professional career 
public servants who have provided me with mature advice and assistance. 
These tragic events, however, have provided an opportunity for me to 
examine, with a fresh eye, the management, personnel, technology, and 
policy capabilities of the INS.
    Most Americans do not realize the challenges that we face. More 
than five hundred million people cross our borders every year; and the 
vast majority of those five hundred million enter the United States 
through visa waiver programs or other exemptions from the normal visa 
process; most Americans do not realize that it is not the INS that 
issues visas to foreigners who wish to visit the United States; the INS 
has 4,775 inspectors to process these hundreds of millions of visitors 
who arrive at our borders every year; the INS has 1,977 investigators 
throughout the country who are available to deal with persons who have 
entered illegally, have overstayed their visas or otherwise have 
violated the terms of their status as visitors in the United States. 
Despite the workload challenges and accomplishments of the INS, changes 
are still needed to ensure efficient and effective operations. The 
structure of the organization and the management systems that we have 
in place are outdated and, in many respects, inadequate for the 
challenges we face. Our information technology systems must be improved 
in order to ensure timely and accurate determinations with respect to 
those who wish to enter our country and those who wish to apply for 
benefits under our immigrations laws. The management restructuring of 
the INS is on its way-a mandate the President and the Congress have 
given me-and the improvement of our information technology systems is 
being planned and can be accomplished with the help and support of 
Congress.
    Mr. Chairman, I would like to take this opportunity to send a 
message to the men and women of the INS and to the public for whom they 
work: I have never been so proud of a group of people with whom I have 
been associated as I am of our Special Agents, Detention and 
Deportation Officers, Inspectors, Intelligence Officers, Border Patrol 
Agents, Attorneys, and numerous other individuals both at headquarters 
and in the field in response to the events of September 11. Within 
hours of the attacks, the INS was working closely with the FBI to help 
determine who perpetrated these crimes and to bring those people to 
justice. Within 24 hours, under ``Operation Safe Passage,'' INS 
deployed several hundred Border Patrol agents to eight major U.S. 
airports to increase security, prevent further terrorist incidents and 
restore a sense of trust to the traveling public. At America's ports of 
entry, INS inspectors continue to work tirelessly to screen arriving 
visitors, while encouraging the flow of legitimate commerce and 
tourism. Meanwhile, despite the tragedies and the disruptions, our 
service operations have managed to complete over 35,000 naturalizations 
nationwide and process thousands of other applications since September 
11. America should be proud of the extraordinary effort of these men 
and women.
      a new focus on our borders and intergovernmental cooperation
    The tragic events of September 11 have pushed the security and 
management of our borders onto center stage. While I am here today 
primarily to discuss the northern border, we must keep in mind the need 
for sound operations on both borders. Moreover, we must remember that 
the various agencies of the U.S. government must work together, and 
with our allies, to achieve a safer and more prosperous America and 
world. I think the excellent cooperation between INS, the FBI and the 
U.S. Customs Service, particularly during this crisis, is an example of 
that necessary cooperation. We have a special relationship with the 
Customs Service due to our shared responsibilities at the ports of 
entry. In recent weeks, we have worked especially closely with them in 
coordinating and consulting on security status at ports of entry, 
exchange of information and data, and the deployment of personnel.
                          the northern border
    I would like to begin by addressing what appears to me to be a 
common misperception about our northern border, namely that it is 
``unprotected'' and ``undefended.'' The fact is that we presently have 
approximately 965 Border Patrol Agents, Inspectors and support 
personnel on the northern border. They do an excellent job in carrying 
out their responsibilities. However, more could be done along the 
northern border. The good news is that we have an important partner on 
the northern border who has been very helpful --and that is Canada. For 
example, due in part to the excellent system Canada has put in place to 
share information with us, in the first six months of fiscal year 2001 
more than 4,000 criminal aliens, or half of all criminal aliens 
intercepted at all United States ports of entry, were caught at 
northern border ports. There are numerous other examples where 
cooperative efforts with the Canadians have helped protect the northern 
border. Nevertheless, there is plenty of room for improvement.
    The focus of the last few years has been on the southwestern 
border. As a result, the growth in INS resources has continued to be 
deployed to stop the illegal flow of immigration in this area. We have 
made dramatic improvements along the southwestern border and have 
gained control in many areas and we will be looking at how to deploy 
the additional 570 Border Patrol agents that the President proposed and 
the House and Senate have supported.
    Today, the INS has 498 inspectors at northern border ports of entry 
and 334 Border Patrol Agents assigned to the northern border. Of the 
113 northern border ports, there are 62 small ports that do not operate 
on a 24-hour basis. About 35-40 percent of these select ports process 
fewer than 30 thousand entries per year, but still require the 
dedication of valuable resources. In addition, it should be noted that 
the INS and the U.S. Customs Service share responsibility for staffing 
primary inspection lanes at many land border ports. However, when 
secondary inspections are necessary, primary inspectors often must 
temporarily close down lanes, thereby disrupting the regular flow of 
individuals and commerce across the border.
    Currently we are reviewing any security deficiencies, our 
enforcement posture at ports of entry, and how to facilitate the flow 
of commerce to determine how we can improve. Resources could be 
assigned as needed to allow for (1) implementation of special 
initiatives with U.S. Customs and with Canada at higher risk ports; (2) 
conducting more thorough primary inspections without impeding traffic 
flow; and (3) engaging in targeted control processes to apprehend 
violators, including criminal aliens and suspected terrorists.
    Technology can also play a critical role and has proven to be a 
``force multiplier'' that can provide detailed, real time information 
concerning border activity. This is essential to border enforcement 
operations given the threats and challenges are different all along the 
northern border, and different challenges require different approaches. 
Our shared border with Canada runs nearly 4,000 miles and is filled 
with rugged terrain. Advanced technology can also help inspectors 
fulfill their dual mission of preventing unlawful entry and 
facilitating the movement of legitimate tourism and commerce.
                       steps to improve security
    Even before September 11, we were examining how we can improve the 
INS, at all levels. As part of our restructuring initiative, I 
encouraged our employees at all levels to think ``outside the box'' as 
to how we can better accomplish our mission. They responded with a 
number of creative ideas, some of which we are still evaluating. 
However, within the context of what is already known to be ``doable'' 
and effective, we are considering a series of solid measures that would 
strengthen our enforcement capabilities. We are working within the 
Administration to determine how to implement these measures. Some of 
our ideas are as follows:
Border Patrol
    As requested in the President's budget, increase the number of 
Border Patrol agents and support staff along the northern border, while 
not neglecting the continued needs along the southwest border. Such 
increases should also include necessary facilities infrastructure and 
vehicles.
    Provide additional agent support equipment and technology 
enhancements. Unfortunately, neither the Senate nor the House currently 
is funding the President's request at $20 million for ``force 
multiplying technology.''
    Expand access to biometric identification systems, such as IDENT.
Inspections
    In the Inspections area, as we proposed in our fiscal year 2002 
budget, we believe we should increase the number of Inspectors at our 
Ports of Entry.
    Require inspection of all International-to-International Transit 
Passengers (ITI) so that all travelers who arrive in the United States 
are inspected and clearly identified.
Information and Technology Initiatives
    Require carriers to submit Advance Passenger Information before 
boarding passengers (whether the passenger is heading to the United 
States or attempting to depart the United States) to prevent known 
terrorists, criminals, and inadmissible passengers from boarding.
    Make Advance Passenger Information data more widely available to 
law enforcement agencies, enhancing the ability to identify potential 
threats prior to departure for or arrival in the United States, as well 
as to prevent the departure of individuals who may have committed 
crimes while in the United States.
    Implement the National Crime Information Center Interstate 
Identification Index (NCIC III) at all ports-of-entry so that aliens 
with criminal histories can be identified upon arrival in the United 
States. NCIC III should also be available at all consular posts, INS 
service centers and adjudication offices to help identify aliens who 
pose a potential threat.
    Improve lookout system checks for the adjudications of applications 
at INS service centers.
    Improve INS infrastructure and integration of all data systems so 
that data on aliens is accessible to inspectors, special agents, 
adjudicators, and other appropriate law enforcement agencies. This 
initiative is ongoing.
Personnel Issues
    Waive the calendar-year overtime cap for INS employees to increase 
the number of staff-hours available by increasing the overtime hours 
people can work. This proposal is included in the Administration's 
Terrorism Bill.
Other Initiatives
    Re-examine and potentially eliminate the Transit Without Visa 
Program (TWOV) and Progressive Clearance to prevent inadmissible 
international passengers from entering the United States.
    Reassess the designation of specific countries in the Visa Waiver 
Program to ensure that proper passport policies are in place. This 
initiative will require the concurrence of and joint participation by 
the Department of State.
    Share with the Department of State visa data and photographs in 
electronic form at ports-of-entry so that visa information will be 
available at the time of actual inspection.
    Evaluate alternative inspection systems that allow for facilitation 
of low risk travelers while focusing on high-risk travelers.
    And review the present listing of designated ports-of-entry, in 
concert with the U.S. Customs Service, to eliminate unnecessary ports. 
This will allow the INS to deploy more inspectors to fewer locations 
making for a more efficient use of resources.
                         database improvements
    In addition to the measures cited above, I have instructed my staff 
to move forward expeditiously on two database improvement projects 
mandated by Congress. While neither of these are panaceas, they would 
represent improvements over the status quo. First, there has been much 
attention paid to student visas in recent weeks. Today, the INS 
maintains limited records on foreign students and is able to access 
that information on demand. However, the information is on old 
technology platforms that are insufficient for today's need for rapid 
access. That is why we are moving forward with the Student Exchange 
Visitor Information System (SEVIS), formerly known as CIPRIS. 
Objections primarily by the academic establishment have delayed its 
development and deployment. However, with the events of September 11, 
that objection has virtually disappeared and INS plans to meet, and 
hopefully beat, the Congress' date of 2003 to start implementation of 
SEVIS with respect to all foreign nationals holding student visas. I 
hasten to add that there is a critical need to review and revise the 
process by which foreign students gain admission to the United States 
through the I-20 certification process.
    Second, substantial attention also has been paid to entry and exit 
data. Currently, INS collects data on the entry and exit of visitors. 
However, the data first must be transferred by hand from paper to 
electronic form. This is an extremely inefficient way of processing 
data and delays access to the data by weeks and months. Knowing who has 
entered and who has departed our country in as timely a manner as is 
possible is an important element in enforcing our laws. The Data 
Management Improvement Act, passed in 2000, requires INS to integrate 
entry-exit data collection in electronic form at airports and seaports 
by the end of 2003, and at the 50 largest land ports of entry by the 
end of 2004. The legislation also requires a private sector role to 
ensure that any systems developed to collect data do not harm tourism 
or trade.
                   cooperation with canada and mexico
    Finally, I would like to say a few words about our Nation's 
relationship with our neighbors, Canada and Mexico. I would like to 
thank the Canadian people for opening their hearts to United States 
citizens and others who were temporarily unable to return to the United 
States as a result of the tragic events of September 11 and the 
resulting diversion of flights to Canada. I would also like to thank 
the government and people of Mexico for their help in this crisis, both 
in the law enforcement area and in also ensuring that planes could be 
diverted safely to Mexico during the crisis.
    The United States and Canadian tradition of cooperation and 
coordination has been long-standing, and is critical to the security of 
the northern border. This tradition was further promoted with the 
United States-Canada Accord on ``Our Shared Border'' on February 24, 
1995. Along with commercial goals, the Accord also addresses common 
security issues.
    The United States and Canada coordinate anti-terrorist efforts 
through the Bilateral Consultative Group on Counter-Terrorism (BCG). 
Established in 1988, the BCG annually brings together senior policy 
representatives from agencies and departments involved in the fight 
against terrorism. In addition, inter-agency and interdepartmental 
cooperation goes on daily between officials on both sides of the border 
to advance practical, on-the-ground cooperation. As further evidence of 
cooperation and support during this time of crisis, the Government of 
Canada has pursued a number of initiatives since the events of 
September 11, including taking measures to tighten its asylum process 
and further enhancing its intelligence sharing with the State 
Department and the INS. We are grateful for Canada's help and support.
                             looking ahead
    It has been said that after September 11 ``everything has 
changed.'' I hope that is not true. America must remain America, a 
symbol of freedom and a beacon of hope to those who seek a better life 
for themselves and their children. We must increase our security and 
improve our systems but in doing so we must not forget what has made 
this Nation great--our openness to new ideas and new people, and a 
commitment to individual freedom, shared values, innovation and the 
free market. If, in response to the events of September 11, we engage 
in excess and shut out what has made America great, then we will have 
given the terrorists a far greater victory than they could have hoped 
to achieve.
    Thank you for this opportunity to appear, Mr. Chairman. I look 
forward to your questions.

    Senator Dorgan. Mr. Ziglar, thank you very much.
    We are joined by my colleague, Senator Murray, from 
Washington. Senator Murray, did you have a statement you wished 
to make?

                   Statement of Senator Patty Murray

    Senator Murray. Mr. Chairman, first of all thank you very 
much for having this hearing. I really appreciate the 
opportunity to focus on the northern border, which obviously 
you and I share concerns about. I appreciate both Mr. Bonner 
and Mr. Ziglar being here to discuss this issue.
    Clearly, the attacks of September 11 have left all of us 
looking at every possible security measure. I appreciate your 
remarks regarding how we have to make sure we have that 
security, but also not shut down our borders to commerce. This 
is extremely important in my home State of Washington. With 
passage of NAFTA we have seen cargo entering the United States 
through Canada increase by 162 percent in the last decade. We 
do not want to stop that as a result of this, but we want to 
make sure that the people who should not be crossing the 
border, do not get across.
    That is why increasing the security guards on our Border 
Patrol are absolutely essential now. We have to focus on that 
and new technologies to make sure that the crossings move 
expeditiously but still provide us the kind of security we 
need.
    I would be remiss if I did not point out, as I think Mr. 
Ziglar just did, that our relationships with Canada are very 
good. I just want to take this opportunity to thank Canada for 
their tremendous help on September 11. I believe they took over 
400 of our airplanes in Canada on September 11.
    My daughter who is in college, a roommate of hers was 
returning from Japan to Seattle, was an hour out and was 
diverted first to Vancouver, could not land there, and ended up 
in Yellow Knife, somewhere north in Canada, as he told her, and 
spent 3 days there, and had a caribou barbecue, and was taken 
quite good care of.
    So I know that Canada really was helpful in many ways. We 
do owe them a thanks for that. We want to continue to have that 
good relationship. We want to work with them in really good 
ways, but we want to make sure that our borders are safe and 
secure.
    I look forward to the question and answer period, and 
again, really appreciate both of you focusing much-needed 
attention on the northern border as we look at these security 
issues.
    Senator Dorgan. Senator Murray, thank you very much. Let me 
ask a series of questions and then I will call on my 
colleagues. I have a number of them I want to go through, but 
we want to allow everyone to ask questions.
    First let me ask about resources, which I know is always a 
very difficult question because administrations often have 
their own version of how you balance resources between 
agencies. But one of the things that we have talked about this 
morning is the need for additional resources on the northern 
border. Perhaps on all borders, but we are talking about the 
northern border and the need for additional resources.
    Can you give me some notion from both Customs' viewpoint 
and also INS what the Administration's position is with respect 
to additional resources, and adding additional resources, 
particularly with respect to the northern border?

                     Northern Border Security Needs

    Mr. Bonner. I was counting on Mr. Ziglar to go first on 
that one, so I can learn how he is going to handle that.
    Mr. Ziglar. I would be glad to. We are in the process, Mr. 
Chairman, of discussing with the Administration, OMB and 
others, the needs and the priority for the needs that we have. 
The Administration, I can safely say, recognizes that we need a 
lot more resources, certainly from an INS standpoint. While I 
have not intervened on behalf of the Customs Service, I know 
that they feel the same way about Customs, that we need more 
technology, we need more personnel, we need to do a lot of 
things to enhance border security. So I can tell you that we 
are trying to sort out now what is the priority, and how do you 
apply them, and how do you phase them. But there is no question 
about that.
    I might add that well before September 11 the INS had a 
four-phased border control strategy that recognized--this goes 
back into the mid-1990s--recognized that we needed to do a lot 
more on the border, and have been implementing that. Now 
obviously, the southwest border has gotten an inordinate share 
of those resources, and frankly when you look at the problems 
on the southwest border you understand why that priority was 
there.
    However, the INS recognized also that we needed more 
resources everywhere. A border control strategy was put in 
effect and would have over the next 4 years or so increased our 
complement, for example, of Border Patrol agents alone by about 
40 percent. So this is not new news to us and the 
Administration is quite aware of the need for more resources, 
from our perspective.
    Senator Dorgan. Mr. Bonner?
    Mr. Bonner. As Commissioner Ziglar said, in the case of the 
United States Customs Service I am working with the Department 
of the Treasury and with OMB and the Administration to discuss 
the issues and the implications, particularly of September 11, 
on resource needs. That includes resource needs on the northern 
border.
    As I have indicated in my statement to this committee, we 
have a situation in which I certainly believe that the northern 
border security needs to be strengthened, needs to be hardened. 
I am saying right now that certainly seems to be true for the 
foreseeable future, so I think we need to plan for that. So I 
am having those discussions.
    As far as the northern border is concerned, I have taken a 
substantial number of U.S. Customs inspectors and assigned them 
to the northern border. This is very much robbing Peter to pay 
Paul to do that. That number, by the way, is not, I do not 
think, adequate. But that is to beef up our security 
immediately in light of the events of September 11. We also, as 
I have indicated, cannot sustain the levels of overtime that 
Customs inspectors are working at our borders.
    So there are certainly some staffing implications with 
respect to what is necessary here that I am addressing with 
Treasury and the Administration. There are, as Commissioner 
Ziglar indicated, also I think certainly some--this is a 
situation in which we want to consider doing something with the 
facilities. Some of that is simply doing things that would 
strengthen the security of the northern border ports of entry. 
So there are some infrastructure costs that certainly are going 
to be associated with that.

                     Need for inspection technology

    Lastly, I am certainly a believer in deploying technology 
and equipment, non-intrusive inspection technology and 
equipment on a wider basis that is more geared to the threat 
that we are facing, as a result of September 11. That is the 
introduction of terrorists into the United States, across, the 
northern border, with implements of terrorism.
    We need to in my judgment, increase and upgrade our ability 
to respond. The key is technology. It also may be a higher and 
better use of canine teams that are trained to inspect things 
other than just drugs and currency.
    Senator Dorgan. So it is safe to say that both of your 
agencies are requesting of OMB additional resources?
    Mr. Bonner. I think that would be fair, yes.
    Mr. Ziglar. Very safe to say.
    Senator Dorgan. Let me ask, of the $20 billion that 
Congress appropriated in the last 2 weeks to deal with these 
terrorist events, that $20 billion will be used to strengthen a 
range of things that are necessary to deal with our Nation's 
security. Are those the resources that your agencies are trying 
to call on with respect to OMB and the Administration's 
decisions about how to use that money?
    Mr. Bonner. Yes, they are. At least that is my 
understanding, this would be part of the supplemental counter-
terrorism funding.

                 Replacement of six world Trade Centers

    By the way, I think perhaps part of that funding is also 
certainly needed by Customs to replace our facilities in New 
York. As you know, a U.S. Customs house was located at Six 
World Trade Center. It was an eight-story building right next 
to the north tower and it was destroyed as a result of the 
attacks. We had the largest number of Customs Service personnel 
in that building outside of Washington. There were almost 800 
Customs Service personnel, both Customs agents, Customs 
inspectors, Customs freight specialists, the lab, and so forth.
    There is also some funding that is just to cover 
essentially the extraordinary short term cost of repair and 
replacement and getting back and operating. Then there is the, 
what do we do now in terms of better responding to the 
terrorist threat, to secure our borders.

                 Emergency Supplemental funding Request

    Senator Dorgan. The issue here is not just about resources, 
but that is an awfully important issue, and that is why I am 
asking these questions first. I have a range of other 
questions. Are you able to share with us your recommendations 
to OMB at this point? Since September 11, and even before, but 
especially since September 11, I assume both agencies have 
taken a hard look to evaluate what do we need to do to beef up 
our presence at the borders in order to give our country more 
assurance that we are keeping known and suspected terrorists 
out, and providing adequate security at our borders?
    Can you give us any notion of what your request might be of 
OMB, increases in agents, increases in inspectors, and so on?
    Mr. Bonner. I certainly do not want to get into the details 
of that because those are issues that I actually will be 
discussing within the Department of the Treasury actually this 
afternoon. But certainly they include Customs inspectors. That 
would be part of the issues that I am going to be discussing as 
to the adequacy of the numbers of United States Customs Service 
inspectors, as well as Customs special agents. It includes, to 
some degree, canine teams and better deployment of those. It 
includes equipment, technology, and heightened security through 
essentially infrastructure measures that go beyond orange 
cones.
    Senator Dorgan. Mr. Bonner, there are two ways for your 
agency to get help. The same would be true with INS. One is to 
appeal to the Office of Management and Budget, and the second 
is to get help from Congress. In order for us to evaluate what 
we think the priorities must be, and the resources we believe 
ought to be made available, we are going to need, I think at 
some point from your agencies, what is your assessment of the 
additional resources that you need in order to employ the 
security on the borders that we believe is appropriate and 
important?
    I respect that you are talking to OMB this afternoon, or 
you have ongoing discussions. But I also hope you might share 
with us, what are your needs? What do you think we need? Do you 
clearly know that we do not want to leave ports at this point 
empty at 10:00 at night? You indicated you have moved 100 
Customs officers up to the northern border. I understand even 
though those ports are not open you have people at those 
locations. But that is temporary, as you indicated. You have 
taken them from another part of the country.
    So I would hope that both of you would give us your best 
assessment of what your needs are. OMB may or may not satisfy 
those needs, but Congress will have something to say as well 
about how we assess those needs and what we want to do to 
respond to them.
    Mr. Ziglar?
    Mr. Ziglar. Mr. Chairman, I would be glad to address that. 
The commissioner has highlighted some of the same things, of 
course, that we are interested in. We have also moved 
inspectors up to the northern border, and as the commissioner 
knows, we actually share primary jurisdiction at a number of 
these places. So where he gets a strain, we get a strain. It is 
one of those kinds of relationships.
    We are in discussions with OMB, but certainly some things 
are obvious on their face and my longer, written testimony 
ought to give you some hints of some of the things that we feel 
are in there. Obviously, more personnel at the Border Patrol 
level and the inspector level is absolutely necessary so that 
we can, along with Customs, at the ports of entry fully staff 
these folks. We also need more personnel for those parts of the 
border that are Border Patrol jurisdiction.
    But personnel alone is not going to do that given 4,000 
miles of border. We are going to have to have a web that 
includes some advanced technologies, whether it is surveillance 
technology, or it is sensing technology, or anything from 
aircraft to marine vessels to that sort of thing. We need to 
create more of a net so that we can use communications and 
people in order to do that. So that is an important part of 
what we are asking for.
    We also, in general, are very interested in moving along 
more rapidly advancement of our information technology and the 
sharing of that information, whether it is with the State 
Department or the FBI or the Customs Service or anyone else. We 
need to have more information that is available to all the 
agencies that have some responsibility on the border. Certainly 
our system is only one of those systems, but our system needs 
to be integrated with the other systems. We need to all have 
platforms that work.
    So that is something that we have been very focused on. In 
fact it is an initiative we had already started before 
September 11. But like everything else, resources are hard to 
come by sometimes and that is one of the things that we 
definitely want to have.

                            Border security

    Senator Dorgan. I am going to call on Senator DeWine in a 
moment. One last question, and I may have a series of others 
later.
    How confident should the American people be today, 
Wednesday, that the resources you have at all of our borders, 
but especially our Northern borders, are being employed in a 
manner that will allow you to identify and keep out of this 
country known and suspected terrorists?
    Mr. Ziglar. My personal view is they can have a high degree 
of confidence. Our people are working very hard. They are very 
diligent. They are very alert. They are resource drained, there 
is no question about it.
    But I will tell you, there have been and will continue to 
be some superhuman efforts by our folks and by the Customs 
folks to make sure that our borders are secure. I feel very 
confident, personally.
    Senator Dorgan. Are your people working 12-hour days at 
this point?
    Mr. Ziglar. Yes, sir.
    Senator Dorgan. Commissioner Bonner?
    Mr. Bonner. Well, I share Commissioner Ziglar's confidence. 
I do have a level of confidence that certainly we are doing 
everything we possibly can to secure our border against 
terrorists coming across, or the implements of terrorism.

                       Temporary staffing details

    Based upon my briefings, I guess I am concerned with the 
adequacy of that, how we are going to be able to do that on a 
sustained basis given the fact that the U.S. Customs Service is 
certainly stretched incredibly thin right now.
    By the way, that I could get 100 inspectors there is hardly 
adequate to address the problem. If I suggested it was, let me 
disabuse everybody of that notion. That was just what I could 
do as quickly as I could in terms of reassigning some 
inspectors so there would be some relief up there for all of 
the inspectors that are working hard and overtime.
    But I have also been tasked to send between 400 and 500 
U.S. Customs inspectors. These are the uniformed inspectors 
that are at the ports of entry and the airports and the 
seaports and the like. These uniformed inspectors are working, 
by the way, side by side with Border Patrol from INS and the 
U.S. Marshals Service at our airports, overseeing ground 
security at screening points at our major airports in this 
country. We started that also shortly after September 11. So 
that is another 400 to 500 inspectors that have been detailed 
for that.
    To my knowledge, they have not been relieved by the 
National Guard. The National Guard has been brought in to man 
other airports and provide a presence there.
    We also have contributed 125 Customs special agents to the 
Air Marshal Program, along with other agencies, DEA and others, 
who are contributing to that effort so that we immediately have 
a vastly expanded Air Marshal Program that is in place as we 
speak. So we are also having that phenomena.

                      Customs air program Taskings

    The Customs air wing, which as you know is a formidable 
asset of this country, has now been asked by the Air Force, by 
NORAD, to provide security protection over certain zones of the 
United States. So it has been taken away from its other tasks 
in the Caribbean and the Southwest border and elsewhere. I am 
talking about the P-3AEW surveillance aircraft.
    So we are being pulled in a lot of directions here and we 
are stretched thin.
    Mr. Ziglar. Mr. Chairman, let me make sure that I was not 
misunderstood. I do believe that we have a high degree of 
confidence, and should have. I agree with the Commissioner that 
the reason I feel that way is I know how hard the folks are 
working, how diligent in work they are.
    Over time, like the Commissioner said, our people burn out 
and we are stretched very thin. So that degree of confidence 
will go down very rapidly if we do not get additional resources 
to be able to maintain that level, if you will.

                     Customs inspector capabilities

    Mr. Bonner. If I could just add one thing, too, that does 
give me some confidence and I think should give the American 
public some confidence. That is that we do have, both INS but 
Customs inspectors like Diana Dean, up at the State of 
Washington at Port Angeles. I mean, they are highly trained to 
spot suspicious or abnormal behavior, as you know.
    It was without intelligence, although we certainly ought to 
be increasing our intelligence. But without intelligence it was 
a cold hit that that Customs inspector spotted a terrorist, 
unquestionably, who planned to bomb Los Angeles International 
Airport with others. He was arrested. That actually led to the 
exposure and the prosecution of other members of that terrorist 
ring.
    So that is what gives me at least some degree of 
confidence, is that we have people like the Customs inspector 
in the State of Washington, who are on the highest level of 
alert now with the Level 1 alert throughout the Customs 
Service.

                       Customs aircraft not armed

    Senator Dorgan. You indicate Customs air assets and you are 
talking about security. They are used for surveillance, they 
are not armed?
    Mr. Bonner. No, these would be surveilling and would be 
able to track aircraft now in regions of the United States. 
They are providing coverage that was needed to support the Air 
Force.
    Senator Dorgan. The Air Force is flying missions. Their 
missions are being flown with fighter planes that are armed. I 
just wanted to make sure, yours are surveillance.
    Mr. Bonner. They also have surveillance aircraft, too. So 
we are supplementing theirs.
    Senator Dorgan. Senator DeWine.
    Senator DeWine. Mr. Chairman, thank you very much. Let me 
thank both of our witnesses. Your testimony has been very 
helpful.
    Mr. Ziglar, in law enforcement there is nothing, in my 
opinion, more important than good information. We have 
developed, over the last few years, an unbelievably good system 
of technology. It is something that has sort of been one of my 
pet projects going back in time when I was a county prosecutor 
in the 1970s, when we did not have much of it.
    We have developed these systems, the IAFIS system, for 
example, that you and I have talked about. As it is important 
in criminal investigations, obviously it is also applicable and 
very, very important in regard to national security questions. 
It has a great deal of applicability to the INS, to Customs, to 
what you all do every single day. So I congratulate you for 
your emphasis and your testimony this morning on that.
    I notice, in your written statement, that you talk about 
some of the things that you want to do and are doing. One is 
implement the National Crime Information Center Interstate 
Identification Index--this is, of course, the NCIC--at all 
ports of entry so that aliens with criminal histories can be 
identified upon arrival in the United States. NCIC should also 
be available at all consular posts, INS Service Centers, and 
adjudication officers to help identify aliens who pose a 
potential threat.
    My question to you is what does this Congress do to make 
sure you have got every single penny that you can spend 
effectively in the next several years to get this done and to 
get this moving as far as we can go?
    You have pointed out, very correctly, that you do not 
control what goes on at the consulates. Someone goes in and 
gets a visa, for example. That is not your department, that is 
the State Department. But it is the integration of all this 
information.
    I think one of the things that is most troubling to the 
public and most frustrating to all of us is that sometimes one 
part of our government knows something and another part does 
not have that same information.
    So what do we do to make sure that you have got everything 
that you need, so you can totally utilize the great technology 
that we have today? A lot of the system, as you know, is 
already built. It is a question of making sure that you are in 
to it and we continue to grow the system.
    Mr. Ziglar. Senator, from what I can see, in the 2 months I 
have been in this job, the Senate certainly--which I have, of 
course, more familiarity with--could not be more supportive in 
terms of our doing these kinds of things before September 11.
    We are re-looking at a lot of these issues on a more 
expedited basis, in terms of trying to integrate our systems. 
The NCIC issue is a very important issue, because up until 
recently we did not have access to what was called NCIC III 
information. We had the warrant information. But it is the NCIC 
III information that really would be helpful to the consular 
post abroad, as well as ourselves, in our adjudication process.
    Senator DeWine. Which is more sophisticated information?
    Mr. Ziglar. Right.
    Senator DeWine. More details, more information?
    Mr. Ziglar. Right. Yes, sir. Not just somebody that there 
is a warrant outstanding on, but background criminal 
information. That information is incredibly important in making 
judgments about the admissibility of people. We need to have 
that spread out through our systems. There needs to be a lot 
more integration between ourselves and Customs and everyone 
else, in terms of just the platforms being able to data share.
    And I think that is something that I talked about in my 
opening remarks, that is one of my priorities, our priorities. 
And I know the Administration is very concerned about that and 
very focused on that.
    Senator DeWine. We just want to make sure, Commissioner, 
that we continue to push forward, that you have the money that 
you need to do this. We are asking people to make judgments and 
you used absolutely the correct term. We are asking people to 
make judgments. They are only human. They can only make 
judgments based upon information.
    Let us say you have a young Foreign Service officer in x 
country and someone comes in and they want a visa. That Foreign 
Service officer, he or she only has what they have. We, as a 
government, I think, we as a country owe them and owe ourselves 
as much information as we have. And that is a lot more than 
that Foreign Service officer is getting today.
    If you look at the non-immigrant visa application, it is 
all self filled out. They ask you if you are a terrorist in 
here, and a few other things. I am not making fun of it. Each 
question has a reason and I am not saying that there is 
anything wrong with that at all. But we just need to make sure 
that our folks, who are making those initial decisions about 
the granting of the visa, have all the information that they 
can have.
    What do we do about the people that you talked about a 
moment ago, who come to this country legally. They get a 
student visa, they are here for some purpose. And then they go, 
as you say, the term of art is out of status. Or the way we 
might say it is they just stayed too long. They stayed longer 
than they are legally entitled to.
    How do we keep track of them? What do we do? If you look at 
what has happened, just anecdotally, reading the newspapers, 
what has happened in this investigation, we find that people 
are apparently out of status. When we start looking at the big 
picture we know that, as a practical matter, we are not 
tracking these people. They are out of status and they are just 
out of status.
    How big a problem is that, to begin with? Is it a problem? 
And what, in the long run, do we do about it?
    Mr. Ziglar. It is a problem with a question. It is also a 
very difficult problem to deal with, because it is very easy to 
come into this country and disappear and not be found.
    Now one of the things that the Congress has asked us to do, 
and we are in the process hopefully of doing this, is to have 
an effective entry/exit data system. We have a system already 
that is called NEES. But it is really not a real-time system. 
It is paper to electronic delivery. It depends on the airlines 
to enforce it. There are a lot of things that cause big gaps in 
that system.
    We need to be able to know whether or not when somebody 
comes in they have departed. That will then tell us he has 
overstayed. And that will give us an opportunity right there to 
try to identify those situations that could be potential 
problems.
    The intelligence business, I believe, and the expansion of 
the intelligence business, certainly from an INS point of view, 
as well as the investigators, would also help us. I mean, we 
have had to allocate our priorities to first tracking criminal 
aliens that we know are in the country that have committed 
crimes and that we need to get them off the streets because 
they are people who could create harm.
    Second, we have been in the position of having to battle 
human smuggling rings. That has taken an enormous amount of 
time, but it has also been the source of an enormous amount of 
illegal entry into this country. Those people are bringing in, 
who knows who they are bringing in. So we have been battling 
those folks.
    Plus the fact that there is certainly a humanitarian aspect 
to battling the human smuggling rings, because these are not 
nice people and they kill people at random and we are trying to 
protect human life whether it is American human life or others. 
So that is where our less than 2,000 investigators have had to 
spend their time. We need a lot more of those folks if we want 
to address the overstay problem effectively.
    I mean, the only real effective way to ever do that would 
be everybody comes in the country, put a chip in them, and have 
a homing device. But this is America and I do not think we 
would do that.
    Senator DeWine. Let me continue on this technology on one 
more issue that you and I talked about the other day. That is 
taking technology one step further, which we can do today if we 
want to. That is to take the IAFIS system, the fingerprint 
system, and integrate that into your system. In other words, 
you could conceivably, someone comes for a visa, give the 
fingerprint, it goes into a central databank. You could compare 
that when that person hit the border to make sure that was the 
same person that was coming in. You could do all kinds of 
things that you wanted to do with that.
    Is that something we can at least explore and see what the 
potential is there?
    Mr. Ziglar. Senator, we are doing more than exploring it. 
Within the next couple of months, the first workstation that 
will combine the IAFIS and the IDENT system will be online. As 
you know, IDENT is a 2-finger, whereas IAFIS is a 10-finger, 
and there is a certain problem with integrating those systems. 
But we have been working hard at trying to come up with a 
common work station that will access both of them. We will be 
online, I think, in the very near future, the next couple of 
months.
    Senator DeWine. That is on a trial basis or a limited basis 
then initially?
    Mr. Ziglar. We think this is an effective system. It is 
just now a question of deploying it and the resources.
    Senator DeWine. In conclusion, on this whole issue of 
technology, it just seems to me that if we were a business, and 
our business was to let people in the country that we want in, 
protect people's rights, but at the same time protect the 
security of our country, we would have the best technology 
because it would be cost effective. It would work. And it is 
available today.
    And I think, Mr. Chairman, the fact that we do not, I think 
we are moving in the right direction. I congratulate you with 
what you have been doing. But I think the fact that we do not 
have that yet today is not good. And we have to run this like 
we would run a business, if this was our priority.
    Let me ask one final question. I want maybe to give us a 
little perspective because I think sometimes we miss maybe the 
priorities. I would like for you to set some priorities.
    According to your office, last year, and you mentioned this 
a moment ago, we had 529.6 million individual crossings of our 
borders; 437.9 million of those crossed at our land borders; 80 
million crossed through our airports; and 11 million crossed 
through our seaports. Roughly a third of all of these are 
American citizens, of course, and not aliens. Nonetheless, all 
of these individuals are subject to inspection by INS and 
Customs.
    With those groups of individuals, where does the emphasis 
go? Who do we worry most about? You pointed out to me, when we 
talked the other day on the phone, that the visas are a 
relatively small number, and you have got visas waivers. Do you 
want to just discuss that, as my last question? The Chairman 
has been very patient, and I appreciate it, Mr. Chairman. But 
just to put this in perspective for all of us?
    Mr. Ziglar. Can I make a comment about something you said 
earlier and then address that?
    Senator DeWine. Sure. I always worry about that when you do 
that, it means you have had time to think about it.
    Mr. Ziglar. I know this is probably a sacrilege for me to 
make such a comment, but you are absolutely right about the 
notion that if we were a business we would be using the 
advanced technology, and we would be at the cutting edge, and 
all of that sort of thing. I come out of the business world, as 
you know.
    The procurement process, the decision making process, the 
competitive bid process--and I am not against competitive 
bids--all of those things make it very difficult to employ 
technology in a time frame that does not make it obsolete by 
the time you have gotten through all of this process. People 
are scared to make decisions because they are afraid it will be 
the wrong decision.
    I am one who just makes decisions and as long as more than 
half of them are right, I feel pretty good. But we need to 
streamline the way we employ and deploy technology in the 
government, if we want to do this on a business-like basis. 
Because we really have wound ourselves around our own axles 
quite often in the way we do that. Enough said for that.
    Senator DeWine. I appreciate that. Priorities and visas and 
the ones that are waivers. Can you sort any of that out for us, 
as far as just big picture priorities?
    Mr. Ziglar. I think you clearly have categories of 
individuals that would be low priority people. This is 
something I think I mentioned in my long written testimony, and 
that is that you have got a lot of folks that go back and forth 
across our borders all the time, that are what I call low risk 
travelers. And yet in the rush to beef up security, I am afraid 
that we catch those low risk travelers in this net. I think 
using for example biometrics, which you are very interested in, 
with respect to those low risk travelers would be a very good 
way for us to deal with them so that those people that are not 
frequent travelers, are not low risk travelers, they get more 
time to be inspected at the border.
    I have got friends that commute back and forth to London in 
the investment banking business and it is a hassle every time 
they come in. We need to be able to segregate out the different 
risk profiles, if you will, of the travelers. I do not mean 
racial profiles but risk profiles of travelers, in order to be 
more effective and move people through.
    Let me make one comment. As you may or may not know, I am 
sure you do, by statute we are required to have processed 
everybody off of every international flight that comes in 
within 45 minutes. When we have a Boeing 747 coming in from 
wherever, the notion that we have to get them through the 
process, and the Customs Service and ourselves are subject to 
this, in 45 minutes, it does not give us a whole lot of time to 
really spend time with these folks.
    We pick them up because we have got people who have got 
very keen eyes and are very well trained in this, and put them 
in the secondary, but I will tell you what, it is a problem 
when you have a statutory mandate to meet that and we are 
constantly trying to observe the law.
    Senator DeWine. Thank you. Thank you, Mr. Chairman.
    Senator Dorgan. Senator DeWine, thank you. Senator Murray?
    Senator Murray. Thank you very much, Mr. Chairman. I 
appreciated Chairman Dorgan asking you both about new resources 
because I think they are absolutely critical. Our Customs, our 
Border Patrols, every one is only as good as the people we 
have. If we are asking them to do 12-hour shifts in a very 
stressful time, when the Nation is very conscious and we are 
all expecting them to do their job to prevent something in the 
future, we cannot ask them to do that very long and have them 
do it effectively. We will lose people and they will lose their 
ability to do the job well.
    We need to know as quickly as possible what resources both 
of you need in order to staff adequately, have good people, 
have them trained, and have them not doing 12-hour days, so 
that we can do the best job possible. So I encourage you to, I 
know you are meeting with OMB, but to get back with us and work 
with us as soon as possible.
    I do want to thank Senator Dorgan for his work on the 
Treasury bill and increasing new Customs resources. It is a 
step in the right direction, but clearly this is an arena we 
need to really, really focus on. So we want to work with you on 
that.
    I also have to mention transferring resources. In my 9 
years in the Senate, I have constantly fought INS transferring 
border agents to the southern border. Now, after September 11, 
can I get your commitment not to do that again?
    Mr. Ziglar. We actually have been moving people up to the 
northern border since September 11.
    Senator Murray. And you are leaving them there?
    Mr. Ziglar. We have clearly asked for more agents. We have 
eight more agents in the 2002 budget, but clearly that 
allocation will be examined in light of September 11.
    As I mentioned earlier, Senator, and you may have come in 
after, clearly one of the things that we are interested in is 
increasing our personnel, not just Border Patrol agents but 
inspectors and support personnel and personnel who can deploy 
and maintain and know how to utilize some of these advanced 
technologies like remote surveillance and sensing equipment and 
things like that.
    Senator Murray. I appreciate that. We know that the person 
who was stopped in Port Angeles 2 years ago was apprehended 
because of an agent was alert. We need to make sure we have 
people who are capable and alert, and we really need to beef up 
the patrols. And we need to not continually moving people back 
and forth from border to border, wherever the current focus is. 
We need to have people who are trained for the specific jobs at 
those borders. So I hope we can keep your commitment on that.
    I appreciate what you just said, Mr. Ziglar, about low risk 
travelers. We have a lot of commerce and people who go back and 
forth across our border in Washington State, British Columbia, 
on a constant basis that I would consider low risk. We 
fortunately successfully repealed Section 110 of the 
Immigration Bill last year. It was poorly thought out and we 
did not have the technology to put that kind of requirement in. 
We did not have the personnel and we did not have the resources 
to implement it.
    You mentioned the importance of keeping the border open and 
working and I agree. Section 110 really was counter to the 
spirit of that.
    Can you tell the Subcommittee whether the INS is now 
revisiting the Section 110 issue?
    Mr. Ziglar. I do not think so.
    Senator Murray. You do not think so? I hope that we do not 
go back to just putting in place something that is totally 
unworkable, that we do not have the resources for, we do not 
have the technology for, and all we do is shut down the border 
and we do not do anything about the high risk folks. We just 
make it harder for the low risk folks who are going back and 
forth.
    Mr. Ziglar. I did not mean to give you a flip answer. I 
mean, in the context of 110, we are looking at all of the 
modalities of getting people across the border in an 
expeditious fashion. I can tell you that working with the 
Customs Service just in the last couple of days we have been 
examining ways to increase the flow and yet make sure that we 
get an eye on everybody that is coming across.
    We put out some field guidance just last night with respect 
to how we are going to manage the flow across the border 
between the Customs Service and ourselves. So I understand your 
issue.
    Senator Murray. Can you share with us what that was?
    Mr. Ziglar. I would be glad to, Senator. I would prefer not 
to do it in an open forum, how we plan to do it.
    Senator Murray. Okay, sure.
    Let me ask you another question. The people who get the bad 
guys at the border only do it because they have either really 
good instincts or very good information. Are there any new 
protocols between your agencies, between the airports and the 
ports of entry and the intelligence community about the 
information you both need in order to make sure your agents and 
your folks are getting what they need on the ground?
    Mr. Ziglar. There is a very serious ongoing discussion 
about developing that working relationship on data.
    Senator Murray. Has there been a good working relationship 
before or are you talking about having one?
    Mr. Ziglar. I think it has. I would have to say, in all 
honesty, from my 2 month perspective in this job, that it has 
been very strong in some places and it has been spotty in 
others. It has been inconsistent, I would guess would be the 
way that I would generally describe it. What we really need is 
a more consistent platform of sharing information.
    Senator Murray. And we are working on putting that 
together?
    Mr. Ziglar. Absolutely.

       Need for improved intelligence collection and coordination

    Senator Murray. Mr. Bonner, for your agency, as well?
    Mr. Bonner. Well, I think you are absolutely right, that we 
need to ratchet up our efforts with respect to intelligence. It 
is not just sharing intelligence. It is having intelligence to 
share. So one of the things certainly I am looking at, at the 
United States Customs Service, is our intelligence capability 
in terms of collecting, gathering, the ability to task out 
requirements that are going to be useful to the Customs Service 
and useful to the INS as well, in terms of people, goods or 
cargo entering the United States.
    I will say this, I think this is unprecedented, but I am 
getting daily morning briefings from the intelligence community 
with respect to threat assessments that would be important for 
me, as the head of Customs, to know about so that we can use 
that information better in terms of assessing risk and 
targeting.
    Senator Murray. So this is an improvement since September 
11, that you are actually getting this information?
    Mr. Bonner. I asked for it, and apparently it had never 
been given before. Now the question is getting it, and now 
there is a second question, and that is making the information 
more useful. There are a lot of intelligence needs out there, 
but I cannot think of any higher than preventing weapons of 
mass destruction, biological or chemical weapons from entering 
the country through cargo or passengers.
    And so this is an important area. I am getting it. The 
question is perhaps how do we do a better job of requesting the 
information and having it gathered specifically, so border 
protection agencies such as Customs and the INS can do a better 
job of targeting.
    We have to do it ourselves, too. Frankly, I have been in 
Federal law enforcement before. Just in my limited perspective, 
which has not been very long, I can certainly say that when you 
have an event like September the 11, there are not any badges 
out there. In terms of the law enforcement community, there is 
active, vigorous sharing of information between the Federal law 
enforcement agencies. Not just Customs and INS, but the FBI and 
other law enforcement agencies.
    We probably need to look at some systems so that this 
remains, so that this just is not a temporary phenomenon. But 
it has never been better, in terms of the exchange of 
information. So I am looking at ways, how do we regularize that 
on some systems-wide basis, both to make sure that the right 
people have the right information at the right time, and that 
we are also gathering information that is useful.
    Because it is somewhat mythical, by the way, and perhaps we 
know, I mean that we have as much information as I think we 
could have if we did a more intelligent job, both through the 
intelligence function which is in the Office of Investigation, 
and elsewhere in our government.
    Mr. Ziglar. Senator, now that Commissioner Bonner has 
mentioned it, I too get those briefings in the morning after 
September 11 and that information now comes to the INS and to 
our intelligence area, as well as to me personally. It has been 
very helpful, not only just to know some specifics but to have 
a better picture of what is going on and how, as a manager of 
an agency, I can respond to that picture as well as to the 
specifics.

                       Communication with canada

    Senator Murray. I think that is really critical to have 
that information and use it specifically. I am also curious 
about whether or not you have had better communication with 
Canada. We know their asylum laws are fairly liberal. We know 
we have had several entries now. Are you working better with 
Canadian authorities and their information people so that we 
have a better chance at the border?
    Mr. Bonner. You missed my opening remarks but one of my 
first calls was from Rob Wright, who is the Canadian 
Commissioner of Customs. I plan to meet with him very soon to 
discuss these issues. I know they are being discussed. I know 
we have had a good cooperative relationship, the U.S. Customs 
Service has, with its Canadian counterparts. They have been 
very responsive, from everything I have heard, since the 
attacks on September the 11.
    But it is certainly something that I am going to be tending 
to, very early on in my first weeks here as the Commissioner of 
U.S. Customs.
    Mr. Ziglar. Very definitely. I also reflected that in my 
opening remarks, that the relationship with Canada is good and 
has gotten a lot better since September 11. Definitely.
    Senator Murray. Mr. Chairman, thank you for having this 
hearing and I look forward to working with you and our agencies 
to get the resources, the people, the technology in place on 
the border so that our economy is not good by this, our goods 
and people can get back and forth, but we do have better ways 
to make sure that the people who come in this country are the 
ones that are good for us to have here.
    Thank you very, very much.
    Senator Dorgan. Senator Murray, thank you. I have a number 
of other questions. Let me focus on a couple of things.
    First, this is an extraneous but related issue and neither 
of you are able to carry the message I want to send but I 
nonetheless want to say this at this hearing. I have had a 
dispute with an agency of the Treasury Department that you 
referred to, OFAC, Office of Foreign Asset Control, whose 
mission in my judgment is to be tracking international 
terrorists. In recent months they have been sending fines to 
people that have been traveling in Cuba.
    One I spoke to from Illinois, a retired teacher, who 
answered an advertisement in a Canadian bicycling magazine and 
she took a--this is a retired woman who took a bicycling trip 
in Cuba. A year-and-a-half later, because Customs and OFAC 
compare notes, she got a $9,500 fine.
    In August, prior to September 11, my message to the 
Secretary of the Treasury and the OFAC was to track terrorists, 
not little old ladies from Illinois who are riding bicycles in 
Cuba. My hope is that somehow perhaps--you are not in the 
position to be telling the Secretary of the Treasury to do 
that, but I can do that in this open forum and will do so in 
other ways as well.
    Security deals with a full range of instruments and one of 
them is, in Treasury, called OFAC. You referred to it, in fact, 
yesterday morning in your interview on NBC, Commissioner. I 
have kind of a burr under the saddle with what has been going 
on with the use of OFAC resources, trying to track down retired 
folks riding bicycles in the country 90 miles to our south.
    Having said all that, and feel better because of it----
    Mr. Ziglar. Mr. Chairman, I do not work for the Secretary 
of Treasury, would you like me to tell him?

                     Customs-OFAC money laundering

    Mr. Bonner. Mr. Chairman, I would be happy to pass that 
message on, just as long as you understand that that is not a 
U.S. Customs issue.
    The reference I made, as you may know, yesterday to OFAC 
was the fact that the U.S. Customs Service, because of its 
formidable expertise in the money laundering area, a lot of 
that from drug money laundering, is working on a number of 
levels. But including OFAC, with respect to the initiative at 
the Treasury that has to do with foreign terrorist asset 
tracking, Senator. So we are ratcheting up Customs agents to 
work in the money laundering area and to attack the financial 
crime and the financial wherewithal of terrorists to support 
terrorist activity in the United States, or anyplace else in 
the world.
    In that sense, OFAC is part of that initiative at the 
Treasury Department. Just to clarify that for the record. Thank 
you, Mr. Chairman.
    Senator Dorgan. You are correct. OFAC and FinCen at 
Treasury are both very important in tracking the money flow. In 
first week of August what I said to OFAC was track terrorists, 
do not track little old ladies that are riding bicycle with a 
Canadian bicycle club in Cuba.
    Mr. Ziglar, by all means, be my guest and report back to me 
if you would.

          Detail of customs agent to the sky marshall program

    Let me ask about the sky marshals. Commissioner Bonner, you 
are now moving to employ some sky marshals. You do not have 
additional resources, so that is obviously coming out of your 
resource base, as well. Tell me what that does to Customs 
presence on the borders?
    Mr. Bonner. Well, it does a number of things because these 
are Customs special agents, by the way, that are being detailed 
and have been detailed to the expanded and ramped up air 
marshal program. So, as you know, our Customs special agents 
are very important in terms of working with the inspectors, the 
uniformed inspectors at the border to follow up on 
investigations. Part of this is outbound, things going out of 
the United States, weapons, sensitive technology and the like.
    So it is impacting on our ability to investigate 
nationally, and obviously this is also going to have an impact 
on the northern border.
    The Customs Service, as you know, Mr. Chairman, has had a 
history of running the sky marshal program for 3 or 4 years 
back in the 1970s. So we do have a history. We, in fact, have 
some of the members of my senior staff at Customs who started 
off their careers with the U.S. Customs Service as sky 
marshals. So we think we can make a contribution to that.
    What our ultimate contribution is going to be, that is in 
the hands of others, not me, in terms of what the evolution is, 
in terms of what we do to restore not just public confidence in 
air security but to make commercial aviation, in fact, safe in 
this country again. Obviously we are taking some steps right 
now to contribute to that effort. And I am sure soon I am going 
to be speaking to Governor Ridge further on those kinds of 
issues.
    I actually had a phone call with him last week and plan to 
get together with him very soon to discuss a whole range of 
homeland security issues that include, of course, commercial 
aviation or air passenger safety issues.

                  Advance passenger information system

    Senator Dorgan. Having border security does not necessarily 
provide assurance that we will not see acts of terrorism or, 
for that matter, terrorists enter this country. But you cannot 
possibly have a system that prevents it if you do not begin 
with border security, or at least attempts to prevent it if you 
do not begin with the issue of border security.
    The Attorney General released the names and pictures of, I 
believe, 19 terrorists who he believed were part of this sky-
jacking crew that sky-jacked the four commercial airliners that 
crashed on September 11. Have you all looked at those 19 from 
the standpoint of how they arrived in this country? Which of 
them arrived in contravention of current laws and policies? 
Which of them got into our country while being suspected of 
activities that we would be concerned about?
    In other words, your agencies are obviously concerned about 
who is coming into this country. Who do we want to prevent from 
arriving in this country? We now know there are 19 people who 
arrived who hijacked these commercial airlines. So I am 
wondering, have you taken a look at that and evaluated how they 
got here?
    Mr. Bonner. Let me just start, if I could, because there 
are two aspects to that it seems to me. First of all, just to 
tell you, Mr. Chairman, as I believe you know, that Customs 
gathers advanced passenger information on a system, so it is on 
a database. I actually, before I was sworn in as the 
Commissioner of Customs, I was a consultant to the Secretary of 
the Treasury at the Treasury Department. I evacuated the 
building, I went over to the Secret Service command center.
    But I know that within an hour, Customs had pulled the data 
from all four airplanes that had been hijacked, that it had 
tentatively identified from the air passenger information 
system data, I think at least 17, 18 or so of the probable 
terrorists, just the suspects. Within an hour of the attack on 
the Pentagon. And also had been able to identify, running it 
against systems and other intelligence, identified at least 
some of those people as being associates and connected with 
Osama bin Laden. That was done within the first hour.
    I mention it because I want to illustrate the importance of 
having advanced passenger information. In this case, these were 
domestic flights so there was no pre-screening of anybody 
getting on there. But because we had a relationship with the 
airlines, we immediately had the information downloaded into 
our system. We could immediately provide that to the FBI as at 
least a substantial indication of who the probable terrorists 
were on each one of those flights. And that at least some of 
them had a connection with Osama bin Laden.
    So that does not get to your question. The next question 
you asked is how did they get into the United States to begin 
with. I do not mean to refer that one to Commissioner Ziglar 
particularly, but I am going to.
    Senator Dorgan. But before you do, I understand the 
Advanced Passenger System relates to about 85 percent of the 
flights. So you have about 15 percent of the flights on which 
you do not have the information.
    Mr. Bonner. This is something that I would like to point 
out, that right now that program, Customs getting a download of 
Advanced Passenger Information, the so-called APIS system, we 
get it voluntarily from the foreign airlines that fly into the 
United States and U.S. airlines. These are the international 
flights. It is on a voluntary basis. We get, on a voluntary 
basis, about 85 percent of the data.
    I think, in light of September 11, that is unacceptable, 
that we should have 100 percent of that data on arriving 
passengers into the United States.
    Senator Dorgan. Do all domestic domiciled carriers provide 
information on all flights at this point?
    Mr. Bonner. By the way, APIS is international flights, just 
so we understand that. Most of them do, Mr. Chairman. There 
are, as I understand it, at least several foreign airlines 
currently that do not provide us with that data. And I think, 
by the way, this is my view of the world, that foreign flag 
airlines that do not provide that data, it would probably be a 
good idea to have some legislation that would prevent them then 
from flying into the United States.
    In other words, I think if a foreign flag airline wants to 
fly into the United States, I would like to see that mandatory, 
a requirement that they provide the advanced passenger 
information in electronic data form to Customs. We, by the way, 
share this with the INS and so forth.
    I am not sure, I think the U.S. airlines are pretty good 
about this. There may be at least one U.S. airline, I am not 
sure and I do not want to name it without being sure, that does 
not provide this because it does have the information in an 
electronic format to provide it. But I think this is something 
that we certainly should be seriously considering making the 
provision of that information, certainly on arriving 
international flights into the United States, a requirement for 
all airlines that are engaged in international commercial air 
transport.
    Senator Dorgan. The list I have, for example, does include 
one U.S. carrier. It also includes international carriers that 
do not transmit this information, which include Saudi, Kuwaiti, 
Royal Jordanian, Egypt Air and Pakistan International. Is that 
your understanding?
    Mr. Bonner. That is my understanding.
    Senator Dorgan. I think your suggestion is one that we 
should take seriously. Of course, this week we are trying to do 
this airport security bill. The legislation is now being worked 
on. It may well be that we will want to consider adding a 
provision.
    It seems to me, you made a point about this program and I 
agree with it, it is a critically important program. But if you 
are missing that 15 percent, and that 15 percent for example 
includes some very large carriers in the Middle East, you are 
missing a lot. So let me take seriously your suggestion and see 
this afternoon if we might take a look at that piece that we 
could include this week.
    Now let me turn to Mr. Ziglar because he handed off the 
more difficult part of that question to you. My question was of 
the 19 people that are suspected or known hijackers of the four 
airplanes, have we taken a look at how they entered this 
country? My understanding from some press reports is that most 
of them came to this country through some legal mechanism. But 
have you taken a look at that?
    Mr. Ziglar. The answer to your question, Senator, is of 
course we have. We would be negligent if we had not. That 
information is part of the overall investigation and it is not 
information that I am at liberty to disclose, but we clearly 
know. I am sure some of it has been pieced together by the 
press but I am really not in a position to comment on it.
    May I make a comment, though, about the Commissioner's 
point on the APIS system, which a number of us get that 
information off of that system. As you point out, it is about 
80 to 85 percent inclusive of people coming in. In both my 
written and my oral statement I made a suggestion that we 
require airlines to report that.
    But let me take it one step further than that, and that is 
what is in my written statement. That is that we would like to 
require the airlines to send us their passenger list before 
they board people, and then obviously they confirm it once they 
board. But if we get their passenger list as they are building 
their passenger list, that gives us time to do a thorough look 
at everybody on that passenger list, as opposed to the way it 
is now, once they are in flight quite often they transmit the 
manifest to us and then we have a couple of hours or so to take 
a look at it.
    The Australians, for example, have done a very effective 
job of doing it that way. There are others that are 
implementing it now. Australia only has six airports and they 
have got 20 million people, but the fact is that an American 
technology firm put that system in place for them.
    I think that requiring these airlines to do it both before 
boarding as well as then confirm who is on the plane would be a 
very effective way for us to stop them before they get on 
potentially. Or if they do get on somehow, at least know who 
they are before they come in.
    Mr. Bonner. I certainly concur with that assessment of 
Commissioner Ziglar.
    Mr. Ziglar. That is actually a high priority for us, 
Senator, and that is why it is reflected in my written 
testimony.
    Senator Dorgan. We will make a note of that and begin 
working on that with my colleagues on the relevant committees.
    Commissioner, let me go back to a point you made in your 
testimony that relates to this question of the 19 hijackers. 
Now I understand your point about their identity and who they 
are and how they might have gotten in. I understand that there 
are certain things with respect to the investigation we cannot 
discuss.
    But let me also ask the question that I think relates in 
some ways to it. People come into this country on a legal visa, 
they achieve a visa somewhere, get on a plane, and head to the 
United States. They get off the plane and they are allowed to 
be here for a certain length of time and then they just 
disappear into the noontime crowd in Chicago and New York and 
you do not see them again.
    One of the significant job of the Immigration Service is to 
try to resolve those cases, I assume. It is almost an 
impossible job. Tell me about the resources you devote to that. 
Because of its increasing urgency these days, I mean those 
folks that just disappear into that big crowd at noontime in a 
big American city, might well be folks here with an intended 
purpose that is what we are trying to prevent, some sort of 
terrorist act.
    So tell me about the job the Immigration Service has. It 
does not matter whether those folks are coming in to the 
northern border or through an airplane or some other device. 
How do you deal with that, the overstaying of the visas?
    Mr. Ziglar. As I mentioned in my answer to Senator DeWine's 
question, we have something slightly under 2,000 investigators 
and if you put all of our intelligence people together we have 
2,000 people that have the responsibility for interior 
enforcement. That is what we call it.
    Those 2,000 people are tasked to track down criminal aliens 
that we know are here that create a danger to the community. 
That is a priority. Breaking up human smuggling rings that are 
bringing who knows how many people into the country through 
smuggling operations. That is also very important because of 
both the humanitarian side, but more important about the 
numbers of people that they are bringing in.
    That leaves us very few, if any, resources frankly to go 
after the overstay problem. We occasionally will get referrals 
from other law enforcement agencies that we use that 
information to go put those people into proceedings.
    One of the ways of dealing with this, there is several 
fronts. One of the ways, as I mentioned earlier, is to have an 
effective entry-exit system where we can monitor who has not 
left in compliance of the terms of their visa. So we know they 
are still in the country. So then we can put them in some kind 
of lookout.
    Senator Dorgan. Do you not have that now?
    Mr. Ziglar. Well, we do have an entry-exit system. It is 
mostly voluntary. It is only deployed at four airports because 
the resources have not been there. And frankly, it is so 
antiquated technologically now that we need to go to a more 
effective system, not dissimilar to what the Australians have.
    Senator Dorgan. Let me understand. If I enter this country 
through Portal, North Dakota and I am here on a visitor's visa 
and I am allowed to be here how many days, 60 days?
    Mr. Ziglar. Let us say 90 days.
    Senator Dorgan. At the end of 90 days I am gone. You have 
no idea where I am and I am not leaving. So when do you know 
that I have overstayed my visa? Or do you not?
    Mr. Ziglar. I may know if I can match up your two I-94s, 
assuming that the I-94 is collected and that it is reported. 
That is the problem. We do not have a consistent system on 
this.
    We are building a new system. We were mandated to do that 
by Congress.
    The other thing, though, Senator, that has been talked 
about a lot is the tracking of students. Obviously that is an 
issue. The SEVIS system, which is again something that was 
mandated by Congress to be in effect by 2003, has been the 
subject of a lot of push back, particularly by the academic 
establishment, not wanting the fees to be collected against 
students and not wanting to have to report a student if they 
drop out or they do not show up and that sort of thing.
    Well, that objection seems to have disappeared since 
September 11 and I have just recently, a couple of weeks ago, 
published regulations with respect to how we are going to 
collect the fees which have to support the system, have to pay 
for it. So we are moving along nicely on that. And that will be 
an effective tracking system for an awful lot of folks that 
come into this country that overstay their visas.
    Senator Dorgan. I want to ask two additional questions and 
then thank you very much for your appearance. I know that you 
have many other things to do. One is very simple. I know that 
you come here and must speak for the Administration. After all, 
that is who you work for and it would be not very smart if you 
came here saying here is what the Administration says but here 
is the way I feel about things. And you are both new and both 
smart.
    I would like, however, and I believe my colleagues in 
Congress would like, to receive your assessment of what your 
resource needs are. We will hear from the Office of Management 
and Budget what it thinks it will allow you to request. I 
understand that.
    But Congress also, in my judgment, should have your best 
notion of what kind of resources you think is needed by your 
agencies to give us the coverage and protection you think we 
need, both from the standpoint of customs and immigration. That 
may well be different than the Administration, through OMB, 
says here is what we will request because here is what fits 
into what we think our strategy is.
    I understand that is a delicate thing to ask, but I really 
think Congress needs that at this point. Our judgment might be 
different than the Administration's judgment. I do not know. It 
might not be. But in order to have the ability to make that 
judgment, we should have the advantage of seeing your 
recommendations unvarnished, if you are able to do that.
    Now you are going to have to go back and perhaps ask some 
people, but please consider submitting that to this 
subcommittee because we have not yet gone to conference. I have 
met with Congressman Istook, the Chairman of the Appropriations 
Subcommittee in the House on these issues yesterday. I am very 
interested in getting that unvarnished judgment from you.

                           Homeland security

    The second point, and the last point, homeland security. I 
assume that with Governor Ridge assuming that job very soon, 
that both of your agencies will have a significant relationship 
to Governor Ridge and homeland security. Have you thought about 
that? Has there been discussion inside the Administration about 
what that relationship might be? Can you describe that for me, 
if there has been some discussion?
    Mr. Bonner. I am so new in this town, or being back in this 
town, Mr. Chairman, all I can say is I have had a very 
preliminary conversation with Governor Ridge. That was last 
week, which was my first week as the Commissioner of the U.S. 
Customs Service. And ultimately, I think it is fair to say that 
besides offering Governor Ridge the full support of the Customs 
Service with respect to the important task he is undertaking, 
as far as how that will be structured and how that is going to 
be shaped, what his authority will be, and those kinds of 
questions, that is something that I know is being certainly 
discussed between Governor Ridge and the President. I do not 
feel comfortable expressing a view, even though I may have one, 
on how that should be structured.
    He is going to have an important task and I think it is 
fair to say that both Commissioner Ziglar and I are going to be 
working very closely with Governor Ridge. He does strike me as 
certainly the right person at the right time for that 
particular task. It is something that I think ultimately will 
be helpful to making sure that we do have the kind of border 
security that this country requires, in light of the September 
11 attacks.
    Senator Dorgan. Mr. Bonner, thank you for that answer.
    I will put in writing that previous point, asking for your 
assessment of the resources needed and I would hope you would 
respond to that. Commissioner Ziglar, I will put it in writing 
to you, as well, and hope that you will respond fully if you 
can.
    And would you be willing to respond to the question about 
homeland security?
    Mr. Ziglar. I think as Commissioner Bonner pointed out, 
this is in its very infant stages, in terms of discussions. 
Certainly INS has been the subject of a number of studies over 
the years, the Hart-Rudman Commission and others, about how it 
would fit into a bigger, broader border security mechanism.
    I have not personally talked to Governor Ridge, yet. I know 
that we will be meeting relatively soon. I think it is a little 
early to say exactly what the impact will be.
    Mr. Chairman, may I make one last comment? It was triggered 
by the notion about the sky marshals, which I think is a great 
idea. But the formation of the sky marshal core, the increase 
in the sky marshal core, is exacerbating a bit of a problem 
that we have at INS both on the Border Patrol and the 
inspection side. In a word, let me tell you what it is.
    Our Border Patrol agents are at the journeyman level. Those 
are the people that have reached that career level. Unlike most 
Federal law enforcement people where the journeyman level is a 
GS-12, ours are stuck at a GS-9. That has created a real 
problem for us with respect to other Federal law enforcement 
agencies recruiting our people away from us because they can 
get a higher level of pay and better benefits, in effect, 
through the retirement system by going to a higher journeyman 
level.
    That is truly exacerbated by the sky marshal situation 
because that is going to be a premium situation for them. In 
fact, just yesterday we had three of our guys leave to go join 
the sky marshals and we know, our intelligence tells us that 
are attempting to go because it is better pay and it is, 
frankly, better working conditions.
    The other situation that we have is with our inspectors. 
Here are people who we put through the Federal Law Enforcement 
Training Academy. Here are people that carry guns. Here are 
people that are law enforcement, they have arrest powers. They 
are expected to do their law enforcement function. And yet, 
they are not Federal law enforcement agents under Section 6(c).
    What that means is that they do not have the same law 
enforcement benefits as other Federal law enforcement agents 
do. Their pay scales are different. Their retirement is 
different. And frankly, it does a couple of things. It hurts 
their morale tremendously and, if you will, their self-esteem. 
But more than that, it makes them again targets of other 
Federal law enforcement agencies to come and get them, because 
we trained them very well.
    That is something, that parity issue is a very difficult 
problem and it is going to be a more difficult problem for us 
as we go along. I happen to feel fairly passionately about 
that. I wanted to, since the Judge opened the door about sky 
marshals, I wanted to make that one last point.
    Senator Dorgan. Let me make a couple of comments, as well, 
as we close. Senator Campbell, who is the ranking member of 
this subcommittee, was going to be with us today but he was 
detained by other business. He is someone who has worked 
closely with me on these issues, and we will have additional 
hearings and he will be an integral part of them. He is a 
critical part of this subcommittee. I appreciate his work and 
his counsel.
    I have a number of questions for the record that I am going 
to submit, and Senator Campbell has questions for the record 
that we hope both agencies would respond to.

                          Prepared statements

    We will include a record statement provided to the 
Subcommittee from Colleen Kelly, the President of the National 
Treasury Employees Union, as well as one submitted by Senator 
Levin.
    [The statements follow:]

  Prepared Statement of Colleen Kelley, President, National Treasury 
                            Employees Union

    Chairman Dorgan, Ranking member Campbell, thank you for the 
opportunity to provide this testimony. As President of The National 
Treasury Employees Union, I am proud to represent the over 13,000 
Customs Service employees who serve as the first line of defense 
against terrorism and the influx of drugs and contraband into the 
United States. In light of the recent tragedies at the Pentagon and the 
World Trade Center Customs personnel have been called upon to implement 
heightened security procedures at our land, sea and airports.
    Customs personnel are working under heightened Level 1 border 
security as a result of the tragedy of September 11, 2001. They are not 
only continuing to do their normal duties but they are also assisting 
the Federal Aviation Administration (FAA) and the U.S. Marshal Service 
at security checkpoints in all major airports. Customs personnel 
assisting the FAA and U.S. Marshals have provided invaluable assistance 
during this heightened state of awareness all around the country.
    A fact that must not be lost is that the workload of the Customs 
Service employees has dramatically increased every year including more 
commercial entries that must be processed, more trucks that must be 
cleared and more passengers that must be inspected at the 301 ports of 
entry. There has been a relatively small increase in personnel 
worldwide, despite the dramatic increases in trade resulting from 
NAFTA, the increased threat of terrorism, drug smuggling and the 
opening of new ports and land border crossings each year. In 2000, 
Customs Service employees seized over 1.5 million pounds of cocaine, 
heroin, marijuana and other illegal narcotics--as well as over 9 
million tablets of Ecstasy, triple the amount seized in 1999. Customs 
also processed nearly 500 million travelers last year, including 140 
million cars and trucks and over $1 trillion worth of trade. This 
number continues to grow annually, and statistics show that over the 
last decade trade has increased by 135 percent.
    In addition, Customs employees have become responsible for 
preventing international money-laundering and arms smuggling. Yet, the 
Customs Service has confronted its rapidly increasing workload with 
relatively static staffing levels and resources. In the last ten years, 
there have not been adequate increases in staffing levels for 
inspectional personnel and import specialists--the employees who 
process the legitimate trade and thwart illegal imports.
    It's very clear that funding must be increased to allow Customs to 
meet the challenges of the future. In recent years Customs has seen a 
decrease in the level of funding, relative to other Federal law 
enforcement agencies, even while having significantly higher workloads 
and threats along America's borders. Customs' recent internal review of 
staffing, known as the Resource Allocation Model or R.A.M., shows that 
Customs needs over 14,776 new hires just to fulfill its basic mission 
for the future. The Administration and Congress must show the men and 
women of the Customs Service they respect and support the difficult and 
dangerous work these officers do 365 days a year by providing increased 
funding for the Customs Service.
    NTEU recommends deploying the new hires to our Nation's ports of 
entry along the area ports on the Northern Border where some ports are 
unmanned and where the threat of international terrorism has forever 
changed the landscape. We must also deploy new hires along the busy 
Southwest land border where wait times hinder trade facilitation and 
drug smuggling is at its peak. In addition to the busy land borders, 
NTEU recommends focusing attention on the seaports and airports across 
the country. The understaffed and overworked inspectors at the U.S. 
seaports and airports currently contend with corruption, theft and 
safety issues that are a direct result of the lack of staffing. As one 
Southwest Border Senator aptly phrased it: ``U.S. seaports and airports 
are under siege by smugglers, drug traffickers and other criminals, yet 
law enforcement agencies that regulate them are understaffed and 
outgunned.''
    This year, Congress acknowledged the shortage of staffing and 
resources by appropriating additional money for staffing and other 
resources for Customs, but it is not enough. Quite simply, the 
resources have not been provided for Customs Inspectors', Canine 
Enforcement Officers and Import Specialists to adequately do their 
jobs. With the new challenges facing the Customs Service since 
September 11, 2001 this is an untenable situation that must be 
addressed immediately.
    Another important issue that must be addressed is law enforcement 
status for Customs Inspectors and Canine Enforcement Officers. The U.S. 
Customs Service Inspectors and Canine Enforcement Officers continue to 
be the Nation's first line of defense against terrorism and the 
smuggling of illegal drugs and contraband at our borders and in our 
ports. Customs seizes millions of pounds of narcotics annually. Customs 
Service Inspectors have the authority to apprehend and detain those 
engaged in terrorism, drug smuggling and violations of other civil and 
criminal laws. For example, it was Customs Inspectors who stopped a 
terrorist attack planned for New Years Day 2000 by identifying and 
capturing a terrorist with bomb making material as he tried to enter 
the country at Port Angeles, Washington.
    Canine Enforcement Officers and Inspectors carry weapons, and twice 
a year they must qualify and maintain proficiency on a fire arm range. 
Yet, these Inspectors and CEO's do not have law enforcement officer 
status. They are being denied the benefits given to their colleagues 
who they have been working beside to keep our country safe. Customs 
employees face real dangers on a daily basis, granting them law 
enforcement officer status would be an appropriate and long overdue 
step in recognizing the tremendous contribution Customs personnel make 
to protecting our borders from terrorism and drugs. I ask for the 
Subcommittee's support on this issue of fairness.
    Thank you for the opportunity to submit testimony on behalf of the 
Customs Service employees on these very important issues
                                 ______
                                 

                Prepared Statement of Senator Carl Levin

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to submit testimony today on northern border security 
issues. I appreciate the Subcommittees' efforts in the fiscal year 2002 
appropriations bill to provide $25 million specifically for a Northern 
Border hiring initiative to increase staffing along the northern U.S. 
border. I urge members of the Subcommittee to fight to retain this 
Senate position in Conference with the House since it has become doubly 
important for this Northern Border initiative to move forward in light 
of the increased security demands on our borders.
    I also appreciate the Subcommittee's recognition that Southeast 
Michigan is one of the largest commercial trade corridors in North 
America and among the busiest ports in the country and growing and 
recommendation that Customs give a high priority to funding sufficient 
staffing at the Southeast Michigan for fiscal year 2002. You have also 
recognized that the port of Detroit is unique because it includes an 
airport, a seaport, a tunnel, and bridges along a busy international 
border. Southeast Michigan is home to 5 international border crossings: 
2 bridges and 3 tunnels. Detroit's Ambassador Bridge is the busiest 
border crossing in the entire country and the Blue Water Bridge in Port 
Huron is the third busiest northern border crossing.
    Prior to the September 11 terrorist attacks, the port was already 
significantly understaffed both by Customs and INS personnel. For 
example, the Commerce Justice State Appropriations Report written well 
before September 11 states that the Detroit bridge and tunnel port of 
entry is understaffed by a whopping 151 people. The port of Detroit and 
Port Huron now face much greater needs.
    In the aftermath of September 11 tragic events, security has 
necessarily been tightened at all our borders. This includes the border 
crossings at the port of Detroit, including the Ambassador Bridge, the 
Detroit-Windsor Tunnel and the Blue Water Bridge in Port Huron. The 
U.S. Customs Service is now inspecting every vehicle and almost every 
truck crossing into the United States at these ports of entry after 
such a terrible breach of our Nation's security. We faced these 
increased security requirements with severely low staffing levels and 
the result was gridlock at one of the most important commercial 
corridors in the country.
    These ports of entry are important commercial routes for the 
transport of the just-in-time delivery auto parts to American auto 
manufacturing plants which are supplied from Canada and elsewhere. 
Just-in-time delivery means an industry must have the ability to move 
its product quickly from point to point. An unfortunate side effect of 
the tightened security is that delays of up to 12 hours in some cases 
have occurred at the bridges and tunnel. This has meant that the just-
in-time delivery systems that the manufacturers rely on have broken 
down. As a result, assembly plants in the United States do not have the 
necessary parts and many have shut down. Others may have to shut down 
soon for lack of parts.
    This backup at our northern border, particularly in the Detroit 
area, during these extraordinary times highlights and aggravates an 
existing and chronic problem of under-staffing of Customs inspection 
and INS personnel at the port of Detroit and along the Northern border 
in general. Congress was beginning to address this shortfall before the 
terrorist attacks and the subsequent need for increased security 
exacerbated the problem.
    With the help of dedicated law enforcement officials working 
overtime, the Michigan National Guard, and volunteers, Detroit has 
managed to piece together a temporary arrangement to make things work 
better at the port of Detroit in order to keep commerce and trade 
going. However, this is just a temporary and fragile fix. For example, 
the national guard may be called elsewhere, such as at airports or 
deployed overseas. That could mean going back to 12 hour delays and 
that is unacceptable.
    We need to find a permanent solution to the manpower shortfall at 
the port of Detroit and other Northern border ports so that they are 
able to perform the required security inspections to protect our Nation 
without causing unreasonable backups that hurt our economy. The 
National Customs Automation Program (N-CAP), a pilot program is one way 
of reducing the traffic backups and assisting Customs in its cargo 
inspection process. N-CAP was implemented as a pilot program under the 
Customs Modernization Act and has proven to be a highly effective tool 
for facilitating safe and efficient cargo tracking and inspections. The 
program was implemented at only three borders, Detroit, Port Huron and 
Lorado. It should be expanded.
    In addition to expanding N-CAP, solutions should include dealing 
with overtime issues and costs, compensation for our law enforcement 
volunteers, developing and implementing an adequate technical 
infrastructure and getting the posts permanently and adequately staffed 
with Customs and INS officials so that we don't have to rely on 
temporary fixes.
    We should be vigilant in inspecting and protecting our Nation's 
border. But we should also be sure that we commit adequate resources to 
preform these inspections without hurting our economy in the process. 
It makes good domestic security sense and it makes good economic sense.

    Senator Dorgan. We had a number of Senators who wished to 
make appearances today and make statements, and come as 
witnesses. We have held that off because I wanted to have the 
two commissioners have the opportunity to discuss this at this 
first hearing.
    But let me conclude where I began, to say that Commissioner 
Bonner said that he hopes to get rid of these orange cones. I 
think all of us understand, this is simply an orange rubber 
cone. It is not security. And yet tonight, when all of us are 
getting ready for bed, standing sentry on the Northern Plains 
at border ports all across America will be this rubber orange 
cone. And frankly, I will not sleep much better because of it 
and, I expect, neither will the Commissioners of the Customs 
Service or Immigration Service.
    So let us join together to evaluate how we might boost 
security, especially in the light of September 11, and provide 
better security than an orange rubber cone can give us, at 
northern entry ports especially.

                     Additional Committee Questions

    Let me thank both of you. You indicated you are both new. 
We know that. We have just recently confirmed the two of you. 
You have inherited a pretty sizeable job, one neither of you 
expected when you made yourself available for these jobs. But 
you both have backgrounds that give those of us in the Senate 
great confidence, and I appreciate very much your willingness 
to testify here today before this Senate Subcommittee.
    [The following questions were not asked at the hearing, but 
were submitted to the Department of the Treasury for response 
subsequent to the hearing:]

             Questions Submitted by Senator Byron L. Dorgan

                             custom service
    Question. Please provide a complete breakdown of what the Customs 
Service requested through the Department and/or OMB that was to be 
included in the $20 billion supplemental package.
    Answer. A chronological comparison of Customs proposals developed 
in response to the September 11, 2001, terrorist attacks are presented 
below.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     13-Sep     26-Sep     10-Oct       Funds
                                                                    proposal   request    request   received \1\
----------------------------------------------------------------------------------------------------------------
Temporary WTC operations.........................................     25,500     25,500     25,500       25,500
Permanent replacement for WTC equipment including full service        27,000     27,000     27,000       27,000
 laboratory......................................................
OFO Inspectors for increased security @ high risk ports for 5          5,000      5,000      8,000       29,000
 additional weeks................................................
Northern Border Inspectors/Agents for 6 weeks....................      6,000      6,000      9,000       29,000
Air Support (Counter-terrorism & airspace security) @ $700k/day..     21,400     21,400     21,400       21,400
Anti-Terrorism...................................................    125,000    316,620    316,620            0
Advance Passenger Information System (APIS)......................     28,000     18,000     18,000       18,000
Biometric Standards..............................................     25,000     25,200          0            0
Commercial Backup Facility.......................................     30,000     25,300     25,300            0
Enhanced Security at Newington Data Center \2\...................      1,500          0          0            0
Foreign Operations Staffing......................................     25,500     30,433     30,433            0
Homeland Security (Air Program) \3\..............................     39,000     39,000          0            0
INET--Case Management............................................     32,000     33,000          0            0
Infrastructure Enhancement at all Customs Facilities \4\.........    123,000          0          0            0
Maritime Port Security \5\.......................................    161,000    161,000    229,315            0
National Data Center Relocation..................................     45,000     45,000          0            0
                                                                  ----------------------------------------------
      TOTAL REQUIREMENTS.........................................    719,900    778,453    710,568     149,900
----------------------------------------------------------------------------------------------------------------
\1\ To date, Customs has received $35.7 million as follows: $14.7 million for Air Program taskings; $15.0
  million for replacement of office equipment and furnishings; and, $6.0 million for Agent and Inspector
  overtime. The President's October 17, 2001, Supplemental proposal included $114.2 million as follows: $52
  million for Agent and Inspector overtime and TDY costs; $37.5 million for replacement of World Trade Center
  equipment and furnishings; $18 million for the Advanced Passenger Information System; and, $6.7 million for
  Air Program Taskings. Congress must pass an appropriations bill before these funds become available.
\2\ Merged with the Commercial Backup Facility for Newington Initiative in the September 26 and subsequent
  version of the Supplemental.
\3\ Original Homeland Security proposal consisted of $87.5 M for TARS and $39.0 M for PDD-62 Air Branch. Only
  PDD-62 Air Branch was included in the September 26 version.
\4\ Infrastructure request @ $125.0 M was merged with Anti-terrorism in the September 26 and subsequent version
  of the Supplemental.
\5\ October 10th version includes an additional $67.8 M for Phase 2 of the Maritime Port Security Initiative.

    Question. What steps are involved in moving to a Level 1 security? 
Could you sustain this indefinitely?
    Answer. Since September 11, 2001, Customs has been operating at 
Alert Level 1. This alert level can be immediately enacted and entails 
implementing the following actions on an appropriate basis, 
commensurate with threat:
  --The full deployment of personnel and equipment to perform increased 
        intensified passenger, cargo and mail examinations, and staff 
        ports of entry with a minimum of two officers, 24 hours per 
        day, 7 days per week.
  --The establishment of multi-disciplined command centers, 
        implementation of Continuance of Operations Plans (COOPS); and 
        increased security procedures at government facilities (i.e. 
        perimeter checks, identification checks, restrictions on 
        parking, etc.)
  --Increased utilization of Special Agents and Air and Marine assets 
        to perform increased investigative operations commensurate with 
        threat.
  --Coordination of security and bomb detection efforts with State and 
        local law enforcement.
    Alert Level 1 operations can not be maintained indefinitely. 
Implementing Alert Level 1 has significantly intensified operations and 
depleted existing Customs resources. Customs has achieved Alert Level 1 
operations through a combination of the re-deployment of existing 
personnel including temporary details, increased expenditure of 
overtime funds, and the assignment of personnel to exhaustive 12-16 
hour workdays on a regular and recurring basis.
    Question. What is the envisioned role of Customs in aviation 
security and airport security?
    Answer. Customs will always have a role in aviation security due to 
our inspectional, enforcement and regulatory responsibilities. As of 
now, we control international inbound and outbound flights as to their 
landing and clearances for Customs examination. We also manage airport 
access relative to international arrival areas for passengers and 
cargo. The Advance Passenger Information System (APIS) is a voluntary 
program that has been in existence for more than 10 years. Under this 
program air carriers that are participating send advance identifying 
data on passengers (name, date of birth, nationality, travel document 
number) to Customs while the aircraft is en-route to the U.S. As 
needed, Customs takes the appropriate law enforcement action(s) on 
passengers that pose a security or smuggling threat.
    Question. How many agents have been detailed to the Air Marshal 
Program and what is the impact on your regular duties nationwide? What 
is the most appropriate agency to house the Air Marshal program?
    Answer. Customs has detailed 125 enforcement personnel to the 
Federal Aviation Administration (FAA) Air Marshall Program. The 
Department of the Treasury is managing the resources which Customs and 
other Treasury Bureaus have detailed to the Federal Aviation 
Administration (FAA). All comments relative to the Treasury commitment 
should be addressed to the Office of the Under Secretary. As to impact 
on Customs investigative operations, we are coping with this 
redeployment just as every agency had to cope with more immediate 
taskings due to the events of September 11, 2001. It would 
inappropriate to comment as to which agency should ultimately have the 
Air Marshal Program as this is a decision for the President, and he has 
not made the final decision.
    Question. What are Customs plans to meet the current challenges of 
ensuring the safety of the American people without hampering the 
movement of commercial traffic through our borders?
    Answer. In order to ensure the safety of the American people the 
Customs Service is currently operating under terrorism Alert Level 1 
status. This alert level requires that all ports of entry immediately 
increase vehicle, passenger, cargo, and mail examinations commensurate 
with the threat at their location. Anti-smuggling and outbound 
operations have been increased as well, and non-essential operations 
have been suspended. Furthermore, Customs immediately reviewed and 
suspended several programs and practices in order to redirect resources 
to ensure the steady movement of commercial traffic.
    Additional steps taken by Customs to ensure the safety of the 
American people without hampering the movement of commercial traffic 
include the staffing of all land border ports with a minimum of two 
officers per shift, 24 hours a day, 7 days a week 
(7<greek-e>24<greek-e>2). Because many Northern land border ports of 
entry are not normally staffed 7<greek-e>24<greek-e>2, nearly 100 
additional Customs Inspectors have been temporarily detailed to 
Northern Border ports of entry to provide adequate coverage. Customs is 
closely monitoring commercial and privately owned vehicle (POV) traffic 
wait times, and posting this information twice daily on the Customs 
Website.
    Question. What locations on the Northern Border currently maintain 
VACIS systems? Is there a plan being developed on acquiring additional 
systems to help alleviate commercial congestion due to increased 
inspections of goods?
    Answer. Funding for deployment of large Non-Intrusive Inspection 
(NII) technology systems on the Northern Border has been limited, and, 
to date, there are no VACIS systems deployed on the Northern Border. 
However, three Vehicle and Cargo Inspection Systems (VACIS) have been 
identified for deployment to the Northern Border at the following 
locations: Detroit, Michigan; Lewiston, New York; and Champlain, New 
York.
    Another $10 million under Public Law 106-554 has been released for 
the purchase of Mobile X-ray Vans for the following locations: 
Alexandria Bay, New York; Champlain, New York; Highgate Springs, 
Vermont; and Pembina, North Dakota.
    The events of September 11, 2001, further underscored the 
importance of Northern Border security and 3 Mobile VACIS systems were 
identified for redeployment to the Northern Border at the following 
locations: Blaine, Washington; Detroit, Michigan; and Ogdensburg, New 
York.
    Increased Customs inspectional resources and equipment on the 
Northern Border would enhance our capabilities to detect and seize 
explosives and other implements of terrorism through the inspection 
process as well as maintain heightened alert operations. The use of 
various forms of NII technology will allow enhanced enforcement to 
coexist with the timely processing of legitimate trade and travel.
    Question. In the past, we have spent millions of dollars investing 
in new technology only to decide that it would be ineffective and 
problematic given the challenges we now face, such as the Remote Video 
Inspection Service (RVIS). What new or existing technologies are being 
considered for the northern border to address the current threat?
    Answer. Increased Customs inspectional resources and technologies 
on the Northern Border would enhance our capabilities to detect and 
seize narcotics, weapons of mass destruction and other illegal articles 
and instruments used in support of terrorist activities. Along with 
large-scale Non-Intrusive Inspection (NII) technology such as the 
VACIS, Mobile VACIS, and Rail VACIS systems, we are considering a 
mixture of portable technologies such as particle detectors, personal 
radiation detectors, isotope identifiers and X-ray imaging devices, for 
deployment to the Northern Border
    Question. Both Customs and INS face significant infrastructure 
challenges on the Northern Border. For example, in my own state (North 
Dakota) the facilities at the Portal Point of Entry do not meet the 
needs of Customs or INS. These deficiencies are all the more glaring 
when Customs and INS facilities are compared to those used by their 
Canadian counterparts. What plans are in place to work with GSA to 
reinvigorate the construction of these facilities along the Northern 
Border?
    Answer. Customs is working jointly with INS, Agriculture's Animal & 
Plant Health Inspection Service (APHIS), and the General Services 
Administration (GSA) to identify immediate and long-term facilities 
requirements along the Northern Border.
  --This joint effort produced a Ports of Entry Infrastructure 
        Assessment that was presented to Treasury, OMB, and the Senate 
        and House appropriations committees who initially requested the 
        report.
  --The scope of this Assessment included both the Northern and 
        Southern Borders. The Assessment identified a total of 858 
        projects at a cost of $834 million.
  --Within North Dakota, the Assessment identified Portal as requiring 
        a new facility at a cost of $12.5 million. Five other North 
        Dakota crossings were identified as requiring new facilities at 
        a cost of $20.1 million. Overall, the 18 crossings in North 
        Dakota were identified as requiring a total of $49 million in 
        new facilities and other essential infrastructure improvements.
  --Across the entire Northern Border, the Assessment identified $280 
        million in requirements to replace aged facilities and improve 
        traffic and cargo processing.
  --The Assessment found that 32 of the 128 Northern Border crossings 
        (including all six North Dakota crossings) require total 
        replacement. These facilities date from the 1930's.
  --Sixteen of the 32 new facility requirements have been incorporated 
        in a 5-year Long-Range Plan (LRP) developed by the Border 
        Station Partnership Council (BSPC). Two of the 16 in the LRP 
        are in North Dakota. The BSCP includes representatives from the 
        Federal Inspection agencies (Customs, INS, APHIS and FDA), 
        Federal Highway Administration (FHWA) and the GSA.
  --Limited funding available through the Federal Building Fund has 
        restricted the ability of inspection agencies and GSA to move 
        forward with vigor.
  --The FIS agencies and GSA are prepared to move forward to 
        reinvigorate the facilities infrastructure to better support 
        our Northern Border missions.
    Question. It is my understanding that only 85 percent of 
international flights provide advance passenger information to the U.S. 
Customs Service prior to arrival in the United States. What can be done 
to get the remaining airlines to comply with this policy and how would 
this information and domestic flight information aid you in your agency 
objectives?
    Answer. The Advance Passenger Information System (APIS) is a 
voluntary program that has been in existence for more than 10 years. 
Under this program air carriers that are participating send advance 
identifying data on passengers (name, date of birth, nationality, 
travel document number) to Customs while the aircraft is en-route to 
the U.S. The APIS system received data on 87 percent of inbound 
passengers, excluding passengers precleared overseas, in September 
2001, which is the highest rate ever achieved. All major U.S. flag 
carriers and most major international carriers participate in the APIS 
program. American, United, Delta, Continental, Northwest, U.S. Airways, 
Alaska, British, Lufthansa, Air France, Aero Mexico, Air Canada, Japan, 
and Quantas are just some of the airlines that participate in APIS. A 
total of 94 air carriers have signed the APIS Memorandum of 
Understanding agreeing to send this information.
    America West is the largest U.S. carrier with scheduled 
international flights not currently using APIS, however they have 
recently indicated they are considering using APIS. Aeroflot, Olympic, 
Royal Jordanian, Saudia, and Kuwaiti are examples of some of the 
carriers that do not transmit to APIS. We have tried to convince these 
non-participating carriers to join the APIS program, however as of this 
time they have not shown any interest.
    Customs would also like to change the way APIS information is 
received and processed. We currently receive the full APIS manifest in 
a batch transmission containing all the names collected after the 
aircraft has taken off. In the future we would like to have each name 
transmitted as that passenger checks in, before they actually board the 
aircraft. If a particular passenger poses an aviation security concern, 
a warning message could be sent to the appropriate security personnel 
to subject them to a thorough security screening, or prevent their 
boarding.
    Customs also has access to the reservation system data of a few 
carriers that have provided us access on a voluntary basis. Their 
reservation systems allow us to see travel details about passengers of 
interest that enable us to make more selective and effective decisions 
on whom should be inspected. Unfortunately, the number of carriers that 
provide access to this data is very small. This information, combined 
with the APIS data, allows Customs to more effectively pinpoint the 
very few passengers that pose a security or smuggling threat.
    There has been resistance from most foreign flag carriers to 
providing the reservation system data, and a critical few have resisted 
providing APIS data. Absent a legal mandate, Customs is currently 
evaluating other means of ensuring compliance. Full access to this 
information on all inbound and outbound international passengers will 
greatly assist Customs and Immigration in their border security 
mission.
    Although Customs' mission is at the border, if the APIS system is 
modified to process passengers on a ``name by name'' basis prior to 
boarding, it may be appropriate to expand the use of the system to 
domestic flights. Watch lists of persons thought to be associated with 
terrorist organizations have been placed in the Inter-agency Border 
Inspection System (IBIS) in the form of lookout records. Many Federal 
agencies can place lookout records on suspect individual in IBIS, 
including Customs, Immigration, the Federal Bureau of Investigation, 
and the Secret Service. Since all names sent in APIS are checked 
against lookout records in IBIS, the system could also support security 
efforts on domestic flights if that is desired.
    Question. My staff has learned from outside sources that your 
budget director recently stated in a meeting that Customs does not have 
any staffing needs and even if you were provided supplemental funds, 
you would not hire additional staff. Is this true?
    Answer. The Customs budget director has never stated that Customs 
does not have any staffing needs. One of Customs primary concerns is to 
increase staffing at the ports of entry, especially those along the 
Northern Border particularly in light of the terrorist attacks on 
September 11. To increase security, staffing and inspection technology 
needs to be increased along the Northern Border.
    The remarks that you may be referring to may have been taken out of 
context. In briefings on the fiscal year 2002 President's budget as 
submitted to Congress, the Customs Budget Officer stated that no 
additional staff were proposed in the budget.
    Question. Consideration has been given to include language in the 
Anti-Terrorism package that would confer law enforcement status on 
Customs Inspectors and Canine Enforcement Officers. Do you support this 
proposal and how would it affect the agency?
    Answer. This is an important and complicated issue that requires 
further study. Although it may be appropriate for those officers to 
receive law enforcement compensation based on their duties, conferring 
law enforcement status on these officers would require that Customs 
alter its staffing methodology and hiring strategy. In addition, 
affected officers would be subject to a mandatory retirement age, and 
enhanced resource levels would be needed to support the legislative 
requirement.
    Question. You have recently staffed foreign Attache offices in 
Vancouver and Toronto, and have beefed up your presence in Ottawa. What 
role do you see your foreign Attaches having in terrorist related 
investigations?
    Answer. Customs overseas Attache offices have worked and will 
continue to work closely with the Treasury Department's Office of 
Foreign Assets Control (OFAC) in the pursuit of investigative leads 
pertaining to financial assets and the foreign money trails of 
terrorist organizations. Through our strong liaisons with foreign law 
enforcement counterparts, we will assist with freezing and seizure of 
terrorist assets located overseas. Our foreign Attaches will support 
domestic Customs investigations relating to international arms 
trafficking and weapons of mass destruction, to include biological, 
chemical and nuclear weapons.
    Our foreign Attaches will be proactive in developing information on 
violations of Customs laws, such as Intellectual Property Rights, the 
proceeds of which could be used to support terrorist activities.
    A priority has been placed on the international training component. 
Our Attaches will identify and coordinate appropriate training for 
foreign counterparts, particularly in areas such as weapons of mass 
destruction and money laundering.
    Question. A passenger processing fee helps fund Customs activities 
at our borders and air and sea ports. There has been a drop off in the 
amount of these fees coming in to Customs over the last year, causing 
cutbacks in overtime and fewer positions funded by this account. In 
light of the recent fall off in air travel, it is likely that there 
will be an even more dramatic shortfall in these fees in the new fiscal 
year. What plans do you have to make up for the funds that likely will 
not be coming into Customs?
    Answer. We have experienced a decrease in the rate of growth of the 
collections of passenger processing fees (Consolidated Omnibus Budget 
Reconciliation Act (COBRA) user fees) in recent years. COBRA 
collections have leveled off significantly due to a decrease in air 
travelers. As a result of the shut down in air traffic and fewer 
international travelers resulting from the terrorist attacks on 
September 11, it is anticipated that there will be a further reduction 
in projected fee collections through fiscal year 2002.
    First quarter collections are due shortly. Customs will be 
reviewing all COBRA funded activities to provide inspection services at 
land borders, airports, and sea ports. However, some of the current 
overtime expenses related to the heightened security mandate will be 
reimbursed from the Emergency Response Supplemental.
    Question. Customs employees have a cap on the amount of overtime 
they can earn in a year. I have heard that Customs is assigning more 
overtime to less experienced, lower paid inspectors in order to avoid 
problems with the cap. Does that present a security risk, to be relying 
on inexperienced employees in this dangerous time? Would you support 
lifting this statutory cap?
    Answer. The overtime cap for Customs Officers was waived last 
fiscal year after the terrorist attacks of September 11, 2001. The 
ability to waive the cap during national emergencies appears 
sufficient.
    Currently, there is a negotiated agreement with the employees' 
representative, the National Treasury Employees Union, on the manner in 
which overtime is assigned. Overtime is administered in a fair and 
equitable manner, commensurate with the risk, threat, call-out order, 
seniority, training, and experience. We are not creating a security 
risk with less experienced officers.
    Question. It is apparent that the needs of our Northern Border have 
been derailed in the past by the demands of the Southwest Border. How 
do your respective agencies intend on balancing out these needs?
    Answer. Since the September 11, 2001 terrorist attacks, the U.S. 
Customs Service has implemented a Level I Alert Status. In this mode, 
all Northern Border Ports are being staffed by a minimum of 2 Officers 
per shift, 24 hours a day, 7 days a week. Customs' short term response 
is the following:
  --The additional inspectors required to accomplish this task have 
        been assigned to the Northern Border in a temporary duty 
        status.
  --No inspectors from the Southwest Border have been detailed to the 
        Northern Border Over the longer term, Customs intends to deploy 
        additional resources to the Northern Border to ensure adequate 
        security and facilitate trade. To that end, Customs is working 
        with other agencies and Canada to develop a comprehensive 
        Northern Border strategy. Increased staffing is a part of that 
        strategy.
  --The U.S. Customs Service in conjunction with Canada Customs and 
        Revenue Agency, the U.S. Immigration and Naturalization Service 
        and Citizenship and Immigration Canada is developing a joint 
        Border Management Strategy.
  --This plan will provide a framework for a cooperative and 
        coordinated Counter Terrorism Effort along the external border 
        of the U.S. and Canada, as well as the shared border.
  --Through the use of information exchange and risk management, the 
        U.S. Customs Service will be able to focus it enforcement and 
        commercial resources on the areas of higher or unknown risks.
  --There are 128 Northern Border ports and stations, including 8 
        ferry/boat crossings. The majority of these crossings, 104, 
        have less than 8 full-time Inspectors, which is the minimum 
        staffing requirement for 24<greek-e>7<greek-e>2 (2 Inspectors 
        for shift) per Alert Level I.
    Question. Since the events of September 11, our borders have been 
staffed 24 hours a day. Many of our smaller northern border stations 
were previously staffed by only one Customs inspector or INS inspector 
at a time and open from 9 a.m. to 10 p.m., which represents an enormous 
jump for your agencies to make without additional resources. Is this a 
policy that is to remain in effect permanently, and if so what 
additional resources will be needed for the short term and long term?
    Answer. As previously noted, at least for the near term, all land 
border ports will be staffed with a minimum of 2 officers per shift, 24 
hours a day, 7 days a week (7<greek-e>24<greek-e>2). Because many 
Northern land border ports of entry are not normally staffed 
7<greek-e>24<greek-e>2, nearly 100 additional Customs Inspectors have 
been temporarily detailed to Northern Border ports of entry to provide 
adequate coverage. This has placed great demands on Customs existing 
staffing. Over the longer term, Customs is currently evaluating the 
best method for ensuring security.
    Question. What do you envision your role being in the new Homeland 
Security Office? Do you anticipate staff from your agency being used to 
staff the new office?
    Answer. While the U.S. Customs Service role in the new Homeland 
Security Office has not been finalized, it should be noted that the 
Customs Service is a principal guardian of our Nation's borders, 
America's Frontline to protect the American public from international 
terrorism. For over two centuries, the role of Customs has been focused 
upon illegal activities in the cross-border environment. In the context 
of combating terrorism, Customs role includes the identification and 
apprehension of terrorists and the interdiction of instruments of 
terrorism including Weapons of Mass Destruction (WMD) both arriving 
into and exiting the United States. It also includes interdiction 
efforts to stop illegal international movement of U.S. funds for the 
support of terrorist groups.
    Customs will provide detailees to the new Homeland Security Office 
as needed.
    In June 1995 the President signed Presidential Decision Directive 
(PDD) 39, which established a comprehensive U.S. counter terrorism 
strategy to reduce vulnerabilities to terrorism and respond to 
terrorist acts. PDD 39 sets forth the responsibilities of various 
Federal departments involved in combating terrorism. The Department of 
the Treasury is responsible for reducing vulnerabilities by enforcing 
U.S. laws controlling the import and export of goods and services and 
the movement of assets, and preventing unlawful traffic in firearms and 
explosives.
    Question. Please describe the interagency cooperation in relation 
to border security and what lies ahead in the new challenges we face.
    Answer. Customs has a long history of working with other agencies 
to enhance border security. The Office of Field Operations and the 
Applied Technology Division of the Office of Information Technology 
have worked with the Department of Defense (DOD) and the Department of 
Energy on the development of radiation detection devices. Both of these 
offices will be working with the Department of Defense on Chemical 
Biological detection devices. Additionally, the Office of Field 
Operations works closely with the Federal Aviation Administration in 
the area of Aviation Safety and Security. Field Operations also works 
with the Environmental Protection Agency and state and local first 
responders in the area of hazardous and dangerous cargo transportation.
    Since 1997, the U.S. Customs Service has assigned special agents to 
the Federal Bureau of Investigation's Joint Terrorism Task Forces 
(JTTF) who investigate various crimes associated with terrorism to 
include money laundering. Currently we have special agents 
participating in 30 Joint Terrorism Task Forces throughout the United 
States. These agents are providing financial and money laundering 
investigative expertise as it relates to ongoing terrorist 
investigations, to include those tied to the September 11, 2001 
incidents.
    Since September 11, 2001, Customs has assigned agents to the 
Federal Bureau of Investigation (FBI) Financial Review Group in 
Washington, D.C. to assist in the identification of suspect leads and 
subsequent joint money laundering investigations targeting terrorist 
organizations. The U.S. Customs Money Laundering Coordination Center, 
or MLCC, is also being utilized to assist the FBI and other law 
enforcement agencies by cross referencing terrorist financial data with 
the MLCC financial database to determine whether the identified bank 
accounts were utilized during prior criminal investigations.
    Customs is also providing Intelligence Research Specialists to the 
FBI to cross reference intelligence from Customs databases with the 
intelligence received from the FBI and other law enforcement agencies.
    Additionally, the U.S. Customs Service conducts various types of 
investigations focusing on violations of Intellectual Property Rights, 
narcotics smuggling and arms trafficking, among others. In recent 
cases, while investigating the financial aspects of these cases, 
Customs has determined that the proceeds of these illegal activities 
have been laundered and identified as possible funds for international 
terrorist activities.
    Customs participated with 17 other agencies on the Interagency 
Commission on Crime and Security at U.S. Seaports (ICCSS). Also, 
Customs is a member of the Interagency Commission for Maritime 
Transportation System, which is coordinated by the Coast Guard. This 
group has a subcommittee on security (chaired by the Coast Guard and 
co-chaired by Customs). There is also a subcommittee on research and 
technology of which Customs is a member. In each seaport, Customs is 
part of the Maritime Safety Committee. This committee is headed by the 
Captain of the Port, and includes a subcommittee on security. Customs 
Air and Marine Interdiction Division (AMID) has considerable 
interaction with other agencies in counter-terrorism and maritime 
security. Close working relationships are established at all levels 
from headquarters to the field operators. Within the Department of the 
Treasury, AMID works with the U.S. Secret Service (USSS) in support of 
PDD-62 training in counter-terrorist operations and providing air space 
security for National Special Security Events (NSSE's). AMID has a 
Memorandum of Agreement with the Bureau of Alcohol, Tobacco and 
Firearms (ATF) to provide routine support across all mission areas. The 
Air and Marine Interdiction Coordination Center has liaisons on staff 
and provides regular support to the Federal Aviation Administration 
(FAA), National Guard Bureau and U.S. Border Patrol (USBP). AMID 
maintains a close working relationship with the U.S. Coast Guard (USCG) 
on all maritime issues including maritime security. Customs is 
considering a Memorandum of Cooperation (MOC) in support of the 
National Nuclear Security Agency (NNSA) to provide NNSA with a 
radiological emergency response capability using Customs aircraft.
    The relationships built over the years were instrumental to the 
success of AMID in responding to the September 11 terrorist incident. 
Specifically:
    Air & Marine Interdiction Coordination Center (AMICC) in Riverside, 
CA provided:
  --Ad hoc air threat task force consisting of: FBI, ATF, USSS, FAA, 
        DOD, USBP, and USCG.
  --Investigative support with information from an AMICC aircraft 
        database.
  --Identification of domestic and international airborne aircraft for 
        DOD and FAA.
  --Flight clearance and air support for law enforcement agencies.
  --Radar data feeds to North American Aerospace Defense Command 
        (NORAD). Customs P-3 Airborne Early Warning (AEW) aircraft 
        provided:
  --Support to the North American Defense Command consisting of 
        indefinite 24-hour per day AEW coverage, initially over Miami, 
        FL and Atlanta, GA.
    Customs Air Units provided:
  --Blackhawk helicopters and a mobile command center deployed to the 
        Washington, DC area for USSS operational support and logistical 
        support to all agencies.
  --FBI, ATF, USSS, FAA and USBP with approximately 100,000 air miles 
        transporting agents, investigators and hazardous materials 
        during the FAA restrictions.
  --Air surveillance in support of ongoing FBI counter-terrorist 
        investigations. Customs Marine Units provided:
  --Ongoing maritime security in conjunction with the Coast Guard in 
        the Gulf of Mexico, New Orleans, South Florida and Southern 
        California.
    Through its network of Attaches and Customs Representatives, U.S. 
Customs also works with a wide array of governmental agencies from 
other countries as well as U.S. agencies operating overseas. In each 
Embassy or Consulate where U.S. Customs is represented, the senior 
Customs official is part of the local counter-terrorism team. This team 
normally includes the FBI, DEA, Regional Security Officer and 
representatives of the intelligence community.
    Intelligence and investigative leads received by the Attache are 
forwarded to the Terrorism Task Force and the appropriate Customs 
domestic field office for action.
    Moving forward, Customs intends to work closely with the INS, Coast 
Guard, intelligence community, State Department, and the office of 
Homeland Security to design and implement a comprehensive and 
coordinated border security strategy.
    Question. In the Anti-Terrorism package currently under review, 
Congress intends on authorizing funding that would triple both Customs 
and INS personnel at the Northern Border. How much would that cost both 
agencies and what would be the time line for such a program?
    Answer. A Northern Border staffing comparison is presented below 
that illustrates cost and the tripling of USCS personnel.

                                            NORTHERN BORDER STAFFING
----------------------------------------------------------------------------------------------------------------
                                                                                      TRIPLE
                                                                  STAFFING TODAY     STAFFING     TOTAL NEW COST
----------------------------------------------------------------------------------------------------------------
INSPECTORS......................................................           1,327           3,981    $219,769,000
CANINE OFFICERS.................................................              28              84       6,208,000
SPECIAL AGENTS..................................................             374           1,122     144,102,000
INTEL SPECIALISTS...............................................              26              78       3,716,596
TACTICAL COMM SPEC..............................................               7              21         850,556
                                                                 -----------------------------------------------
      TOTAL COST TO TRIPLE TRIPLE STAFFING ON NORTHERN BORDER...  ..............  ..............     375,000,000
----------------------------------------------------------------------------------------------------------------

    Question. What challenges do you face in recruiting and hiring 
additional agents, inspectors, and other personnel?
    Answer. Customs has never had a problem in attracting candidates 
for Customs Inspector, Canine Enforcement Officer, or Criminal 
Investigator positions.
    In fact, our last inspector announcement was only open 4 days and 
attracted 5900 candidates.
    Our quality recruitment program includes advance planning, so that 
candidates proceed through all of the recruitment processes and form a 
pipeline of employees ready to bring on board as they are needed. We 
currently have a pipeline of 600 inspectors and agents cleared and 
ready to bring on board, and another 1,000 applicants pending pre-
employment processes (background investigation, medical, and drug 
screening). Our planning processes for fiscal year 2002 included 
announcements to increase the pipeline with 900 additional inspectors.
    We recently obtained authority to administer the Treasury 
Enforcement Agent examination which has significantly improved our 
hiring process for Criminal Investigators. We administer this test 
monthly, and again have no problem in attracting quality candidates for 
our positions. We typically test 200 applicants each month.
    We currently have a pipeline for agents and have 100 candidates 
ready to bring on board.
    We do not want to minimize these challenges. While we have 
processes in place to attract large numbers of candidates for our 
positions and do advance hiring as much as possible, the hiring 
process, in general, is lengthy but necessary to ensure the quality and 
integrity of our new employees.
    We support the Administration's Managerial Flexibility Act and 
believe it will assist us in further streamlining our processes.
                                 ______
                                 

           Questions Submitted by Senator Barbara A. Mikulski

    Question. Does the Customs Service believe that imported drugs 
could be used by terrorists in a bioterrorism attack? If so, what risks 
do the USCS believe that reimportation of pharmaceuticals pose?
    Answer. The Customs Service (Customs), in consultation with the 
Food and Drug Administration (FDA) believes that it depends upon the 
type of drug in question. Not all drugs can be used as an effective 
terrorism tool.
    The reimportation of pharmaceuticals is only permitted when the 
goods are returned to the original manufacturer.
    Customs and the FDA have developed operational procedures to 
address this issue. Customs and the FDA work closely together to 
prevent the importation of any prescription drugs that have not been 
approved by the FDA. Customs and the FDA focus their enforcement 
efforts on the prevention of the importation of unapproved and 
counterfeit prescription drugs into the United States.
    The enormous volume of personal use prescription drugs attempted 
entry into the United States via land border ports, the United States 
Postal Service and express consignment facilities poses a challenge to 
both agencies' resources. To address this situation, Customs and the 
FDA are currently revamping the overall interagency business process in 
an effort to develop a more efficient enforcement strategy.
    Question. Does the Customs Service believe that reimported 
pharmaceuticals pose a threat to Americans as a potential vehicle for a 
bioterrorist attack?
    Answer. Again, without more specific information about the 
pharmaceuticals in question, we would reiterate that the answer depends 
upon the type of drug in question and that the reimportation of 
pharmaceuticals is only permitted when the goods are returned to the 
original manufacturer. The Customs Service (Customs) and the Food and 
Drug Administration (FDA) have developed operational procedures to 
address this issue.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. Mr. Commissioner, you state in your testimony that you 
work with your Canadian partners along the Northern Border. Would you 
please elaborate on that partnership?
    Answer. The U.S. Customs Service (USCS), along with Canada Customs 
and Revenue Agency (CCRA), Citizenship and Immigration Canada (CIC) and 
the U.S. Immigration and Naturalization Service (INS), is a member of 
the Shared Border Accord.
  --The ``Accord'' is the overarching agreement for coordinated border 
        management, providing a structured forum for discussions on 
        cross border issues, including the Ressam incident, the Foot 
        and Mouth disease epidemic and most recently the September 11 
        attacks.
  --The cited objective of the ``Accord'' is ``to provide enhanced 
        protection against drugs, smuggling and illegal and irregular 
        movement of people.''
  --All 4-member agencies and the other participants (U.S. Department 
        of State and Canada's Department of Foreign Affairs and 
        International Trade) have agreed that Counter Terrorism is now 
        the highest priority.
  --The USCS and CCRA have begun formulating a joint border management 
        strategy which will provide the framework to develop 
        complementary systems to combat terrorism, enforce laws along 
        our shared border and facilitate trade between the U.S. and 
        Canada.
  --Both INS and CIC will be participating in this development through 
        working groups and discussions of advances relating to the 
        entry of individuals into the U.S. and Canada.
  --The Shared Border Accord was announced on February 25, 1995 and 
        recognized that improving the efficiency of the U.S./Canada 
        border required cooperation and coordination. This agreement 
        holds that both countries share a responsibility to create a 
        border that is flexible enough to accommodate their economic 
        interests and permits them to protect the health and safety of 
        the citizens.
    Question. I noted that all our borders are at Level One Alert. Do 
you have any idea how long we will be at that high level of security? 
How many levels are there? What was the level before September 11? What 
are the parameters of Level Two?
    Answer. Customs is currently operating under Alert Level 1 status, 
or sustained intensive anti-terrorism operations, and is prepared to 
remain operating at this alert level as long as the terrorism threat 
requires us to do so. Customs has four terrorism alert level 
designations: (1) Alert Level 1--Sustained Intensive Anti-terrorism 
Operations, (2) Alert Level 2--Increased Operations, (3) Alert Level 
3--Normal Inspectional Operations with Heightened Awareness, and (4) 
Alert Level 4--Normal Operations.
    The alert level that Customs was operating under before the events 
that occurred on September 11 was Alert Level 4, or normal operations.
    The operational requirements of Alert Level 2 are the same as Alert 
Level 1. However, when working under Alert Level 2, the agency is not 
required to temporarily deploy additional resources to port locations 
to comply with operational needs.
    Question. Congratulations on having reduced wait times to pre-
September 11 levels even with this additional high security. However, 
as you know, many industry folks believe that the wait time was too 
long to begin with. How do you account for the same wait time for a 
significantly higher level of security?
    Answer. Customs has addressed excessive wait times by opening 
additional lanes (where available) and offering additional service with 
the use of temporarily detailed employees and National Guard 
assistance. Customs has suspended several non-essential programs in 
order to dedicate more resources to anti-terrorism efforts. Employees 
are also working additional shifts. However, this has caused overtime 
expenditures to increase significantly. Customs is maximizing the 
benefits of pre-screening the arriving conveyances, through the use of 
``roving'' inspectors and canine enforcement officers. This allows the 
inspections to be conducted while the vehicle is waiting in line, 
rather than at the primary inspection area. Furthermore, non-intrusive 
technology systems have allowed us to examine conveyances more quickly 
and more efficiently.
    Question. As you know, the Senate bill provides an additional $25 
million to Customs for a Northern Border hiring initiative which, as 
you noted in your testimony, would allow for the hiring of 285 
additional personnel. Assuming that the final bill contains at least 
that level of funding, those new inspectors, canine enforcement 
officers, and agents all have to be trained. How long before they are 
permanently stationed along the Northern Border?
    Answer. Our quality recruitment programs for inspectors and agents 
include advance planning, so that candidates proceed through all of the 
recruitment processes and form a pipeline of employees ready to bring 
on board as they are needed. We have already begun committing positions 
for the northern border. We expect to have the 285 personnel hired by 
the end of January and through their training by the end of May 2002. 
This total includes 225 inspectors, 35 agents, and 25 canine 
enforcement officers.
    Question. You also state that Customs would require ``substantial 
additional resources'' to staff all Northern Border ports full time. 
How much money are we talking about? Further, once security returns to 
a normal level, do all Northern Border ports NEED to be staffed 24 
hours a day/7 days a week?
    Answer. 24<greek-e>7<greek-e>2 coverage is largely an interim 
solutions to Northern Border security. To make this staffing permanent, 
Customs estimates that it would cost $47 million to hire and train the 
necessary inspectors. Customs is currently evaluating whether some 
combination of infrastructure, technology, and staffing would also 
ensure proper security at the Northern Border.
    Question. Many of my colleagues have for some time urged the 
Customs Service to utilize more non-intrusive technology and inspection 
equipment along the Northern Border so I am pleased to note that this 
is one of your proposals as well. How much would it cost to permanently 
deploy these types of equipment along the Northern Border?
    Answer. Customs is determined to stem the flow of narcotics, 
weapons of mass destruction and other illegal articles and instruments 
used in support of terrorist activities. In support of these efforts, 
we propose to deploy a variety of technologies at our 128 Northern 
Border crossing points. The initial cost of this technology, including 
the personnel necessary to support the equipment, is approximately $115 
million. Of that total, $68 million would procure our highest 
technology needs on the Northern Border.

                          Subcommittee Recess

    Senator Dorgan. This hearing is recessed.
    [Whereupon, at 11:35 a.m., Wednesday, October 3, the 
subcommittee was recessed, to reconvene at 9:30 a.m., 
Wednesday, December 5.]













                        NORTHERN BORDER SECURITY

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2001

                           U.S. Senate,    
                   Subcommittee on Treasury and    
                                General Government,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Reed, and Stevens.

              Opening Statement of Senator Byron L. Dorgan

    Senator Dorgan. The hearing will come to order.
    We will be joined by my colleagues shortly, but we want to 
begin the hearing because of time.
    The Senate will begin two votes at 10 o'clock, so it will 
be my intention to take a recess at about 10:15 so I can do the 
first vote and then also make the second vote and be back here. 
I should not be gone more than 15 minutes. And as I indicated, 
other colleagues on the subcommittee will be here, as well, so 
perhaps we can do this in a way that does not recess the 
committee.
    The hearing today is to receive testimony from our 
colleagues in the Senate and from Governors from northern 
border States on the issue of Northern Border Security. Let me 
make a couple of comments before we begin.
    We share a long border with the country of Canada. Canada 
is a good friend of the United States. We have an over 4,000 
mile border. It has been called the longest undefended border 
in the world.
    Since September 11, with the terrorist attacks on the 
United States, all of us understand that we need more border 
security. One way to respond to the attacks by these terrorists 
is to prevent terrorists from coming into this country. That 
means you must have adequate border security. Adequate border 
security means security at all of our borders because 
terrorists most surely will find our weakest link.
    We have examples of that. The millennium bomber who was 
intending to come in to bomb the Los Angeles airport at the 
turn of the millennium was apprehended at Port Angelos by a 
U.S. Customs Service employee as he tried to cross into the 
United States in Washington State. Ahmed Ressam was planning to 
commit a number of acts of terror at the turn of the 
millennium.
    We know that there are over 50 terrorist groups or cells 
operating in Canada, including Hamas and the al Qaeda network. 
We know, for example, that terrorists have attempted to come to 
Canada, and in some cases successfully arrived in Canada with 
the intention of crossing the border into this country.
    I also know that the Canadians sometimes are concerned 
about our discussion about northern border security because 
they feel that we are somehow pointing at the Canadians 
themselves. That is not the case. Canada is a good neighbor of 
ours. It is our largest trading partner. We have a substantial 
amount of traffic and trade between our two countries.
    We want to do two things. One, we want to keep people from 
entering this country who should not come into our country, 
terrorists, known or suspected terrorists, or those who 
associate with terrorists. We want to keep them out of our 
country. Even as we do that, we want to facilitate the movement 
of people and commerce between our two countries. That is very 
important.
    So how do we do that? Well, we do it with additional 
resources. We need additional Customs Service inspectors and 
agents, INS agents, Border Patrol and others.
    In the last couple of days the Attorney General has 
employed National Guard resources to be called to our border. I 
regret that the Treasury Secretary has not taken similar action 
with respect to the Customs Service because we have a split 
with respect to these law enforcement functions in the Federal 
Government. Part of them are in the Justice Department, part in 
Treasury. Justice seems much more aggressive on these issues of 
northern border security than Treasury. I would appeal to 
Secretary O'Neill to be as aggressive as the Attorney General 
and, I would ask that the Treasury Department be as aggressive 
in dealing with the Customs Service in providing the resources 
and the plans to deal with northern border security as Justice 
is dealing with both INS and the Border Patrol.
    The other day I read of a suspected terrorist who was 
attempting to go to Canada from the Middle East. He was aboard 
a ship called the Ipex Emperor. He had put himself in a 
container, on a container ship, furnished with a bed, a toilet, 
electronics communications equipment, a laptop, two cell 
phones, a Canadian passport, and documents certifying him as an 
airplane mechanic among other things. He had quite a home 
constructed in this container and was being shipped to Toronto, 
Canada on a container ship.
    Those are the kinds of things that we have to be vigilant 
about. And we will do that with additional resources.
    What we want to hear from the governors today and from the 
States, some of whom have submitted comments, some of whom are 
here in person, is what does all this mean with respect to 
State resources and State interests and State needs? This is a 
partnership dealing with our national security and the States 
are significant members of that partnership. Part of it is the 
Federal Government dealing with INS, Border Patrol, the Customs 
Service, and additional Federal responsibilities.
    And then part of it is State and local governments and 
their resources, interests, and needs. Also State and local 
governments giving us thoughts about the commerce issues 
between the United States and Canada.
    So that is the purpose of this hearing, to hear these 
perspectives as we proceed to develop homeland defense and 
homeland security initiatives here in the Congress working with 
the Administration.
    We have a number of people who will testify this morning, 
both from the United States Senate, and also governors of 
several States. We are joined by Senator Stabenow and Senator 
Schumer.

                           Prepared statement

    What I would like to do is begin with statements from the 
two Senators. Then I will call the Governors up. We will try to 
be as expeditious as possible. I know several of those who have 
joined us today have busy schedules today.
    [The statement follows:]

             Prepared Statement of Senator Byron L. Dorgan

    We meet today to receive testimony from Northern border governors--
the elected officials serving on yet another front in defense of our 
homeland. These men bring with them the ``facts on the ground'' from 
the States as well as their varied perspectives from their lives prior 
to becoming governor. Gov. Hoeven, from my home State of North Dakota, 
was CEO of the Bank of North Dakota. Gov. Dean of Vermont is a 
physician while Lt. Gov. Posthumus of Michigan is a family farmer. A 
banker, a doctor, a farmer--critical jobs in ordinary times which help 
form their response to the critical times facing the country and their 
States today.
    This Subcommittee held its first hearing on Northern border 
security issues less than a month after the terrorist attacks of 
September 11. Our witnesses then were the Commissioners of the Customs 
Service and Immigration and Naturalization Service and the hearing 
focused on their resource needs for defense of our borders. To his 
credit, the Attorney General, in recent days, has stepped up to the 
plate and announced on Monday a plan to augment Border Patrol and INS 
resources and personnel with added men and women from the National 
Guard. Sadly, the Treasury Secretary has not seen the need to increase 
Customs Service resources in the same manner, even though many ports-
of-entry on the Northern border are jointly staffed with Customs and 
INS personnel.
    We have long been proud--and with good reason--that our border with 
Canada has been referred to as the longest, undefended border in the 
world. Thousands of our citizens cross the border every day to go to 
work, visit family, or shop. North Dakotans farm in Saskatchewan and 
Manitobans shop in North Dakota. We owe it to the citizens of both of 
our countries to not allow the September 11 terrorists to change these 
facts.
    Yet we must increase our diligence. Our countries and our States 
face a new threat.
  --The Canadian Parliament is now considering an anti-terrorism bill 
        which would address the potential terrorist threats posed by an 
        estimated 50 terrorist groups or cells know to operate in 
        Canada, including Hamas and the al-Queda network.
  --Canada was the staging point for Amad Ressam, the ``Millenium 
        bomber'', who planned to bomb the Los Angeles airport but was 
        apprehended by the Customs Service as he attempted to cross 
        into the United States at a border crossing in Washington 
        State.
  --Crop dusting manuals were found in the possession of one suspected 
        terrorist arrested in Minnesota, while the owner of a crop 
        dusting business in Watford City, ND was questioned by the FBI 
        in October about a small plane he sold to a Turkish man nearly 
        three years ago.
  --The press reported about one gentleman arrested in Italy who was 
        having himself shipped to Canada in a container equipped with a 
        computer, numerous passports and identity papers, and even his 
        own toilet.
  --As recently as Monday night, five men were arrested near Alexandria 
        Bay, Canada attempting to illegally enter the United States.
    Each of these events points to the need for us to do more to secure 
our borders. Our witnesses can speak to the increased threat as they 
see it from their States. They can also share with us the impact that 
our enhanced threat response has had on trade, travel and tourism in 
their States as well as their economies. While we can try to be of 
assistance here in Washington, the fiscal situation we are now facing 
will greatly constrain our ability to do as much as is probably 
necessary. This hearing will explore, then, what State resources are 
being used to bolster security along the border and what Federal 
resources you might need.
    We look forward to your testimony. Thank you.

    Senator Dorgan. So let me begin by calling on Senator 
Schumer from the State of New York. Senator Schumer, thank you 
for joining me today.
STATEMENT OF HON. CHARLES SCHUMER, U.S. SENATOR FROM 
            NEW YORK
    Senator Schumer. Thank you, Mr. Chairman, for holding this 
hearing.
    I think I can speak for the rest of my Senate colleagues, 
particularly those of us who have States along the northern 
border, when I say that I know of no other Member of Congress 
who has been so vigilant in the fight to ensure that our 
northern border gets the resources and personnel it so 
desperately needs than you have been. And we thank you for 
that. Your leadership is most needed and most welcome and most 
effective.
    I would also like to thank you for your Herculean efforts 
to establish the $28 million Northern Border Initiative which 
will add 285 Customs officials to the northern border this 
year, and for your work to secure record funding for the 
implementation of the Automated Customs Environment System, the 
ACE System. It is desperately needed to modernize the way 
Customs processes cargo coming into the country.
    Without your efforts, the funding course previously set for 
the ACE program would have required a 14 or 15 year 
implementation schedule which, obviously, after September 11 is 
completely unacceptable.
    Mr. Chairman, the events of September 11 shone a light on a 
situation that everyone in this room has known for a long time. 
Decades of chronic disinvestment and neglect have left our 
northern border porous and inefficient and have saddled our 
points of entry with delays that are beginning to cripple 
United States-Canadian trade and undermine our national 
security.
    The decision Congress and the Administration must now make 
is whether to finally address these problems head on, like the 
way we are finally approaching airline security, or to simply 
undertake some temporary measures to deal with the most 
pressing of the September 11 related problems.
    So far it is hard to say which course we will actually 
take. We took a major step forward in passing the Patriot USA 
Act last month, which authorized the tripling of the number of 
northern border Customs officers, INS inspectors, and Border 
Patrol guards. But the Administration has yet to request that 
these positions be funded.
    How can we say we are going to protect our northern border 
when we do not fund the means to protect it? It just does not 
make any sense at all. I would hope that the Administration 
would do the funding. If they are not going to do the funding, 
they ought not say they are protecting the border because you 
cannot have one without the other.
    Now neither Chairman Dorgan nor Chairman Byrd, who has 
provided $270 million for these activities in his homeland 
security package, can make these increases happen without the 
unqualified support of the White House. But as I mentioned, so 
far support for funding these positions has been tepid at best.
    We took another step forward this week with the agreements 
Attorney General Ashcroft negotiated with the Canadian 
Government concerning the sharing of FBI information, the 
coordination of visa policies, and improved coordination 
between United States and Canadian customs when it comes to 
border management. The agreement comes with an announcement 
that 600 National Guard troops will be moved to the northern 
border to augment our overworked and understaffed Customs and 
INS agents, who have been working under the highest level 
security stresses since September 11.
    While there is nothing wrong with employing the National 
Guard, there is a danger this temporary solution will morph 
into a long-term commitment that will result in our ports of 
entry being managed by guardsmen who have not been provided 
with the appropriate training or tools. This must not happen 
because it is not the appropriate way to manage our borders, 
and also because we are calling on the Guard to do too much 
already. Considering the situation in my State of New York, I 
simply do not know where we will find the guardsmen to deploy 
to our northern border.
    The stakes in this debate, Mr. Chairman, are very high. 
Nearly $1.4 billion per day in international trade crosses the 
border. Over half of the United States' population is within a 
10-hour truck ride from the border, and the needs are great.
    In Buffalo, New York, at the Peace Bridge crossing, which 
is depicted right there in the picture to my left, that is the 
plaza. I have been there many times. There are 5 hour delays to 
cross the border oftentimes, mostly because only half the 
booths are open at any one time and travelers must stop on both 
sides of the bridge, the American side, shown here, and the 
Canadian side, right over Lake Erie on the other side of Lake 
Erie.
    In Plattsburgh, at the Champlain port of entry, which is 30 
miles south of Montreal and has a lot of busy traffic going 
from the Montreal area south, a crumbling, completely ill-
designed, embarrassment of a facility that was thrown up in 
1967 is there. Trucks can routinely back up for miles simply 
because the physical layout of the facility is so inadequate to 
accommodate the post-NAFTA commercial traffic loads.
    Tour buses, which often go to Montreal and other places, 
sit on line for hours because there is no way to separate the 
trucks that have to be separated from the tour buses and others 
that have a different inspection route.
    I believe that we cannot afford to treat this as any less 
important than airport security and it is going to take vision, 
planning, and additional resources to be able to say that the 
longest friendly border in the world is safe and secure.
    I believe we need the Administration's help on two fronts. 
First, as I mentioned, budget requests that reflect the true 
personnel, equipment and facilities needs of Customs and INS at 
the northern border. We can no longer haggle over whether two 
new agents is justified for a particular port of entry, or 
debate for 8 to 10 years what is the appropriate size for a new 
border facility at Champlain, New York.
    And second, a willingness to push the Canadian Government 
to establish jointly managed Customs facilities at our busiest 
crossings, in my State at the Peace Bridge and Ambassador 
Bridge. At our busiest crossings we have to establish one-stop 
shopping. It is inefficient, very inefficient, so that when 
crossing at our busiest ports of entry you have to stop at two 
separate places, obviously it doubles the amount of time. By 
consolidating these functions, we can make them more efficient.

                           Prepared statement

    I thank you, Mr. Chairman, not only for the opportunity to 
testify at this hearing, which is so needed, but for all the 
great work you have done on this critical issue.
    [The statement follows:]

            Prepared Statement of Senator Charles E. Schumer

    Thank you, Mr. Chairman for holding this hearing. I think I can 
speak for the rest of my Senate colleagues when I say that I know of no 
other member of Congress who has been so vigilant in the fight to 
ensure that our Northern Border gets the resources and personnel it so 
desperately needs.
    I would also like to thank you for your Herculean efforts to 
establish the $28.15 million Northern Border Initiative, which will add 
285 customs officials to the Northern Border this year and for your 
work to secure record funding for the implementation of the ACE 
(automated customs environment) system. This system is desperately 
needed to modernize the way Customs processes cargo coming into the 
country. Without your efforts, the funding course previously set for 
the ACE program would have required a 14 or 15 year implementation 
schedule, which is simply unacceptable.
    Mr. Chairman, the events of September 11 shone a light on a 
situation that everyone in this room has known for a long time:
    Decades of chronic disinvestment and neglect have left our northern 
border porous and inefficient and have saddled our points of entry with 
delays that are beginning to cripple U.S.-Canadian trade and undermine 
our national security.
    The decision Congress, and the Administration, must now make is 
whether to finally address these problems head on--like the way we are 
finally approaching airline security--or to simply undertake some 
temporary measures to deal with the most pressing of the September 11 
related problems.
    So far it is hard to say which course we'll take.
    We took a major step forward in passing the Patriot U.S.A. Act last 
month which authorized the tripling of the number of Northern Border 
Customs officers, INS inspectors and Border Patrol Guards, but the 
Administration has yet to request that these positions be funded. 
Neither Chairman Dorgan nor Chairman Byrd, who has provided $270 
million for these activities in his homeland security package, can make 
these increases happen without the unqualified support of the White 
House. But so far the support for funding these positions has been 
tepid at best.
    We took a second step forward this week with the agreements 
Attorney General Ashcroft negotiated with the Canadian government 
concerning the sharing of FBI information, the coordination of visa 
policies, and improved coordination between U.S. and Canadian Customs 
when it comes to border management.
    That agreement comes alongside an announcement that 600 National 
Guard troops will be moved to the Northern Border to augment our 
overworked and understaffed Customs and INS agents, who have been 
working under highest level security stresses since September 11.
    While there is nothing wrong with employing the National Guard, 
there is a danger that this ``temporary'' solution will morph into a 
long-term commitment that will result in our ports of entry being 
managed by Guardsmen who haven't been provided with the appropriate 
training or tools.
    This must not happen because it is not the appropriate way to 
manage our borders and also because we are calling on the Guard to do 
too much already. Considering the situation in New York, I simply don't 
know where we'll find the Guardsmen to deploy to our Northern Border.
    The stakes in this debate, Mr. Chairman, are very high. Nearly $1.4 
billion per day in international trade crosses that border. Over half 
the U.S. population is within a 10 hour truck ride from the border.
    And the needs are very great.
    In Buffalo, New York--at the Peace Bridge crossing--5 hour delays 
to cross the border are commonplace, mostly because only half the 
booths are open at any one time and because travelers must stop on each 
side of the bridge.
    In Plattsburgh--at the Champlain Port of Entry, a crumbling, 
completely ill-designed embarrassment of a facility that was thrown up 
in 1967--trucks can routinely be backed up for miles simply because the 
physical layout of the facility is so inadequate to accommodate the 
post-NAFTA commercial traffic loads.
    I believe that we cannot afford to treat this issue as any less 
important than airport security, and that it is going to take vision, 
planning, and, yes, additional resources for us to be able to say that 
``the longest friendly border in the world'' is safe and secure.
    I believe that we will need the Administration's help on two 
fronts:
    (1) Budget requests that reflect the true personnel, equipment, and 
facilities needs of the Customs Service and INS at the Northern Border. 
We can no longer afford to haggle over whether two new agents is 
justified for a particular port of entry, or debate for eight to ten 
years what the appropriate size is for a new border facility for 
Champlain, New York.
    (2) A willingness to push the Canadian government to establish 
jointly-managed Customs facilities at our busiest crossings such as the 
Peace Bridge and Ambassador Bridge. At our busiest crossings, we have 
to establish ``one-stop shopping.'' It is so inefficient that when 
crossing at our busiest ports of entry that you are subject to two 
separate stops. By consolidating these functions, we can make them more 
efficient.
    Thank you, Mr. Chairman for the opportunity to testify, and all you 
have done on these critical issues.

    Senator Dorgan. Senator Schumer, thank you very much.
    We are joined by my colleague, Senator Reed. Senator Reed, 
do you have a comment?
    Senator Reed. I just want to commend you, Mr. Chairman, for 
holding this hearing. A great deal of attention is typically 
paid to our southern border, but too little attention is paid 
to the Northeast and the northern border with Canada. It is a 
huge source of economic activity between our country and the 
world. In fact, there are 38 States that Canada is their 
largest bilateral trade partner.
    So this is something we have to pay a great deal of 
attention to. Again, I commend you for having this hearing.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Reed, thank you.
    Senator Stabenow, thank you for joining us.
STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM 
            MICHIGAN
    Senator Stabenow. Thank you, Mr. Chairman, and I, too, 
would commend you for your ongoing leadership. I am very 
pleased that in the next panel we will have our lieutenant 
governor from Michigan, Dick Posthumus, who will also be 
stressing the importance to Michigan, as well as the entire 
northern border.
    As you know, we formed a coalition, working together as 
Senators, of both parties who have been advocating for these 
important needs. Your personal leadership has really helped to 
keep this process moving. I am very appreciative of that.
    The events, as we all know, of September 11 and our 
Nation's war on terrorism have further highlighted what were 
already critical shortages of human and technological resources 
at our northern border. Now more than ever, Customs, INS, and 
Border Patrol need the appropriate staffing, they need the 
tools, and funding to perform their jobs effectively.
    First, Mr. Chairman, I want also to thank you and the 
members of the subcommittee for providing more than $28 million 
in the 2002 Treasury/Postal Appropriations Bill for increasing 
Customs staffing along the northern border and over $33 million 
for Customs inspection technology, which is also very 
important. This funding will begin to address the personnel and 
technology shortage along the border, however we need to do 
more to adequately protect our border. I share your concerns 
that Treasury move aggressively and quickly to both allocate 
the resources that have been given, as well as use the other 
tools at their disposal.
    Our northern border with Canada is vital to our national 
and economic security. Over $1.4 billion worth of goods and 
services cross the northern border every day. $1.4 billion 
every day, with a significant portion of this trade going to 
Michigan, more than any other State. This constitutes the 
largest bilateral flow of goods and services and capital 
between two countries anywhere in the world.
    As you indicated, Mr. Chairman, we are pleased with the 
wonderful cooperation and partnership that we do have with our 
Canadian partners.
    Among ports of entry between Canada and the United States, 
four of the seven busiest ports of entry are between the 
Michigan-Canadian border. We have three bridges and one tunnel. 
In fact, the Ambassador Bridge in Detroit is the most heavily 
traveled bridge on the United States-Canadian border.
    Before the attacks of September 11, our northern border was 
already severely understaffed and underfunded. Customs officers 
on the northern border processed 63 percent, 63 percent of all 
trucks, 85 percent of all trains, and 23 percent of all 
passengers and pedestrians entering the country each year. 
However, our Customs inspectors represent only 14 percent of 
the currently deployed inspectors in the country. Even though 
the northern border is twice as long as the southern border. So 
obviously the inequities are clear. That is why what you are 
doing is so important.
    According to the Canadian-American Border Trade Alliance, 
at any given time routinely half of the existing processing 
lanes on the United States-Canadian border remain closed due 
solely to understaffing of United States Customs and INS 
inspectors.
    The events of September 11 have exacerbated this already 
critical situation. Enhanced security requirements combined 
with personnel shortages and overtime limitations are causing 
serious backups that are resulting in a very severe economic 
harm in Michigan and throughout the Nation.
    This past Monday in Detroit, Attorney General John Ashcroft 
announced a United States-Canadian agreement to help safeguard 
our shared border and to coordinate our immigration and border 
security policies. We are very pleased he was in Detroit. We 
appreciate his leadership. Part of this agreement includes the 
maintaining of over 600 National Guard troops at the U.S. 
border posts for up to a year, to assist with Customs and INS 
inspections.
    The National Guard and local law enforcement, who I might 
add are volunteering their time at this point, are providing 
critical assistance to our understaffed Michigan ports of entry 
but this is only a temporary solution.
    The Uniting and Strengthening America Act, which the 
President signed into law last month, authorizes the tripling 
of INS, Border Patrol and Customs Service personnel on the 
northern border and authorizes $100 million for technology 
improvements. Now Congress and the Administration must provide 
the necessary funds to make the staffing increases a reality.
    I look forward to working with you, Mr. Chairman, and the 
other members of the committee to make this happen. The ability 
of the Customs Service to process people and goods entering the 
U.S. efficiently and thoroughly is absolutely essential to our 
economic and national security. The inspectors and agents at 
our borders are our first line of defense and bear the 
responsibility for ensuring that no person enters our country 
who is not authorized to do so. We cannot expect them to do 
this job well if they are short-staff, working extremely long 
hours as they are, and working without time-saving technology.

                           Prepared statement

    Providing funds for these items are necessary so that we 
can make sure that this is a top priority in fighting our war 
on terrorism.
    Thank you, Mr. Chairman, for your leadership.
    [The statement follows:]

             Prepared Statement of Senator Debbie Stabenow

    Mr. Chairman, thank you for holding a hearing on this very 
important issue. The events of September 11 and our nation's war on 
terrorism have further highlighted the critical shortage of human and 
technological resources on our northern border. Now more than ever, 
Customs, INS and the Border Patrol need the appropriate staffing, 
tools, and funding to perform their jobs effectively.
    First, Mr. Chairman, I want to thank you and the members of this 
subcommittee for providing more than $28 million in the fiscal year 
2002 Treasury-Postal Appropriations bill for increased Customs staffing 
along the northern border, and over $33 million for Customs inspection 
technology throughout the country. This funding will begin to address 
the personnel and technology shortage along the northern border, 
however, we need to do more to adequately protect our border.
    Our northern border with Canada is vital to our national and 
economic security. Over $1.4 billion worth of goods and services cross 
the northern border every day, with a significant amount of this trade 
going to Michigan--more than any other State. This constitutes the 
largest bilateral flow of goods, services, and capital between two 
countries anywhere in the world.
    Among ports of entry between Canada and the United States, four of 
the seven busiest ports of entry are between the Michigan-Canadian 
border. In fact, the Ambassador Bridge in Detroit is the most heavily 
traveled bridge on the U.S.-Canadian border.
    Before the attacks of September 11, our northern border was already 
severely under-funded and understaffed. Our Customs officers on the 
northern border process 63 percent of all trucks, 85 percent of all 
trains and 23 percent of all passengers and pedestrians entering the 
country each year. However, our Customs inspectors represent only 14 
percent of the currently deployed inspectors in the country, even 
though the northern border is twice as long as the southern border.
    According to the Canadian/American Border Trade Alliance, at any 
given time, routinely half of the existing processing lanes on the 
U.S.-Canadian border remain closed due solely to understaffing of U.S. 
Customs and INS inspectors.
    The events of September 11 have exacerbated this already critical 
situation. Enhanced security requirements, combined with personnel 
shortages and overtime limitations are causing serious backups that are 
resulting in very severe economic harm in Michigan and throughout the 
nation.
    This past Monday in Detroit, Attorney General John Ashcroft 
announced a U.S.-Canadian agreement to help safeguard our shared 
border, and coordinate our immigration and border security policies. 
Part of this agreement includes the maintaining of about 600 National 
Guard troops at U.S. border posts for up to another year, to assist 
with Customs and INS inspections. The National Guard and local law 
enforcement (who are volunteering at the border), are providing 
critical assistance to our understaffed Michigan ports of entry, but 
this is only a temporary solution.
    The Uniting and Strengthening America Act, which the President 
signed into law last month, authorizes the tripling of INS, Border 
Patrol and Customs Service personnel on the northern border, and 
authorizes $100 million for technology improvements. Now, Congress and 
the Administration must provide the necessary funding to make this 
staffing increase a reality. And I look forward to working with you, 
Mr. Chairman, and the other members of this committee to make this 
happen.
    The ability of the Customs Service to process people and goods 
entering the U.S. efficiently and thoroughly is absolutely essential to 
our economic and national security. The inspectors and agents on our 
borders are our first line of defense and bear the responsibility for 
ensuring that no person enters our country who is not authorized to do 
so. We cannot expect them to do this job well if they are short-
staffed, working extremely long hours, and working without time-saving 
technology.
    Providing funding for increased staffing and technology along the 
northern border must be one of our top priorities in our fight against 
terrorism.
    Thank you.

    Senator Dorgan. Senator Stabenow, thank you very much.
    As I indicated for those who came late, we have two votes 
beginning at 10 o'clock and I want to try to expedite the 
hearing because of that. I know others have time constraints.
    But let me just ask one question of both of you and if 
Senator Reed has a question I will recognize him.
    We have a balance here between security issues and the 
ability to facilitate the movement of people and trade. 
Security must come first, I would expect you would believe, but 
can you describe--and I see the chart up there that shows long 
lines of trucks. Senator Schumer, you talked about 4 or 5 hours 
of wait. Can you describe how you believe this balance ought to 
be addressed? Are there substantial resources required in your 
judgment? If so, where? Customs, INS, Border Patrol and other 
areas?
    Senator Schumer. I guess the answer to your question, Mr. 
Chairman, which is right on the money, is less. If you look at 
that chart there, you will see that there are other booths, but 
only one is being used. Very simply, if we were to have both 
the personnel and the computer operations that we need, that 
line could be greatly reduced.
    I guess you have a triangle. You have money at one point, 
you have security at one point, and you have speed at one 
point. And to get the latter two points of the triangle, you 
need the former. Without money, you are going to have either 
security and huge lines, or you are going to have speed and no 
security.
    Dollars, more personnel, better facilities, better 
computers. We can have our cake and eat it, too, and the cost 
is not really that essential. In our post-September 11 world, 
the old adages do not work. Security is paramount, as you 
correctly point out. But you do not have to--I mean I guess you 
would say, in a certain sense, the terrorists want us to 
sacrifice all the other values in our society to deal with 
security, and they thought our society was much more brittle 
than it was and would collapse at what they did.
    But we have to respond and with some measured amount of 
dollars, we can. So I think we need, from my point of view, the 
Patriot USA Act, which called for the tripling of the three 
agencies along the northern border is what should be funded, 
Customs, Border and INS.
    Senator Dorgan. Senator Stabenow?
    Senator Stabenow. Mr. Chairman, you raise a very, very 
important point, particularly in Michigan when we are looking 
at the just in time supply chain partnership with the auto 
industry and the need to literally move every day goods back 
and forth across the border.
    I see, as well, this being multiple approaches. We need 
more staff but we are hearing from the personnel at the borders 
that without more booths, the physical structure, at some point 
the staff is not enough.
    We also know that there are a number of different pilot 
projects that have been tried to speed up the process, to pre-
authorize and check. The auto industry, again, has been helping 
to work with the folks at the border to speed up this process.
    One of the frustrations I know, I have heard from folks in 
visiting at the border, is that there have been a number of 
pilot projects but none have been selected to actually move 
forward beyond the pilot stage, so that we can broaden what has 
been tested in limited ways in terms of technology.
    So I think the technology dollars are very important, as 
well. If we can pre-authorize, if we can use certain scanners 
and cards and other opportunities to do that, we will be able 
to help move things more quickly.
    Senator Schumer. You know, Mr. Chairman, if I just might, 
New York and Michigan are very similar in this. Our largest 
manufacturing plant is not Delfide, employs over 6,000 people. 
Forty percent of the trucks, it is in Lockport, about 20 miles 
east of Niagara Falls. 40 percent of the trucks that leave that 
plant go right over the border because, just like in Michigan, 
some of the plants that make the automobiles are in Canada. 
Some of the plants are in the United States and they need 
constant commerce and they are getting killed.
    Senator Dorgan. Senator Reed?
    Senator Reed. No, Mr. Chairman, thank you.
    Senator Dorgan. We thank both of you. I know a couple of 
other senators will be coming to testify but they will come 
after the votes. Thank you for being with us.
    Let us ask Governor Hoeven, Governor Dean, Lieutenant 
Governor Posthumus to come forward.
    Let me thank the three of you for joining us today. As I 
indicated, other Governors will be submitting testimony for the 
hearing, but we especially wanted to hear from Governors of 
northern border States who could talk to us from their 
perspective about northern border security, and also the 
facilitation of the movement of people and trade across our 
common border.
    Let me begin with you, Governor Hoeven. Let me welcome our 
governor from North Dakota to the committee. I have had the 
opportunity to work with Governor Hoeven on many things for 
some long while and we have been friends for many years. I am 
proud of the work he does and I am pleased you are here.
STATEMENT OF HON. JOHN HOEVEN, GOVERNOR, STATE OF NORTH 
            DAKOTA
    Governor Hoeven. Senator, thank you for this opportunity to 
be here and to testify on northern border security. I am 
pleased to be here with Governor Dean and Lieutenant Governor 
Dick Posthumus, as well. I appreciate the opportunity.
    Thank you, Mr. Chairman, and members of the subcommittee. I 
am John Hoeven, Governor of North Dakota, and I welcome this 
opportunity to testify on our homeland security, and to share 
with you some of the challenges that we in North Dakota are 
experiencing with regard to maintaining heightened security on 
the northern border.
    Like other northern border States, North Dakota has some 
unique security concerns. North Dakota shares a long, 325 mile 
border with Canada, and 18 ports of entry. However, we have 
virtually hundreds of rural, unmanned crossings on small county 
and township roads. Qualified personnel for border security are 
in demand by Federal, State, local and private entities. 
Federal entities usually win the competition because they are 
able to offer better salaries.
    Because of a variety of factors, such as an apparently 
safe, open and isolated terrain, it would be relatively easy 
for terrorists to enter our country. U.S. Federal, State, and 
local communications equipment is not always compatible with 
the equipment used by Canadian law enforcement authorities.
    Several weeks after the terrorist attacks in New York and 
Washington I appointed a homeland security director to marshal 
and harmonize our existing State resources to enhance security 
throughout the State. Today, many North Dakota State agencies 
have some homeland security responsibilities.
    We have taken timely and assertive steps to safeguard our 
northern border. We have devoted a number of State resources to 
ensuring both its security and the flow of traffic to 
facilitate commerce. Our Highway Patrol, Department of Game and 
Fish, National Guard, and Civil Air Patrol are undertaking 
intermittent aerial surveillance flights, both day and night 
using infrared, along our border since September.
    This, as you may imagine, is expensive and it has diverted 
important resources from some of the agencies' regular 
assignments. At this time, funding for these flights is limited 
and growing more limited. Our Highway Patrol and law 
enforcement has provided considerable ground surveillance, as 
well. Although the Border Patrol has reimbursed some of the 
cost of local assistance through mutual aid agreements, much of 
it has not been reimbursed.
    State and local resources that have been dedicated to new 
homeland security missions have diverted resources from 
conventional law enforcement activities, such as highway safety 
and the usual crime surveillance.
    The North Dakota National Guard has received information as 
of November 29 indicating that we may be asked to provide 
additional personnel to support Federal Border Patrol efforts 
for an initial period of up to 6 months and it may be longer. 
We have also been asked for additional potential air 
operations, as well.
    It should be noted for the record that we have no fewer 
than 48 North Dakota agencies, including our Division of 
Emergency Management, Health Department, Law Enforcement and 
others now redirecting resources to this effort.
    This fall, shortly after the attacks in New York and 
Washington, a public water supply system in a small North 
Dakota town along the border called Pembina was tampered with. 
We responded quickly and efficiently but the incident tied up 
our State labs, our scientists, chemists and biologists for 
nearly two weeks.
    Heightened security is expensive and it will need to be 
sustained, thus taxing our State's resources at a time when 
they are already being taxed because of the terrorist attacks.
    Tourism in North Dakota has slowed down. Corporate and 
business travel is down and is recovering slowly but AAA 
anticipates that travel will be down about 20 percent through 
June of 2002. Also, the additional responsibilities of the 
National Guard and the law enforcement community is burdening 
our economy at this time, as well.
    There are a number of ways that the Federal Government 
should assist North Dakota and other States in meeting homeland 
security needs. Fund additional State and local law enforcement 
resources for staff and materials such as Canadian-American 
compatible communication equipment. Coordinate the development 
and implementation of a border security plan that defines State 
and local responsibilities and Federal responsibilities. Ensure 
that intelligence from the Federal Government is provided to a 
single point of contact within the State, from which it can be 
further disseminated to the appropriate entities. Unify Federal 
threat assessment information among the various Federal 
agencies such as FBI, CIA and the Attorney General's Office.
    Perhaps most critically, as the costs associated with 
homeland security rise, the Federal Government needs to provide 
funding with flexibility to defray the expenses of this effort. 
The most effective vehicle to do this would be general block 
grant funding to the States which would enable them to target 
their needs and reimburse hard-hit State, municipal and county 
governments. The logical agency to accomplish this task is the 
Federal Emergency Management Agency, FEMA. In North Dakota, our 
homeland security coordinator is also the director of our 
Division of Emergency Management with many years of experience 
working with FEMA, and that is likely true in other States, as 
well.
    FEMA manages the consequences of terrorist attacks, helps 
train first responders in terrorism response, and assists 
States in developing emergency plans. FEMA, moreover, has 
recently completed a nationwide assessment of State 
preparedness regarding terrorism and weapons of mass 
destruction. North Dakota was among the first to participate 
several weeks ago. The Agency's nationwide assessment results 
will be presented to Homeland Security Director Ridge, who 
works closely with FEMA.
    FEMA has both the network in place with the States and the 
experience to effectively coordinate and deliver funding for 
homeland security without creating any new bureaucracy.
    In this era of heightened security, we in North Dakota have 
had to review our State government policies and procedures 
regarding security and emergencies. We are working with our 
community leaders to integrate and coordinate resources as 
never before. It is all about preparedness, prevention and 
response. And today we are asking the Federal Government to 
support us in that effort.

                           Prepared statement

    Again, I want to thank you for the opportunity to present 
my comments on this issue and on homeland security in general.
    [The statement follows:]

                   Prepared Statement of John Hoeven

    Thank you, Mr. Chairman and members of the Subcommittee. I am John 
Hoeven, Governor of North Dakota, and I welcome this opportunity to 
contribute to the enhancement of our homeland security, and to share 
with you some of the challenges that we in North Dakota are 
experiencing with regard to maintaining heightened security on our 
northern border.
                     north dakota's unique concerns
    Like other northern border States, North Dakota has some unique 
security concerns.
  --North Dakota shares a long, 325-mile border with Canada, with 18 
        ports of entry. However, we have virtually hundreds of rural, 
        unmanned crossings on small county and township roads.
  --Qualified personnel for border security are in demand by Federal, 
        State, local and private entities. Federal entities usually win 
        the competition because they are able to offer better salaries.
  --Because of a variety of factors, such as an apparently safe, open 
        and isolated terrain, it would be relatively easy for 
        terrorists to enter our country.
  --U.S. Federal, State and local communications equipment is not 
        always compatible with the equipment used by Canadian law-
        enforcement authorities.
    Several weeks after the terrorist attacks on New York and 
Washington, I appointed a Homeland Security director to marshal and 
harmonize our existing State resources to enhance security throughout 
the State. Today, many North Dakota State agencies have some homeland 
security responsibilities.
 north dakota's current commitment of resources to the northern border
    We in North Dakota have already taken timely and assertive steps to 
safeguard our northern border.
    We have devoted a number of State resources to ensuring both its 
security and the flow of traffic to facilitate commerce. Our Highway 
Patrol, Department of Game and Fish, National Guard and Civil Air 
Patrol undertook intermittent aerial surveillance flights, both day and 
night, along our border as early as September.
    This, as you may imagine, was an expensive undertaking, which 
diverted important resources from some of those agencies' regular 
assignments. At this time, funding for these flights is limited, and 
growing more so.
    Our Highway Patrol and local law enforcement has provided 
considerable ground surveillance. Although Border Patrol has reimbursed 
some of the cost of local assistance through mutual aid agreements, 
much of it hasn't been reimbursed.
    State and local resources that have been dedicated to these new 
homeland security missions have diverted resources from conventional 
law-enforcement activities, such as highway safety and usual crime 
surveillance.
    The North Dakota National Guard has received information as of 
November 29th indicating that we may be asked to provide up to 74 
personnel to support Federal border patrol efforts for an initial 
period of six months, with a possibility that the period of deployment 
may be extended. We're told that there could be some additional 
potential mission for air operations.
    It should be noted for the record, as well, that no fewer than 48 
North Dakota agencies, including our Division of Emergency Management, 
Department of Health, and others, are now redirecting resources or 
adding resources for homeland security.
    This fall, shortly after the attacks in New York and Washington, a 
public water system in a small North Dakota town called Pembina was 
tampered with. We responded quickly, and efficiently, but the incident 
tied up our State labs, our scientists, chemists and biologists for 
nearly two weeks.
                    impact on north dakota's economy
    Heightened security is expensive, and it will inevitably need to be 
sustained, thus taxing the State's resources at a time when the 
terrorist attacks have already had a negative impact on our economy.
  --Tourism in North Dakota has slowed.
  --Corporate and business travel is down. It's recovering slowly, but 
        AAA anticipates travel will be down by about 20 percent through 
        June 2002.
    And the additional responsibility of our National Guard and law-
enforcement communities promises to burden our economy more heavily, as 
well.
                     role of the federal government
    There are a number of ways that the Federal government should 
assist North Dakota and other States in meeting homeland-security 
needs.
  --Fund additional State and local law enforcement resources for staff 
        and materials, such as Canadian-American compatible 
        communication equipment.
  --Coordinate the development and implementation of a border security 
        plan that defines State and local responsibilities and Federal 
        responsibilities.
  --Ensure that intelligence from the Federal government is provided to 
        a single point of contact within the State, from which it could 
        be further disseminated to the appropriate resources.
  --Unify Federal threat assessment information among the various 
        Federal agencies, such as the FBI, the CIA and the attorney 
        general's office.
    Perhaps most critically, as the costs associated with homeland 
security rise, the Federal government needs to provide funding with 
flexibility to defray the expense of so costly an effort. The most 
effective vehicle to do this would be general block grant funding, 
which would enable States to target their needs and reimburse hard-hit 
State, municipal and county governments. The logical agency to 
accomplish this task is the Federal Emergency Management Agency (FEMA). 
In North Dakota, our Homeland Security Coordinator is also the Director 
of our Division of Emergency Management, with many years of experience 
working with FEMA, and that is likely true in many other States, too.
    FEMA manages the consequences of terrorist attacks, helps train 
first responders in terrorism response, and assists States in 
developing emergency plans. FEMA, moreover, has recently completed a 
nationwide assessment of State preparedness regarding terrorism and 
weapons of mass destruction. North Dakota was among the first to 
participate, several weeks ago. The agency's nationwide assessment 
results will be presented to Homeland Security Director Ridge, who 
works closely with FEMA.
    FEMA has both the network in place with the States and the 
experience to effectively coordinate and deliver funding for homeland 
security without creating any new bureaucracy.
                          everyone has a role
    We have been discussing the role of the Federal government, but as 
President Bush has said, everyone has a role to play in the war against 
terrorism. This is a message that we have carried throughout the State 
of North Dakota--and a responsibility that we have willingly assumed. 
We have told our local and county leaders that they need to form 
partnerships with Federal, State and local entities, as well as with 
the private sector, to ensure that our homes and our communities are 
safe.
    On September 11, the United States was attacked by terrorists who 
thought that they would weaken us. Instead, their attacks strengthened 
us. They thought they would divide us; instead, they united us--as a 
nation and a people.
    After September 11, we found ourselves living in a new era of 
heightened security. As citizens of a nation, State, county or city, 
all of us do indeed have a role to play in Homeland Security, and all 
of us must work to prepare for, prevent and respond to an emergency 
situation at any time--anyplace in the nation.
    In this new era of heightened security, we in North Dakota have had 
to review our State government policies and procedures regarding 
security and emergencies. We're working with our community leaders to 
integrate and coordinate resources as never before. It's all about 
preparedness, prevention and response. And today, I am asking that our 
Federal government support us in that effort.
    Thank you very much.

    Senator Dorgan. Governor Hoeven, thank you very much.
    I might note that yesterday, in the Appropriations 
Committee, Senator Byrd was adding about $7.5 billion for 
homeland defense funds. There is a dispute. The Administration 
does not want that and indicates it will not accept it at this 
point, despite the fact that Governor Ridge indicates he needs 
a substantial amount of resources and will ask for them next 
year.
    But in that $7.5 billion is $500 million for grants to 
State and local law enforcement agencies, just as you have 
suggested should be done. It is done through the Justice 
Department rather than FEMA. But no matter the source, I think 
we need to find ways to provide block grants for State and 
local law enforcement agencies as they take up the mantle here 
of providing additional security and relating to additional 
security needs.
    That is true across the country and it is especially true 
with respect to northern border States because of the 
contribution that many of you have had to make with respect to 
northern border security. I also note that you have General 
Haugen with you. I am going to welcome him. I am going to ask 
about the National Guard issue when we finish the testimony.
    Let me go to Governor Dean. Governor, thank you for being 
with us and we welcome your testimony.
STATEMENT OF HON. HOWARD DEAN, GOVERNOR, STATE OF 
            VERMONT
    Governor Dean. Thank you, Mr. Chairman, Senator Reed, I 
really appreciate your leadership in this issue.
    This is critical. You are from a northern border State. 
Through many years in the last decade or so we have suffered 
through extraordinary attention to the southern border and 
almost none to the northern border so it is very refreshing 
that Congress is now taking a look at this.
    We do need exactly the kind of thing that you have proposed 
and successfully implemented, or successfully gotten the money 
for and now it needs to be implemented by the Administration, 
which is more help on the border.
    I will pre-file the testimony, so I will not read the whole 
thing into the record. But our situation is very much as 
Senator Schumer, Senator Stabenow and Governor Hoeven have 
testified. We have 15 border crossings. Some of them are very, 
very small. The U.S. Border Patrol has only 30 officers 
assigned to the entire State of Vermont.
    I went through the border a few weeks ago. The guy at the 
border had been on for 21 straight days, 50 hours of overtime 
in 2 weeks. This cannot continue and security is going to 
suffer. We absolutely have to have resources.
    It is hurting business. I think you have heard from 
Michigan about what has happened to the automobile industry. On 
a smaller scale that is happening to every State. We have ski 
resorts along the border. Some of the people come in by bus. 
They take the folks off the bus, question each one between 2 
and 5 minutes. It may take an hour or more for a bus to get 
through Customs. That simply destroys individual businesses 
along the border.
    A lot of these States are rural, as North Dakota is, as 
well as Vermont, $1 million lost in the ski industry does not 
sound like a lot of money if you are talking about the 
automobile industry in Michigan, but it is a tremendous hit to 
a very rural and not very populated area.
    Clearly more resources are necessary. The two things that I 
want to address very briefly are first, we have heard from the 
National Guard and from Tom Ridge the discussion about putting 
Guard troops on the border to help. In general, I think 
Governors are in favor of that, although there is some 
difference of opinion among Governors about whether those 
troops should be federalized or not. I personally think they 
should be, but other Governors have concerns about that.
    But the point is that that would enhance security and move 
us toward some of the speed that Senator Schumer was talking 
about, which is really the essence of whether we are going to 
do business and have a thriving economy or not.
    The second proposal I have is more far-reaching and it is 
going to take more time, but in the long run it is essential.
    Around the middle of October I went to Russia, Eastern 
Europe, and then the European Union. As you are well aware, 
when you get to a border in the European Union there may be no 
checks of any kind because they have not only a customs union 
but a common immigration policy.
    I spend a great deal of time in Canada. 94 percent of our 
exports go to Canada or are received from Canada. Our trade far 
exceeds the trade of all other countries combined in Vermont.
    We have a free trade agreement with Canada. We need a 
common immigration policy with Canada. We need to have the 
Federal Government go up and negotiate immigration rules. We 
have excellent cooperation between the FBI and the RCMP. The 
RCMP is a first-rate law enforcement organization. We have the 
capacity to deal with terrorist cells. We need the cooperation 
of the Canadian Government, and we frankly need the cooperation 
of our Government to sit down with the Canadian Government, 
hammer out an immigration policy that we have in common, so 
that in the long run, for economic purposes, the border can 
simply be erased.
    That would make an enormous difference in the economy of 
the northern border States. I think in the long run, if we are 
going to compete with other regions of the world that have done 
this, if we are not going to permit the terrorists to attack 
not only our security but our economy, which they are very 
effectively doing right now, we are going to have to have very 
far reaching initiatives such as this.

                           Prepared statement

    So let me conclude by commending you on your leadership. I 
deeply appreciate it. We immediately need the reinforcements at 
the border of the kind that you and your committee have led the 
way towards. We need to do that right away. But in the long 
term we cannot lose sight of the fact that what ultimately 
happens is this border, for commercial purposes, needs to be 
erased. And that can only be done by having a common 
immigration policy, common enforcements, and common policies on 
illegal immigration between the United States and Canada.
    thank you very much.
    [The statement follows:]

                   Prepared Statement of Howard Dean

    I would like to thank members of the Subcommittee for their 
consideration of this issue, which is of utmost importance to States 
along the U.S.-Canadian border, and an entire nation that has 
drastically altered its view of security since the tragedies of 
September 11.
    First, allow me to describe what a border State such as Vermont has 
found itself facing in the past three months:
  --U.S. Customs has 15 Ports of Entry in Vermont, with 10 of those 
        considered one-person offices. On September 11, that changed. 
        Now we keep at least two officers on duty at each station, and 
        we hope to double the 50 investigators now assigned to Vermont.
  --Customs has historically inspected between 6 percent and 10 percent 
        of all commercial vehicles traveling through their ports. On 
        September 11, that changed. Now they try to perform visual 
        inspects of about 75 percent of the traffic. That has resulted 
        in long waits at border crossings in Vermont--in some cases 
        waits of two to three hours during heavy traffic times.
  --The U.S. Border Patrol has 30 officers assigned to Vermont. But 
        this agency is in need of improvements in electronic 
        surveillance equipment to ``harden'' the border. Both border 
        agencies cite the need for enhancements in radio systems for 
        communications between the various law enforcement agencies.
    Clearly, manpower is an issue. During the last pay period alone, 
the Senior Customs Inspector at the Highgate Springs, Vermont, border 
crossing worked 50 hours of overtime during a two-week period--working 
21 consecutive days between days off. On-the-job work injuries have 
increased due to fatigue, and all vacations have been cancelled.
    Yet despite this increase, there are still gaps in the system. An 
80-car freight train arrives in St. Albans, Vermont, daily without any 
inspection at all. And Lake Champlain offers an open welcome mat to 
boaters in the summer and snowmobilers in the winter--with no 
inspection.
    Secondly, while keeping this border tight from a security 
standpoint, I need to stress the crucial need for the border to remain 
economically porous. States along the U.S.-Canadian line have long 
benefitted from a fairly open relationship on each side. In some cases 
single towns (even individual houses!) are divided by an imaginary 
boundary separating our two countries.
    Our tourism-based business--not to mention our companies who trade 
with Canada--need traffic to move through that border in order to stay 
healthy. Jay Peak, one of Vermont's premier ski areas that sits near 
the U.S.-Canadian line, gets 15 percent of its customers bused in from 
Canada. If it takes 30 minutes to an hour for a bus to pass through the 
security checks at the border, Jay Peak will lose its bus business and 
the $1 million in sales revenue that comes with it.
    Additional security at the border will not only keep security 
tight, but speed inspections to ensure tourists and others seeking 
legitimate entry can cross quickly and safely into Vermont and other 
border States. I have seen estimates that Highgate Springs would need 
at least 17 new inspectors and eight additional support personnel to 
ease the current border crisis.
    It has almost become cliche now to state the obvious: Our lives 
changed forever on September 11. But there is nothing cliched in those 
words for those of us who share a border with another nation, whose 
lives and economies are intertwined with neighbors in another country, 
and whose fears are suddenly focused on weaknesses along a border we 
pray is holding back terrorism.
    I appreciate the Committee's attention to this sensitive security 
issue. And I thank you for your time, attention and commitment to 
national security.

    Senator Dorgan. Governor Dean, thank you very much. We 
appreciate you being here.
    Governor Posthumus, from the State of Michigan, Governor 
Engler had called and indicated that he was unable to come but 
wanted to have you invited to be here, and we are pleased that 
you are here to present testimony. Why do you not proceed?
STATEMENT OF HON. DICK POSTHUMUS, LIEUTENANT GOVERNOR, 
            STATE OF MICHIGAN
    Lieutenant Governor Posthumus. Thank you, Mr. Chairman. It 
is a pleasure to be here, Mr. Reed, I bring you greetings from 
Governor Engler and the residents of the State of Michigan.
    In particular to you, Mr. Chairman, and to my good friend, 
Governor Hoeven, I bring you greetings from the Lakers of Grand 
Valley State University in Michigan, albeit it not good luck as 
they prepare for the Division II NCAA football playoffs against 
the University of North Dakota.
    Our country is different today than it was just a few 
months ago. However, as I have traveled my State and had a 
chance to talk to mothers, fathers, teachers, auto workers, 
business leaders, I have been heartened to realize that we 
still are the same Nation. Our freedoms of religion, speech and 
the press continue to be held sacred. And in fact, probably are 
held at a higher esteem today than ever before.
    As we have seen, the willingness of neighbors to go the 
extra mile to help someone in need is more evident today than 
ever before. Our resolve in defending our Nation and its 
founding principles is on clear display around the world, even 
as we sit here this very morning.
    Clearly America and Americans passed the test inflicted 
upon us on September 11 and we passed it with flying colors. As 
we work to make sure the events of that tragic day are never 
again repeated, we continue to remember those who gave their 
lives.
    But now we must go forward. As public officials, as 
leaders, it is our duty to make sure that our country is safe 
and people are protected, both from physical harm and economic 
crisis. That is why I am honored to join you and my colleagues 
from other northern border States to talk about an issue that 
is critical to our Nation's physical and economic well-being.
    The issue is maintaining a safe, efficient and smooth-
flowing border crossing with our neighbor Canada. Aside from 
assuring a basic public health and safety, this has been the 
largest single issue that Michigan has been faced with since 
September 11.
    Michigan is the proud home, as you know, of the auto 
industry and the hard-working men and women who keep America 
driving. Each day more than $300 million worth of goods, just 
auto-related goods, go back and forth between Canada and 
Michigan. That does not even include those that go across by 
rail.
    Many people may not realize it but Michigan is home to one 
of the busiest ports in America and that is Detroit. We have 
two of the three busiest international border crossings in the 
country. And more trade, Senator Stabenow referred to this. But 
more trade moves across Detroit's Ambassador Bridge each year 
than between the United States and the country of Japan.
    Canada buys more U.S. goods than all 15 countries of the 
European Union combined and Michigan is the gateway for 40 
percent of those goods.
    This year more than 28 million vehicles will cross the 
Ambassador Bridge, the Detroit-Windsor Tunnel, the Blue Water 
Bridge in Port Huron, and the International Bridge at Sault 
Ste. Marie. This is more than double the number just 4 years 
ago.
    Because of NAFTA trade between Canada and Michigan has 
increased more than 10 percent each and every year since 1993. 
It has meant more cars, more trucks, more people, more goods, 
more jobs. But unfortunately, it has not meant more workers at 
the border, as you have heard before.
    The Federal Government has an important role in addressing 
this problem. U.S. commitment to protecting and managing our 
northern border has been inadequate. Staffing levels of the 
U.S. Customs Agency and the Immigration and Nationalization 
Service at the northern border have remained stagnant and 
increases are long overdue.
    For many years Governor Engler, Michigan's congressional 
delegation and I have called for increased staffing and 
improved policies for our border crossings. Now the events 
following September's tragedy has raised that call even higher.
    In the hours and days immediately following the attack on 
our country, heightened security at our border was absolutely 
essential, as you referred to earlier, Mr. Chairman. However, 
increased security without increased manpower led to backups 
stretching 30 hours and delays of up to 16 hours at the 
Michigan border.
    People were unable to get to their jobs. Auto makers 
relying on just in time delivery of parts closed down plants, 
sent workers home. Trucks carrying needed supplies and products 
were left stranded, all at a time when people felt tremendous 
fear and uncertainty.
    Clearly, we had to get people and parts moving again. So 
Governor Engler called on Michigan's National Guard to assist 
at the borders. I am proud to say that our troops have 
performed admirably and have gone above and beyond their call 
to duty. We are grateful that Federal funds were made available 
to pay for that initial assignment.
    On October 31 the Department of Defense extended funding 
for the Guard to continue its mission and again, we are 
thankful.
    However, posting the National Guard troops at our borders 
is not a viable long-term solution for this problem. The 
Federal Government must step up to the plate and address this 
situation. It is critical in protecting our homeland and it is 
critical in allowing for the efficient movement of people and 
goods.
    That is why I am here today, to ask on behalf of the people 
of Michigan for your help. First, and most importantly, we must 
have a long-term strategy to assess the staffing levels needed 
to maintain our border.
    Second, we need a complete review of the polices that 
govern our border with Canada.
    Third, Michigan needs Federal dollars to help construct an 
additional crossing and funding to decrease traffic congestion. 
This is critical for Michigan, as a gateway to America's number 
one trade partner.
    And fourth, security policies between the United States and 
Canadian governments and Michigan and local law enforcement 
need to be reviewed and updated. I would like to just touch on 
these each.
    For Michigan, we believe the staffing is the most immediate 
concern at the northern border. You have heard that touched on 
by several other people here today. Since September 11, Federal 
funding has been authorized to increase the number of border 
personnel and Michigan thanks Congress, and thanks you, Mr. 
Chairman, for your leadership on the work that has been done so 
far.
    But the reality is that we cannot sit here this morning and 
know that that increase is enough. No assessment has been done 
to really identify how Michigan's border must be staffed in 
order to provide security and efficiently. It is important that 
we thoroughly examine the staffing and technology needs of both 
U.S. Customs and the INS for long-term issues. This is not a 
short-term problem. As conditions change at the border, we need 
to be flexible in order to adopt those meeting changes.
    Second, Michigan asks for a complete review of all policies 
governing our border with Canada. We need to work with our 
Canadian partners and neighbors to rethink how we manage our 
shared border and create a new, international agreement to make 
long-term comprehensive improvements that would benefit both 
countries. These would include improvements like creating a 
border zone where border agencies can do work even across the 
border, changing road and traffic configurations, providing 
off-site pre-inspection areas for businesses that are frequent 
travelers, and putting in place the best available technology 
to shorten inspection process.
    Right now there are some 1,600 nurses from Canada that 
travel to Michigan each day, to southeast Michigan to perform 
their duties. They pose little risk to our national security 
and fast track type technology is needed. These are just some 
of the examples of how border polices could be changed.
    Third, we feel it is essential to address the 
infrastructure needs at the border. Michigan and other northern 
border States cannot afford to meet these needs on their own. I 
am sure this is not the first time the committee has heard 
this, but we do need money.
    At one time, infrastructure issues were left for the 
northern border States and Canada to handle by themselves. We 
have seen that before. Now, because of NAFTA, and because of 
the attacks on September 11, this is no longer just a State 
issue. It is a national issue with severe national 
repercussions. This is why it must be a national 
responsibility.
    The primary focus should be on crossing capacity. Even 
before September 11, Michigan identified the need for an 
additional publicly or privately owned bridge or tunnel at or 
near Detroit. These figures continue to rise. The United States 
needs a fast track approach to address its international border 
infrastructure needs.
    Senator Dorgan. Governor, I need to ask you to summarize. 
The vote that was scheduled at 10:00 has just now started and I 
want to have Senator Clinton be able to testify before she 
leaves for the vote.
    Lieutenant Governor Posthumus. The last issue, the fourth 
issue, is the need then to work with the border security 
capabilities between the United States and Canadian 
governments. Specifically, we need to help the Coast Guard 
secure a compatible communications system that can work 
together with Michigan law enforcement in order to make the 
border secure.

                           Prepared statement

    Those are really the four basic issues, staffing, policy 
issues, the issues associated with infrastructure, and the 
Coast Guard. Those very specifically are the needs that we have 
today.
    [The statement follows:]

                  Prepared Statement of Dick Posthumus

    Thank you Mr. Chairman and distinguished members of the committee. 
I appreciate the invitation to speak to you this morning, and I bring 
greetings on behalf of Governor Engler and the residents of Michigan.
    Our country today is a different place than it was just a few 
months ago. However, as I have traveled around my State and talked with 
mothers and fathers, teachers, auto workers, and business leaders, I 
have been heartened to realize that we are not a different nation.
    Our freedoms of religion, speech, and press continue to be held 
sacred, and in fact, probably hold even greater meaning than before. 
The willingness of neighbors to go the extra mile to help someone in 
need is more evident today than ever. And our resolve in defending our 
nation and its founding principles is on clear display around the 
world, even as we sit here this morning.
    Clearly, America and Americans passed the test inflicted upon us on 
September 11, and we passed it with flying colors. As we work to make 
sure the events of that tragic day are never again repeated, we 
continue to remember those who lost their lives on that day and the 
bravery they displayed.
    Now, we must go forward. As public officials--as leaders--it is our 
duty to make sure that our country is safe and people are protected, 
both from physical harm and economic crisis.
    That is why I am honored today to join you and my colleagues from 
other northern border States to talk about an issue that is critical to 
our nation's physical and economic well-being.
    That issue is maintaining safe, efficient, and smooth flowing 
border crossings with our neighbor Canada. Aside from assuring basic 
public health and safety, this has been the largest issue Michigan has 
faced in the wake of the attack on our country.
    Michigan is the proud home of the automobile industry and the hard 
working men and women who keep America driving. Each day, more than 
$300 million in auto-related goods cross between Canada and the State 
of Michigan.
    Many people may not realize that Michigan is home to one of the 
busiest ports in America--Detroit.
    Michigan has two of the three busiest international border 
crossings in North America.
    More trade moves across Detroit's Ambassador Bridge each year than 
moves between America and Japan.
    Canada buys more U.S. goods than all 15 countries of the European 
Union combined and all of Latin America. Michigan is the gateway for 
over 40 percent of those goods.
    This year, more than 28 million vehicles will cross the Ambassador 
Bridge, the Detroit-Windsor Tunnel, the Blue Water Bridge in Port Huron 
and the International Bridge at Sault Ste. Marie. This is more than 
double the number of vehicles just four years ago.
    Because of NAFTA, trade between Canada and Michigan has increased 
more than 10 percent each year since 1993.
    It's meant more cars, more trucks, more people, more goods, and 
more jobs. But unfortunately, it has not meant more workers at our 
border.
    The Federal government has an important role in addressing this 
problem.
    U.S. commitment to protecting and managing our northern border has 
been inadequate. Staffing levels for the U.S. Customs Agency and the 
Immigration and Naturalization Service at the northern border have 
remained stagnant, and increases are long overdue.
    For many years, Governor Engler, Michigan's congressional 
delegation, and I have called for increased staffing and improved 
policies for our border crossings. The events following September's 
tragedy have only amplified that call.
    In the hours and days immediately following the attack on our 
country, heightened security at our border was essential. However, 
increased security without increased manpower led to back-ups 
stretching 30 miles and delays of up to 16 hours at the Michigan 
border.
    People were unable to get to their jobs. Automakers, relying on 
``just in time'' delivery of parts, closed down plants and sent workers 
home. Trucks carrying needed supplies and products were left stranded--
all this at a time when most people felt tremendous fear and 
uncertainty.
    Clearly, we had to get people and parts moving again, so Governor 
Engler called on Michigan's National Guard to assist at the borders. I 
am proud to say that our troops have preformed admirably and have gone 
above and beyond their call to duty. We are grateful that Federal funds 
were made available to pay for that initial assignment. On October 31, 
the Department of Defense extended funding for the Guard to continue 
its mission, and again, we are thankful.
    However, posting Michigan's National Guard troops at our borders is 
not a viable, long-term solution to this critical problem. The Federal 
government must step up to the plate and address the situation. It is 
critical in protecting our homeland, and it is critical in allowing for 
the efficient movement of people and goods across our border.
    That is why I am here today: To ask, on behalf of the people of 
Michigan, for your help.
    First, we must have a long-term strategy to assess the staffing 
levels needed to maintain our border.
    Second, we need a complete review of the policies that govern our 
border with Canada.
    Third, Michigan needs Federal dollars to help construct an 
additional crossing and funding to decrease traffic congestion. This is 
critical for Michigan, as the gateway to America's number one trade 
partner.
    And fourth, security policies between the U.S. and Canadian 
governments and Michigan and local law enforcement need to be reviewed 
and updated.
    I want to talk about each of these.
    For Michigan, we believe that staffing is the most immediate 
concern at the northern border.
    Since September 11, Federal funding has been authorized to increase 
the number of border personnel, and Michigan thanks Congress for the 
work it has done so far to address this issue.
    But the reality is that we cannot sit here this morning and know 
that increase will be enough. No assessment has been done to really 
identify how Michigan's border must be staffed in order to provide 
security and efficiency.
    It is important that we thoroughly examine the staffing and 
technology needs of both U.S. Customs and the INS for the long-term. 
This is not a short-term problem, and it cannot be solved with short-
term solutions.
    As conditions at the border change, we need to be flexible in order 
to adapt and meet changing needs.
    We have to be certain that border personnel have the resources they 
need to perform their duties completely and efficiently, not only this 
year and next, but in ten and twenty years as well.
    Second, Michigan asks for a complete review of all policies 
governing our border with Canada.
    We need to work with our Canadian partners and neighbors to rethink 
how we manage our shared border and create a new international 
agreement to make long-term, comprehensive improvements that would 
benefit both countries.
    These would include:
  --improvements like creating a ``border zone,'' where border agencies 
        can do their work even across the border;
  --changing road and traffic configurations, where necessary, to 
        provide for the smoothest possible movement of traffic;
  --providing off-site, pre-inspection areas for businesses that are 
        frequent travelers, and;
  --putting in place the best available technology to shorten the 
        inspection process.
    Right now, there are more than 1,600 Canadian nurses who work in 
the Detroit area. They pose little risk to our national security, and 
fast-pass type technology would get them between work and home more 
quickly without compromising security.
    These are just some of the examples of how our border policies must 
be reviewed.
    Third, we feel it is essential to address the infrastructure needs 
at the border. Michigan and other northern border States cannot afford 
to meet these needs on our own. I'm sure this isn't the first time your 
committee has heard this, but we need money.
    At one time, infrastructure issues were left for the northern 
States and Canada to handle. Now, because of NAFTA and because of the 
attacks of September 11, this is no longer a State issue. It is a 
national issue with severe national repercussions. That is why it must 
be a national responsibility.
    The primary focus should be on crossing capacity. Even before 
September 11, Michigan identified the need for an additional publicly 
or privately owned bridge or tunnel at or near Detroit. Again, figures 
continue to show that traffic between Michigan and Canada grows more 
than 10 percent each year. It will not be long before our current 
crossings will be unable to carry all the traffic efficiently.
    The United States needs a fast-track approach to address its 
international border infrastructure needs, and the Federal government 
must take financial responsibility for maintaining the border crossings 
that are so important to our country's economic well-being and our 
national security.
    A Federal role is warranted and needed.
    And lastly, Michigan asks for a review of border security 
capabilities and policies between the U.S. and Canadian governments.
    Because of the Great Lakes, Michigan is home to 18 U.S. Coast Guard 
stations. Current funding levels, however, limit Coast Guard activities 
in the Great Lakes region to mainly search and rescue operations 
related to summer recreation. They are limited in the resources they 
have to help protect our border, and Michigan asks that the Coast Guard 
be given the funding it needs to keep our shores safe.
    At this time of heightened security, communication between law 
enforcement agencies is critical. The Coast Guard needs a secure and 
compatible communications system so that it can work together with 
Michigan law enforcement to make sure our borders are secure.
    In addition, similar to the current arrangement with officials 
managing America's southern border, we ask that a forum for 
intelligence sharing be established between U.S., Canadian, State and 
local law enforcement officials.
    Please make no mistake, Michigan is very aware that these are not 
easy issues to address. International agreements and differences in 
U.S. and Canadian laws present difficult and unique challenges. But if 
there was ever a time to focus on what will help make our crossings 
both safer and more efficient, that time is now.
    The responsibility for this lies with all of us. But in this area, 
we look to Washington D.C. for leadership, resources, and assistance.
    I know that Michigan and our fellow border States, their Governors 
and State legislatures, the private sector and bridge operators, stand 
ready to work with you and the Bush Administration to make the changes 
needed to address these concerns in a comprehensive and thorough way.
    Thank you again for the invitation to be here this morning, and I 
look forward to working with you further on these very important issues

    Senator Dorgan. Governor, thank you very, much.
    Senator Clinton, your colleague, Senator Schumer, was with 
us earlier this morning. We appreciate your joining us. As I 
indicated, a vote has just begun, there are 12 minutes 
remaining on the vote. Why do we not take your testimony after 
which I will have a recess.
STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
            FROM NEW YORK
    Senator Clinton. Mr. Chairman, I will submit my statement 
for the record.
    I wanted to support you in your efforts, which we 
appreciate greatly, and this committee's commitment to 
following up on these suggestions from the first panel and then 
from this panel of distinguished Governors.
    New York is the most populous State along the northern 
border. From Plattsburgh to Watertown to Buffalo, we are facing 
the same challenges that we have just heard described from 
Michigan. And it is time for us to pull together a 
comprehensive strategy, with the resources that will put 
northern border security on the same level as the border on our 
south has always been considered.
    I have asked Governor Ridge to appoint one person who could 
be our contact person, to work with all of these different 
interests and needs. I hope that that will be done in the 
Office of Homeland Security so that we can all coordinate our 
efforts to achieve the goals that we are seeking.

                           Prepared statement

    Although I applaud the Attorney General with the 
announcement this week that there will be National Guard forces 
that will be posted along the border, that is not a permanent 
solution. We need to have the commitment of resources that will 
enable us to not only utilize the personnel we need along the 
border to expedite scenes like this at the Peace Bridge, but 
also we need to better utilize technology. Since the border is 
so long, there is no way we can post people along it, but we 
should do better than your orange cone, Mr. Chairman.
    So with that, I thank you very much for this important 
hearing.
    [The statement follows:]

          Prepared Statement of Senator Hillary Rodham Clinton

    Thank you for the opportunity to testify on the important subject 
of northern border security. I appreciate the leadership that Senator 
Dorgan has shown on insisting that additional resources be allotted to 
protect our northern border.
    Management of the border is an important issue to all of us who 
represent States along the U.S.-Canada border. Indeed, I have heard 
from constituents in Buffalo, Plattsburgh and elsewhere along the New 
York's border with Canada about their concerns with how the border is 
protected and managed. However, this issue is should be of concern to 
all Americans. Border security is also homeland security. And homeland 
security begins with border security.
    Our border with Canada is the longest, most peaceful and open 
border in the world. And we want to keep it that way, because both 
America and Canada benefit from the free flow of goods and people back 
and forth. At the same time, the border can be exploited by those who 
mean to do us harm. There are steps we can and should take to beef up 
security at the border without inhibiting the flow of commerce and 
tourism between our two nations.
    For too long, northern border security has received the short end 
of the stick when it comes to Federal resources. But the Federal 
government must provide for the permanent, long-term protection of our 
northern border.
    While northern border security has received increased attention 
since September 11, it is important that we not repeat the mistakes of 
recent years and underfund security along the U.S.-Canada border. 
Indeed, a Justice Department report last July disclosed that only 4 
percent of border patrol agents work along the U.S.-Canadian border. 
Let's not forget that it was an alert official stationed along the 
border between Canada and the United States who helped stop a potential 
terrorist attack on our country around the time of the Millennium.
    Attorney General Ashcroft's request earlier this week to 
temporarily add National Guard soldiers, aircraft, intelligence and 
additional personnel to the northern border is an important step in 
making the U.S.-Canada border more secure. However, this is only a 
temporary fix.
    The Attorney General's announcement is a clear demonstration of the 
importance of securing the northern border and the need for more 
permanent solutions to the problems faced by the INS, Customs and other 
agencies with responsibility for policing the border.
    Our northern border security needs cannot wait until the next 
budget cycle. Indeed, Homeland Security Director Tom Ridge's warning 
this week of the possibility of another terrorist attack demonstrates 
the urgency of dealing with northern border security immediately.
    The Homeland Defense Package, reported out of the Appropriations 
Committee yesterday, provides a significant amount of resources for the 
Northern Border. It would provide $591 million for border security--
most of which would go to the Northern border--including more INS 
border patrol agents and customs inspectors as wells as facility 
improvements.
    We can use technology more effectively--high-tech equipment than 
can improve our surveillance along the border. That is why last week, I 
signed on to co-sponsor the bipartisan Enhanced Border Security and 
Visa Entry Reform Act of 2001 which contains provisions to improve the 
resources, training, and technology available to our border personnel.
    We must also improve the coordination among the number of agencies 
involved in various aspects of border security. It is disappointing 
that the Treasury Department and the Customs Service were not included 
in the Attorney General's recent announcement concerning additional 
National Guard soldiers, aircraft, intelligence and other personnel to 
the northern border.
    In order to maximize the coordination of United States government 
agencies in northern border security, I have asked Tom Ridge to appoint 
a full-time staff person within his office with responsibility for 
northern border issues. We need to have a point person who we can go to 
address the various northern border issues that arise.
    Thank you for the opportunity to testify on this important issue.

    Senator Dorgan. Senator Clinton, thank you very much.
    I might just point out, the U.S. Customs Service has 1,037 
inspectors on the northern border, 2,200 inspectors on the 
southern border. The Border Patrol has 500 uniformed agents on 
the northern border, 9,000 on the southern border. So you can 
see the resource difference.
    I did not bring the orange rubber cone today, because I 
think people are tired of seeing it. But as I have said, it 
cannot walk, cannot talk, cannot shoot, and cannot tell a 
terrorist from a tow truck. It just sits there after 10 o'clock 
at night, at many of these locations along our northern border.
    The polite people who come through illegally actually get 
out of the car and move the cone, I am told, and then put it 
back. But those who are not so polite go through at 60 miles an 
hour and shred that orange rubber cone.
    We have two votes and we are going to have a 15 minute 
recess. I will be back in 15 minutes. Are the governors able to 
stay? I hope you are able to stay for 15 minutes, I do want to 
ask some questions about the National Guard.
    We have General Lowenberg, who is also here from the State 
of Washington, and General Haugen. I hope perhaps you would be 
able to be here as well, in case we have some questions. Are 
you able to stay for 15 minutes?
    We will be in recess for 15 minutes.
    The hearing will be back in session.
    I understand that a couple of the Governors had to leave. I 
regret that it took longer than was expected on the floor of 
the Senate. Senator Thurmond is 99-years-old and they wished 
him Happy Birthday. He stood up and responded by saying I love 
all you men, and love the women even more. That was Senator 
Thurmond's response today, we are delighted to have him with 
us.
    If I might ask the two Adjutant Generals to come forward 
just for a moment. Governor Posthumus, thank you for staying. I 
regret the inconvenience but we were able to get the testimony 
on the record and I will inquire of the Governors by written 
questions to them.
    I want to ask specifically about the National Guard 
function first, and then Governor Posthumus, perhaps you can 
give me your judgment about a couple of other things relating 
to the Customs Service.
    On the National Guard issue, Generals, you know that 
Attorney General Ashcroft indicated that he was going to ask 
for the assistance of the National Guard, and I believe that is 
now underway. Can I ask, what kind of training exists in the 
National Guard that makes that a good fit for the northern 
border?
    My own view of it, without having a lot of information, is 
that that is an adequate temporary approach to assign some 
National Guard resources to the northern border, but it is 
certainly not something that probably works beyond a temporary 
approach. I am specifically interested in whether this is 
something that fits with the training that National Guard 
troops have? Do either of you want to take a crack at that?
STATEMENT OF MAJOR GENERAL TIMOTHY J. LOWENBERG, 
            CHAIRMAN, HOMELAND SECURITY, ADJUTANTS 
            GENERAL ASSOCIATION OF THE UNITED STATES
    General Lowenberg. Senator Dorgan, if I may respond first, 
I am Chair of Homeland Security for the Adjutants General 
Association of the United States, and I have been working very 
closely with the Executive Secretary, Secretary White, within 
DOD on this issue and others on how the National Guard would be 
used.
    In fact, for more than 12 years, thousands of National 
Guardsmen have been used in every State to support INS, Border 
and Customs in the counter-drug mission. Many of the functional 
elements of what is being needed right now for augmentation of 
these Federal agencies along the northern border is virtually 
indistinguishable from what we have been doing for a long time 
with regard to drug interdiction efforts. We are simply looking 
for terrorism related materials as opposed to a specific focus 
on illicit drugs.
    So in that respect, it does fit within the skill set of a 
lot of our soldiers and airmen who have been engaged for a long 
time supporting Federal agencies, as well as local law 
enforcement agencies in these efforts.
    I would agree with those who testified previously before 
the committee that although this is an appropriate use of the 
National Guard in Title 32 status, which preserves the proper 
role of the Governors and the States as a partner with the 
Federal Government, that it should be, and must be, an interim 
transitional measure, leading the pathway to a more permanent, 
civilian agency solution.
    Senator Dorgan. General Haugen, do you have some notion, 
based on what Attorney General Ashcroft announced, of how many 
North Dakota Guardsmen might be employed?
STATEMENT OF MAJOR GENERAL MICHAEL HAUGEN, ADJUTANT 
            GENERAL OF NORTH DAKOTA
    General Haugen. Yes, sir, Senator. Right now, the current 
thinking is we will have 44 National Guard members assigned to 
the Customs Service with another 10 to INS. They are still 
reviewing the possibility of using aviation assets either in a 
surveillance role or in a response role. In other words, a 
helicopter that could carry a team to an incident or a 
sighting.
    The issue of training, if I could also address that a 
little bit, we have many National Guard members who are law 
enforcement personnel in their civilian occupation, or are 
trained in related occupations. There will be some specific 
training for all National Guard members, as there was in 
airport security, by the FAA. And so the uniqueness of this 
will be covered in their training.
    However, basic security measures are something that every 
National Guard member is trained in as a soldier in his normal 
course of training.
    Senator Dorgan. How long will the rotation be for those 
that you assign? Will you do it on a rotating basis?
    General Haugen. Again, as General Lowenberg said, the Title 
32 possibilities are much more friendly to the Guard than the 
Title 10, because as a Title 32 member we can schedule you, 
rotate you at a convenience of the Guard member. If we do Title 
10, then people are activated for like the 6 month period.
    So it is much better for the individual Guard member with 
his civilian occupation or whether she may be going to school, 
or whatever their outside occupation would be. So that is a 
thing that can be varied and determined by the individual, as 
well as the needs of the Border Patrol and the National Guard.
    General Lowenberg. Senator Dorgan, in Title 32, Governors 
also retain access to those soldiers and airmen for responding 
to State emergencies which may temporarily override the ongoing 
efforts at the border. Where if a soldier or airman has a 
particularly unique skill, they can be withdrawn to respond to 
a State emergency and another soldier or airman can be 
substituted with prior training for the Customs agent mission. 
That is not possible in Title 10 status.
    Title 32 duty also permits us to require of the soldiers 
and airmen that they attend all of the regular unit training 
assemblies and annual training, so that the unit readiness and 
the war-fighting capability of the National Guard units is not 
degraded at all. In Title 10 status, we lose all control over 
those members and there is immediate unit wartime readiness 
degradation.
    Senator Dorgan. Governor Posthumus, I agree with your 
testimony that we need additional resources, and we are having 
a battle here in Congress on that issue right now. If nothing 
is done with respect to homeland defense or homeland security 
in funding now, it will occur either in a supplemental or in 
the regular appropriation next year, which means that perhaps 
mid-year next year or October 1st additional resources would be 
triggered.
    We have this discussion going on with the Administration,--
I guess discussion is a kind word to describe it--between 
Senator Byrd who has added $7.5 billion roughly to the defense 
appropriations bill and the Administration that says no, we do 
not want that now.
    But that $7.5 billion would fund additional Customs Service 
agents, inspectors, canine units and other things, to beef up 
Customs, INS and Border Patrol on the northern border. It would 
be useful, certainly, for you as well to--and I am sure you and 
Governor Engler will do this--but to visit with the Homeland 
Security Chief and the White House about this.
    The question is not whether we need resources. Everybody 
understands we do. The question is when we get them and how we 
employ them. In my judgment, the sooner the better. I would 
assume you feel the same way?
    Lieutenant Governor Posthumus. Absolutely, Mr. Chairman. 
And I might add, as important as the Guard have been to our 
border protection since September 11, especially in Michigan 
and I am sure other northern border States, we have to continue 
to emphasize that that really has to be a temporary solution.
    In the case of the Michigan Guard, and I would expect that 
is true in most cases, they do not have the full authority of 
the Customs agents, even though they are there. They are there 
unarmed, while agents are armed. I think most people assume 
they are armed. And they are not necessarily trained in the 
same way that Customs agents have been.
    So that, as I mentioned earlier, it is our number one 
request to both you and it will be the number one request to 
Secretary Ridge and the President, that we one, fund the 
increase of personnel. But maybe just as important, do an 
analysis of what our personnel needs really are. We really do 
not know, because a full analysis has not been done.
    In part because of September 11, but before that because of 
NAFTA, the amount of traffic has increased at just phenomenal 
rates all across the northern border States. And we have not 
really come to grips with that.
    So I guess I will take you up on that, we will definitely 
be talking to the Secretary.
    Senator Dorgan. Terrorists are not going to wait until we 
get all of our resources in place. We need to understand there 
is an urgency here with respect to border security. That 
urgency exists with respect to every border because I think the 
terrorists will find our weakest link when trying to enter this 
country.
    At a previous hearing I held, we had testimony about the 
need for the Advanced Passenger Information System to be sent 
to Customs by the air carriers that are bringing people into 
our country. I was able to get that done on the Airport 
Security Bill, so that is now a requirement. Customs is working 
on that. The carriers, if they do not comply after the 60 days, 
they will be invited to land their airplanes in some other 
country.
    It is very simple. If the carriers are not going to comply 
with giving us advance information about who is coming into our 
country, we say land somewhere else. The carriers that are not 
complying and have not been complying are Pakistan, Saudi 
Arabia, Egypt, Kuwait among others. Kuwait has now come into 
compliance.
    My sense is you have to worry about all of your borders and 
the northern border has been kind of the step-child of security 
issues. I think the only way we are going to provide enhanced 
security is to work together.
    I do not know that we will ever provide the significant 
Federal resources that one would like on a 4,000 border to be 
sure that you are covering everything. That is why I believe, 
even as we add resources, we are going to have to look to the 
States. Although I think the National Guard deployment must be 
temporary, I think in the long-term there will always be an 
integration of Guard and all State resources with what we are 
trying to do at the Federal level to improve and enhance 
security.
    Let me just ask on another front, what is the morale and 
the mood in the National Guard these days in your States and 
across the country?
    General Lowenberg. Morale could not be higher, Senator. As 
I travel throughout not only our State but throughout the 
United States, and speak with soldiers and airmen on duty at 
the airports, their morale is sky-high. They are so proud to be 
contributing to the enhanced security of the American public 
that they would not choose to be any other place.
    And that is also true, obviously, for our soldiers and 
airmen who are serving around the world. Most of our States 
have soldiers and airmen who are serving in a half dozen 
countries on any given day of the week. That is the modern 
National Guard. We are very proud to serve.
    General Haugen. I would echo General Lowenberg's comments 
and I have traveled all around and seen soldiers from other 
States at airports. I try and observe people's actions with 
them. I think many times individuals come up and just simply 
thank them for being there. Again, it is a good feeling for our 
soldiers, that they are providing security to the traveling 
public.
    Of course, we are also, beyond those airports, all around 
the world and sometimes even here in Washington we are right 
above your heads.
    Senator Dorgan. You do not mean that literally. Yes, you do 
mean that literally.
    General Haugen. Yes, I do mean that literally, Senator.
    Senator Dorgan. The Happy Hooligans. I mentioned yesterday 
in the Defense Appropriations Committee, when we talked about 
the aging aircraft that we are flying, that the Air National 
Guard in Fargo, the Happy Hooligans, were the ones that were 
scrambled at Langley on September 11 to fly over the United 
States Capitol and Washington, D.C.
    I pointed out that they have won the William Tell award 
three times for being the best fighter pilots in the world. And 
the best fighter pilots are flying the oldest airplanes, which 
is not a very fair approach, it seems to me, in the way that we 
allocate some of these resources.
    But the point I was making, and the point Senator Domenici 
and others made, is that we have an aging fleet of aircraft 
that we have to find a way to deal with.
    Let me again apologize for the inconvenience of the two 
votes which required our Governors to leave, but that happens. 
We have other Governors who will be submitting statements.
    Senator Cantwell was intending to be here but also was 
delayed because of the two votes and she will submit a 
statement for the record.
    Senator Dorgan. Governor Posthumus, thank you for joining 
us and we will continue these discussions with the 
Administration and with Secretary O'Neill and the Treasury 
Department and others with respect to northern border security.

                    Additional submitted statements

    The subcommittee has received a statement from Senator 
Levin, and various Governors which we will insert in the 
record.
    [The statements follow:]

                Prepared Statement of Senator Carl Levin

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to submit testimony on the important issue of Northern 
Border security. I am pleased you are holding this hearing to shed 
light on the needs of the Northern Border that has long been neglected. 
Unfortunately it took the tragedy of September 11 and the subsequent 
need for heightened security along our borders to draw attention to the 
chronic resource shortages that have existed on our Northern Border.
    The Northern Border is 4,000 miles long. The Southern Border is 
2,000 miles long. While much has been done over the last decade to 
improve security on our border with Mexico, the Northern Border has 
largely been ignored. For example, only 1,773 Customs Service personnel 
are present at our border with Canada, while 8,300 protect our Southern 
Border. Similarly, while 8,000 Border Patrol agents monitor our 2,000 
mile Southern Border, only 300 are stationed at our 4,000 mile Northern 
Border. So, 96 percent of our Border Patrol agents are assigned to a 
border that is only half as long as the one to which 4 percent of 
agents are assigned.
    Attorney General John Ashcroft has acknowledged the problem. He 
said, ``We have very frequently placed a lot of our resources along the 
southern border with Mexico, and we've been a--done a pretty good job 
of curtailing what had been an unrestrained flow there. We have 9,000 
people [INS] on the southern border. We have fewer than 500 people 
[INS] on the northern border, and that northern border is 4,000 miles 
long. We do need to improve our border security, and we're in the 
process of not only asking for the congressional help to get that done, 
but in the reorganization and reconstitution of what we're doing 
here.''
    This policy of neglect must be corrected without delay and we are 
in the process of doing so.
    Although hugely understaffed, we process a large percentage of the 
country's commercial traffic. The Northern Border has 6 of the top 8 
truck border crossings in the country, including number one which is 
Detroit's Ambassador bridge. Our Customs officers on the Northern 
Border process 62 percent of all trucks, 85 percent of all trains, and 
23 percent of all passengers and pedestrians entering the country each 
year. However, our Customs inspectors represent only 14 percent of the 
currently deployed inspectors in the country, and their numbers have 
remained essentially static since the 1980s.
    Southeast Michigan is our nation's busiest Northern Border crossing 
and a significant commercial corridor. The port of Detroit is among the 
busiest ports in the country and growing. Southeast Michigan is home to 
5 international border crossings. The Detroit Region has half of all 
Northern border crossing traffic yet has only 10 percent of the INS 
inspectors assigned to the Northern border and 24 percent of the 
Customs inspectors assigned to the Northern border.
    Customs and INS inspectors at the Port of Detroit have been 
overwhelmed in recent years as traffic at the airport, seaport, tunnel 
and bridge has greatly increased. Tightened security on our borders as 
a result of the September 11 attacks has aggravated this problem.
    The new security measures at the border have a tremendous impact on 
our economic well being. Auto plants wait days for critical parts. 
Hospitals can't perform vital services when doctors and nurses are 
trapped in long lines at the bridge and tunnel. We need to find a 
permanent solution to the staffing shortfall at our borders so that we 
are able to perform essential security inspections without causing 
unreasonable backups that hurt our economy. Hiring additional 
inspectors is an essential step to increasing the security while 
decreasing the delays at the border.
    The current arrangements at Michigan's border crossings are 
temporary and fragile. Much of the backlog was resolved only with the 
help of dedicated local law enforcement officials working overtime, the 
Michigan National Guard, and volunteers. We are grateful for the recent 
Federal commitment to increase the number of National Guard at the 
Northern Border and are relying on them to help protect our border and 
keep traffic and commerce flowing smoothly. However, we need to move 
quickly to put permanent staff and technology in place so that we never 
again have the 12 hour border crossing delays experienced in Southeast 
Michigan in the days and weeks immediately following September 11.
    Congress has taken some important steps to achieve this goal, but 
we are not there yet. It takes time to hire and train new people. The 
fiscal year 2000 Treasury Postal Appropriations bill provides an 
additional $28 million for Customs to institute a Northern Border 
initiative including hiring approximately 285 additional Customs 
officers. The Commerce Justice State fiscal year 2002 Appropriations 
bill provides for $66.3 million for 570 new border patrol agents across 
the nation and $25.4 million for 348 new land border ports-of-entry INS 
inspectors across the nation. Particular attention will be paid to the 
needs of the Northern border. Congress also tripled staffing levels for 
INS, Customs and Border Patrol staffing on the Northern Border in the 
anti-terrorism bill. A portion of the $40 billion emergency 
supplemental should also go to staffing up and security our Northern 
Border.
    Improved border security involves more than just more money. It 
requires changing policies and practices that don't make sense. On 
November 13th I held a hearing of the Permanent Subcommittee on 
Investigations to highlight an obvious gap in our border security.
    The U.S. Border Patrol is the uniformed law enforcement arm of the 
Immigration and Naturalization Service (INS) with the responsibility of 
combating alien smuggling and illegal entries other than at ports of 
entry. Ports of entry such as airports, bridges and highways are the 
only places where people may legally enter the United States. They are 
also the places where INS officers and Customs Agents review persons, 
papers and luggage to decide whether to allow someone into the United 
States.
    The Permanent Subcommittee on Investigations looked at how people 
who attempt to enter the country illegally at places other than these 
official ports are arrested and processed by the Border Patrol. When 
persons are arrested by the Border Patrol, the large majority 
voluntarily returns to their country of origin, usually Mexico or 
Canada. The others, perhaps as many as one-third of those arrested on 
the Northern Border, are given a notice to appear at a removal hearing. 
The Border Patrol decides whether the person should be detained, 
released on bond or, as is often the case, released on his or her own 
recognizance while awaiting a hearing. This hearing can take several 
months to occur.
    In fiscal year 2001 at the Detroit Border Patrol Sector--which 
encompasses all of Michigan--the Border Patrol arrested more than 2,100 
people. A significant percentage of these people were arrested while 
actually attempting to enter the U.S. illegally. Most of these 2,100 
were voluntarily returned to their country of origin. However, more 
than one-third were given a notice to appear at a removal hearing. 
Reports from Border Patrol agents indicate that the vast majority of 
the latter group were released on their own recognizance pending their 
hearing. The INS wasn't able to tell us how many of the persons 
arrested in this situation and released fail to show up for their 
scheduled hearing. However, by looking at related statistics and 
ballpark estimates, we estimated that the number is at least 40 percent 
and possibly as high as 90 percent.
    The conclusion is inescapable: the vast majority of people arrested 
by the Border Patrol while attempting to enter the U.S. illegally who 
don't voluntarily return to their own country are released on their own 
recognizance. Most of those released don't show up for their removal 
hearing and little or no effort is made to find them.
    As I said at my Subcommittee's hearing, this is a dysfunctional and 
absurd system that makes a mockery of our immigration laws. When we 
release persons into the country who are without an address, without 
ties, without any record of who they are, we're abdicating our 
responsibility to the larger community. This is a practice that has to 
stop. On November 13th, I asked the INS and Border Patrol to report to 
me on the steps they plan to take to close these enforcement loopholes. 
If the response is unsatisfactory, I plan to introduce legislation to 
accomplish it.
    In conclusion, we need a combination of temporary and permanent 
solutions to address the gaps in funding and policy that affect 
security and commerce at our Northern Border. I am pleased the 
administration is calling for additional National Guard that have been 
assisting at the border. However, we must get the posts permanently and 
adequately staffed with Customs and INS officials so that we don't have 
to rely on temporary fixes. We also need to find a way to compensate 
our local law enforcement volunteers and secure funds for technology. 
We should also consider performing reverse Customs inspection of 
vehicles entering tunnels and crossing bridges on the Northern Border. 
With the increased security risks to our nations infrastructure in the 
post-September 11 climate, it seems obvious that inspecting vehicles 
for bombs or explosives AFTER they enter our tunnels or cross our 
bridges is illogical. To rectify this security vulnerability, we must 
work with our neighbors to establish a reverse inspection program to 
inspect vehicles before they have the chance to endanger or destroy 
important transportation infrastructure. And finally, we need to make 
common sense changes to our law enforcement and immigration policies to 
ensure the safety of our people and the integrity of our laws. We are 
an open and generous country and we welcome persons from around the 
world who want to contribute their hard work to help build a better 
America. But we also have a duty to protect ourselves and our country 
from people who would do us harm.
                                 ______
                                 

                Prepared Statement of Senator Judd Gregg

    Thank you, Chairman Dorgan and Senator Campbell, for the 
opportunity to submit a statement as part of your hearing regarding 
security on the northern border in the wake of the events of September 
11, 2001.
    For the last several years, many of us have attempted without 
success to alert the Border Patrol and the Immigration and 
Naturalization Service (INS) to the security vulnerabilities on the 
northern border. We were ignored. All eyes in the past Administration, 
and, frankly, this Administration, were turned to the Southwest border. 
Even when terrorists were caught red-handed on the East and West Coast 
with bomb-making material, having crossed the northern border without 
question or concern, we could elicit no interest or support in beefing 
up our security posture on the northern border.
    Let me cite just one recent example. Armed with a report 
documenting gross overcrowding at Border Patrol stations on the 
Southwest border and undermanning at Border Patrol stations on the 
northern border, the Senate Commerce, Justice, State (CJS) Subcommittee 
attempted to direct new Border Patrol agents to the U.S.-Canadian 
border. Of 430 new agents funded in fiscal year 2001, the Senate 
proposed deploying a mere 65 to the northern tier--1 new agent for 
every 62 miles of our 4,000-mile northern border. The Border Patrol 
insisted that only 15 be so assigned. After a lengthy wrangle, the 
House sided with the Border Patrol, the Senate was outvoted, and we in 
the north had to share 15 new Border Patrol agents--1 new agent for 
every 267 miles.
    Prior to September 11, 2001, many ports of entry on the northern 
border were guarded by nothing more than a yellow cone. In effect, we 
ran an honor system. And, of course, that was only for border crossers 
foolish enough to attempt a crossing at a port of entry. Travelers with 
more nefarious intentions were free to cross our border wherever they 
chose, because the Border Patrol had a minimal presence in rural areas. 
Huge swaths of territory on the northern tier heard the footfalls of a 
Border Patrol agent once in a blue moon, if at all. To compensate, the 
Senate CJS Subcommittee attempted to force remote sensors to the 
northern border. Even this modest effort was met with resistance from 
the Border Patrol and INS. Seems no one was concerned.
    Worse yet, even at ports of entry that were manned some part of the 
day or some part of the year, inspections were cursory and lines were 
long because of inadequate staffing and the sheer number of travelers. 
Besides the obvious security concerns raised by ``glance and go'' 
inspections, congestion at northern ports of entry, and the wait times 
that result, were crippling trade and tourism on the border. In 
Detroit, peak wait times have climbed to 2-2\1/2\ hours, in Seattle the 
same, and travelers at smaller entry ports in New England are waiting 
2-3 hours. In the last five years, the number of immigration inspectors 
has actually declined. Today, of 104 ports of entry, 85, or 82 percent, 
are manned at 50 percent or less of workload requirements and the four 
worst, all on the northern tier, are manned at less than 15 percent.
    How things have changed since September 11, 2001. The $30,300,000 
provided by the supplemental for 323 new immigration inspectors and 
support staff will increase total staffing by almost 20 percent, 
sharply reducing wait times and allowing ports of entry to operate 
around the clock, seven days a week. A similar increase provided in the 
fiscal year 2002 CJS bill will double the benefits.
    Of course, having surged personnel to the northern border, we must 
also provide the facility funding necessary to house and support 
immigration inspectors and personnel from Customs, Agriculture, and 
other sister agencies. The INS is confronted with a $1,500,000,000 
backlog in construction. It is my understanding that Customs faces a 
$1,000,000,000 backlog. Some of this may overlap, but much of it 
certainly does not. Though the so-called ``stimulus'' section of the 
Defense Appropriations bill includes $300,000,000 for INS construction, 
there is no guarantee that these funds will survive the process before 
us. If they do not, we must dedicate ourselves to properly funding 
facilities on the northern border.
    Mr. Chairman, the deficiencies that confront us on the northern 
border are real. They have long been ignored. It is my hope that events 
like those of September 11 will call attention to the very serious 
problems that have long existed on the northern border. I look forward 
to working with you and Mr. Campbell to address security shortcomings 
as we see fit. Again, I appreciate the opportunity to participate in 
the hearing before your Subcommittee.
                                 ______
                                 

      Prepared Statement of Judy Martz, Governor, State of Montana

    Thank you, Mr. Chairman, and members of the Subcommittee. I thank 
the Subcommittee for the invitation to submit testimony for this 
hearing, and appreciate the opportunity to share with the Subcommittee 
the challenges that the State of Montana faces in dealing with the 
issue of northern border security.
    In October of this year, I established the Homeland Security Task 
Force for the State of Montana. This Task Force brings together 
representatives from: the Office of the Governor; the Montana 
congressional delegation; State legislators; the Montana Departments of 
Justice and Corrections; local fire, emergency medical services and law 
enforcement; the Montana National Guard; the FBI; the Office of the 
U.S. Attorney; the U.S. Postal Service; Montana Disaster and Emergency 
Services and other Federal, State, and local agencies.
    The mission of the Task Force is to coordinate efforts to prevent, 
prepare for and protect against terrorist attacks within Montana, and 
when necessary, detect, respond to, and recover from such attacks. 
Montana's Task Force also coordinates with President Bush's Office of 
Homeland Security.
    Security of our northern border is an important component of the 
Task Force's mandate.
    Montana's border with Canada is approximately 550 miles long. This 
includes nexus with three Provinces: British Columbia, Alberta, and 
Saskatchewan. The Blackfeet Nation in Montana has 50 miles of this 
border and Glacier National Park 40 miles. There are 11 Montana 
counties along this border. There are 15 official ports of entry along 
this 550 miles of which only three operate 24 hours per day. It is 
estimated that there are 180 border crossings; 12 of which are paved; 
the remainder are gravel, dirt and primitive trails. The U.S. Border 
Patrol has two regional offices for Montana. The Havre, Montana office 
handles the east side of the Continental Divide and the Spokane, 
Washington office on the west side.
    The events of September 11 were a catalyst for what are and should 
be on-going efforts at the local, tribal, State and Federal levels to 
analyze potential threats and the governments' ability to prevent and 
respond to them. This collaborative effort is crucial.
    One of the areas that we believe needs particular attention is that 
of communication between Federal and local law enforcement in the area 
of intelligence. Intelligence gathering is crucial to threat detection 
and prevention efforts. Montana is one of only a few States that does 
not have a State intelligence system therefore making exchange of 
information with Federal law enforcement agencies difficult. A central 
repository for intelligence information would enable local law 
enforcement officials to respond in a pro-active manner to information 
furnished by Federal law enforcement agencies and our Canadian 
counterparts. This could be one of the most efficient and cost-
effective measures to improve the security of our northern border.
    Like many other States, Montana does not have a shared public 
safety radio communications system, the absence greatly hinders 
communication between local, State and Federal agencies. This 
inefficiency was proven during Montana's 2000 wildfires, when 
coordination efforts of local fire departments, the U.S. Forest 
Service, State Forestry, local sheriffs and the Montana Highway Patrol 
were severely hampered.
    Such a system would significantly assist border States in 
identifying terrorist and other criminal threats along the northern 
border. It would also improve State and local response times to day-to-
day threats or critical incidents.
    The costs of such a system, however, are prohibitive. It is 
estimated that the cost to the State of Montana would be between $150-
$160 million.
    I have been working with the Havre Sector of the U.S. Border 
Patrol, which services 452 miles of border area between Montana and 
Canada, to detect and prevent illegal entry and smuggling. Limited 
resources at all levels contribute to the challenges and make it 
impossible to precisely evaluate the full extent of potential threats.
    The northern border presents such threats that, we believe, are 
underestimated and increasing. Illegal immigration, drug trafficking, 
and smuggling are continuous challenges. Because of the large 
geographic area of the border and limited resources, it is difficult to 
track exactly what is going back and forth. A true quantitative 
analysis needs to be conducted so local, tribal, State and Federal 
agencies can better understand the threat and plan accordingly.
    To help address these issues, Montana has several emergency 
management related relationships with Canada. The Prairie and Western 
Regional Emergency Management Councils coordinated by FEMA, the 
Canadian/U.S. hazardous materials agreements coordinated by EPA, and 
the Northwest Compact for mutual aid. Montana is also a member of the 
Pacific North West Economic Region dealing with security issues for 
utilities on both sides of the border. Energy and water systems do not 
stop at the border and are heavily interdependent on each country.
    Canadian intelligence has reported that approximately 350 people 
have been identified as possible terrorists or associated with 
terrorists in Canada. Additionally, they have identified 50 
organizations suspected of aiding terrorists. Montana's Attorney 
General reported recently that a known terrorist had crossed the 
Canadian border into Montana after September 11.
    I am studying options to support border security measures utilizing 
the Montana National Guard. But increased Federal support to aid the 
efforts of the U.S. Border Patrol and other agencies involved in border 
security are also crucial to addressing these issues.
    Tremendous strain has been put on State and local budgets in the 
aftermath of September 11. As a national border, the Federal government 
needs to pay its fair share of the increased costs that have been 
caused due to these events, and work to adequately protect the citizens 
of northern border States.
    Many States are having to hold special legislative sessions to deal 
with the economic impact of September 11. Montana is not being forced 
into such a session, but the aftermath of that day only continues to 
strain all sectors of our nation's economy.
    Continued vigilance and fiscal discipline will not prevent us from 
feeling long-term economic ramifications. State and local budgets--
particularly those of local law enforcement--are feeling the severe 
strain of increased security measures. This is in addition to other 
terrorism related situations--that have nothing to do with the border--
but have an effect such as anthrax hoaxes and false alarms.
    It is estimated that current immediate costs for Montana would 
total approximately $500,000. Such costs would include expanding 
Montana's emergency management capability, installing electronic 
surveillance systems and conducting a security vulnerability study for 
the Capitol, creating an intelligence gathering capability in our 
Justice Department. Recurring costs are estimated at over $3.8 million 
over the next several years, given the information we currently have to 
make such an estimate. At this time, the State of Montana has limited 
funds to address some one-time costs. However, there are not sufficient 
funds to cover all one-time or any recurring costs of additional 
security.
    Border security, if not done properly and with foresight to look at 
the cascading implications, could have a very detrimental impact upon 
communities, the State and the national economy. It is critically 
important that any significant changes in border crossings and commerce 
involve departments of commerce, emergency management and law 
enforcement. We have many of the mechanisms in place to address these 
issues. We need, however, a significant increase in resources to staff 
these processes.
    In conclusion, one of the most important steps the Federal 
government could take to support State and local efforts to secure our 
northern border is to improve intelligence gathering capability and 
communication between Federal, State, tribal and local law enforcement.
    A shared public safety radio communications systems would 
significantly improve the ability of local law enforcement to respond 
to border threats.
    We would also encourage Federal officials to work with States to 
provide adequate resources to bolster the U.S. Border Patrol, Customs 
and Immigration agencies so that all issues specific to the border with 
our Canadian neighbors can be addressed in a professional partnership.
    Thank you
                                 ._____
                                 

    Prepared Statement of Gary Locke, Governor, State of Washington

    Chairman Dorgan, members of the Subcommittee, I appreciate this 
opportunity to submit testimony to you regarding the post-September 11 
security and economic impacts along Washington's Canadian border, and 
the need for additional staffing and other resources at border 
crossings.
    I want to thank you for your kind invitation to present testimony 
in person. However, because of unavoidable scheduling conflicts, I am 
not able to be with you today.
    In submitting this testimony, I join Washington's hard-working 
congressional delegation and other northern tier governors in 
addressing this critical issue.
    Senator Patty Murray was able to include language in the Commerce, 
State, and Justice Appropriations bill directing INS to earmark 
additional agents for the northern border. Senators Murray and Maria 
Cantwell were also instrumental in including an appropriation in the 
Anti-Terrorism authorization bill increasing the number of northern 
border personnel. Senators Cantwell and Murray, as well as U.S. 
Representative Rick Larsen, have been working hard to obtain funding 
for expanded technological initiatives to eliminate backups and 
increase security at our borders.
    In addition, Representative Larsen coordinated requests for 
additional border agents. Representatives Norm Dicks, George 
Nethercutt, and Jennifer Dunn have also been instrumental in lending 
support and leadership on border security issues.
    As Governor of Washington, which has one of the busiest border 
crossings in the nation, I urgently request your assistance in 
providing resources to enhance security along our shared border with 
Canada. In the face of mounting terrorist threats and the documented 
apprehension of terrorists entering the United States across the 
Canadian border, current border staffing shortfalls expose our nation 
to an unacceptable risk of security lapses.
    In addition, heavy traffic congestion and delays at major crossings 
resulting from tighter security are causing severe financial and other 
problems in many border communities. The terrorist attacks of September 
11 hit Whatcom County in Washington State particularly hard when long 
backups resulted in a 52 percent reduction in discretionary border 
traffic. The impacts on tourism and border-related businesses have been 
profound, especially in a county that recently experienced shutdowns of 
two major manufacturing plants and the resulting layoffs.
    Business activity information we received from local communities 
shows that for the cities of Blaine, Lynden, Sumas, and Bellingham, 
retail sales from Canadian shoppers this year are off 50 percent from 
last year. In Whatcom County, the taxable retail sales attributable to 
Canadian traffic have fallen by 50 percent. That translates into over 
$100 million in lost sales this year.
    All of this has occurred at a time when the State as a whole is 
suffering a severe economic downturn, with the highest unemployment 
rate in the nation. In addition, over this same period of time, the 
value of the U.S. dollar has appreciated relative to Canadian currency, 
which makes the price of our goods and services higher for Canadian 
consumers.
    Given the current threat level, we believe the risks associated 
with inadequate protection along the full extent of the border between 
the two countries should be dealt with immediately. In this connection, 
we are encouraged by recent statements from the Administration that 
National Guard troops will be made available for deployment at border 
crossings and along the extent of the border.
    This is in keeping with a request to President Bush that I 
initiated last month from northern tier governors (letter attached). We 
told the President that we stand ready to activate National Guard 
troops to augment border control security staffing at the crossings, as 
well as in patrol and reconnaissance missions along the border. In the 
same manner as the Guard was activated for airport security, use of the 
Guard for border security must be carried out under Title 32, Section 
502(f) of the United States Code ``in the service of the United 
States.'' Since border security is clearly a Federal responsibility, it 
should not be a State Duty Status undertaking or subject the States to 
any expense or potential tort liability.
    Having acknowledged that border security is a Federal 
responsibility, I remind the committee that the manner in which border 
security is carried out has a direct and significant impact on each 
border State and our border communities. That is why use of the 
National Guard under Title 32 is so appropriate. Title 32 duty allows 
the Guard to be used in the service of the Federal government while 
retaining a State role in the overall mission execution.
    Title 32 duty also assures equal pay and benefits for equal service 
regardless of the Guard member's duty location. Unlike State-funded 
State Active Duty, all National Guard members performing border 
crossing and point of entry security duties in Title 32 status would 
receive the same pay and benefits regardless of their State of service.
    In asking the President to assign these missions to the National 
Guard in Title 32 status, the governors were also mindful that, for 
more than a decade, thousands of National Guard soldiers and airmen 
have been performing virtually indistinguishable duties in
    Title 32 status. I refer, of course, to the National Guard Counter-
Drug Program in which Guard soldiers and airmen, with the consent of 
the Governors of the several States, have been actively augmenting the 
operations of the Border Patrol, Customs, and INS. The proposed 
missions at northern border crossings and ports of entry, for the most 
part, are an expansion of the same operational functions, albeit with a 
refined focus on terrorism instead of the current drug interdiction 
focus.
    Using the National Guard in Title 32 status, instead of 
federalizing individual Guard volunteers in Title 10 status, also 
ensures significant Air Force as well as Army participation in border 
security. Because of the joint nature of each State's National Guard 
command structure, we have been able to execute airport security 
missions with both Army and Air National Guard personnel, thus 
minimizing the impact on the wartime operational readiness of both 
Federal military services.
    The governors stand ready to execute expanded border crossing and 
port of entry missions in the same Title 32 multi-service manner. Using 
current Title 10 forces or Guard members in Title 10 status would 
diminish the contributions of the several States in support of national 
security, disproportionately impact the Army and the readiness of its 
units for overseas missions, and place Federal military personnel on a 
collision course with the proscriptions of the Posse Comitatus Act--an 
Act, by the way, that is as relevant and compelling today as when it 
was enacted.
    Use of the National Guard must be a short-term strategy giving way, 
as quickly as possible, to a more appropriate permanent enhancement of 
border security using civilian, as opposed to military, personnel.
    We sincerely appreciate the increased Federal staffing already 
provided at many crossings, including those in Washington State. 
However, it is critical that additional border staffing be made 
available through the emergency supplemental appropriations process, in 
addition to the staff increases that have been included in preliminary 
appropriations bills for Customs and Immigration agencies. I join our 
congressional delegation in support of full funding of border agents. 
They have made additional inspection and Border Patrol agents a major 
priority.
    We have also requested the President to consider reinstatement of 
programs that speed up entry of low-risk, pre-approved travelers, if 
this action is warranted after assessment of security risks. With the 
events of September 11, the regional consensus is to upgrade the PACE 
CANPASS program. This popular, dedicated commuter lane program has been 
closed since the attacks due to security concerns. The program needs to 
be reinstated and upgraded with new technology developed at the Blue 
Water Bridge between Michigan and Ontario. An additional $1.2 million 
for USINS is necessary to complete the upgrade.
    I join our congressional delegation and other northern tier States 
in urging quick action by Congress and the President to further enhance 
border security and relieve the severe economic pressures on our border 
communities.
    Thank you.
                               The Northern Tier Governors,
                                                 November 16, 2001.
President George W. Bush,
The White House,
Washington, DC 20500.
    Dear President Bush: As governors of northern tier States, we 
urgently request your assistance in enhancing security along our shared 
border with Canada. In the face of mounting terrorist threats and the 
documented apprehension of terrorists entering the United States across 
the Canadian border, current border staffing shortfalls expose our 
nation to an unacceptable risk of security lapses. Heavy traffic 
congestion and delays at major crossings are also causing severe 
financial and other problems in many border communities. Given the 
current threat level, we believe the risks associated with inadequate 
protection along the full extent of the border between the two 
countries should be dealt with immediately.
    To address these concerns, we urge you to request, and we stand 
ready to activate, National Guard troops to augment border control 
security staffing at the crossings, as well as in patrol and 
reconnaissance missions along the border. In the same manner that the 
Guard was activated for airport security, use of the Guard for border 
security must be carried out under Title 32 of the United States Code 
``in the service of the United States.'' It should not be a State Duty 
Status undertaking or subject the States to any expense or potential 
tort liability.
    We sincerely appreciate the additional Federal assistance already 
provided at many crossings. However, we urge you to expedite assignment 
of additional Federal staffing at all northern tier border crossings. 
We also request that you consider reinstatement of programs that speed 
up entry of low-risk, pre-approved travelers, if this action is 
warranted after assessment of security risks. Activation of the 
National Guard must be a short-term strategy giving way, as quickly as 
possible, to a more appropriate permanent enhancement of border 
security.
    We recognize you are facing urgent demands on many fronts, and we 
applaud your leadership during this time of deep crisis in America. We 
stand ready to assist you in this important undertaking and urge your 
immediate attention to this critical national security issue.
            Sincerely,
                                       Governor Gary Locke,
                                                        Washington.
                                      Governor John Engler,
                                                          Michigan.
                                       Governor Judy Martz,
                                                           Montana.
                                  Governor Dirk Kempthorne,
                                                             Idaho.
                               Governor Angus S. King, Jr.,
                                                             Maine.
                                     Governor Tony Knowles,
                                                            Alaska.
                                 ______
                                 

  Prepared Statement of George E. Pataki, Governor, State of New York

    Thank you for the opportunity to present a statement on behalf of 
the State of New York. The tragic events of September 11 have clearly 
challenged and changed our nation. The United States has long been the 
envy of the world for our free and open society, a luxury that many of 
us took for granted before September 11. What makes this such an 
efficient and prosperous nation also leaves us vulnerable. The recent 
tragedies have shown us the importance of prudent security measures, 
and the need to eliminate security vulnerabilities, including and 
especially those along our nation's borders. Yet as the nation steps up 
efforts to provide safety and security to its citizens, and to 
appropriately protect its borders, it must also be mindful of the need 
to preserve the flow of people, goods and information, flows which keep 
the nation's economy strong. New York, more directly than other States, 
bears tremendous economic and physical costs from the terrorist 
attacks. As New York State moves towards recovery, we are continually 
looking for ways to expand economic opportunities even as we seek to 
provide a safer and more secure environment.
    The economic significance of our nation's and New York State's 
relationship with Canada is clear. Canada is the United States' largest 
trading partner, transacting over a billion dollars in trade each day 
in 2000. One-third of the value of this U.S.-Canadian trade passes 
through New York's infrastructure, notably to/from Ontario at the Peace 
and Lewiston/Queenston bridges in Buffalo, NY, and to/from Quebec in 
eastern New York at the Champlain/Lacolle border. Of this trade, 
approximately two-thirds travels through New York to other 
destinations, making New York State an important link to national and 
international trade.
    While these statistics clearly demonstrate the importance of the 
current New York/Canadian trade relationship, the need to grow this 
relationship promises to become even more significant as world markets 
change and emerge. Over the past decade, there have been tremendous 
changes in international trading relationships. Following the collapse 
of the Soviet Union in 1991, the world has gone from two distinct 
trading zones, the Communist bloc and the Free World, to one integrated 
global market, based on functionally defined continental trading blocs. 
The unification of the world's markets, coupled with tremendous 
technological developments, have changed the structure of business, 
blurring national lines. Rather than maintain an internal perspective, 
the nation and individual States must think internationally and 
globally.
    In our own country, the North American Free Trade Agreement has 
given rise since 1994 to the North American trading bloc, and has 
shifted trade from the traditional east-west patterns, to a north-south 
focus. In recognition of this, Congress has established a growing 
number of high priority transportation corridors to focus investment 
opportunities, including the Transportation Equity Act for the 21st 
Century's (TEA-21's) National Corridor Planning and Development Program 
and the Coordinated Border Infrastructure Program. The Coordinated 
Border Infrastructure Program in particular has created new 
opportunities for New York to work with our Canadian partners on joint 
border infrastructure initiatives.
    In the context of changing global trends and the reality of post 
September 11, New York and the nation must work cooperatively with our 
border nations to seek security solutions that recognize the growing 
importance of international crossings. Trade and traffic between New 
York State and Canada has been growing. Since 1995, commercial truck 
traffic increased to nearly four million crossings, a growth of nearly 
25 percent. Overall, highway crossings along the New York/Canadian 
border reached 25.2 million in 2000. Other modes of surface 
transportation are also important. Combined trade for all surface 
transportation modes between New York State and Canada, by value, 
totaled $31.3 billion in 2000 making New York the second largest state 
trading partner with Canada and the fourth largest NAFTA trading 
partner. This led New York State to develop strong relationships with 
our Canadian neighbors well before September 11.
    As recent examples, I met with Ontario Premier Harris in Niagara 
Falls this past June in our first ever New York/Ontario Economic 
Summit. The focus of this successful two day event was on trade, 
tourism, economic development and transportation. As part of this 
event, New York State and Ontario signed a Memorandum of Understanding 
and Cooperation agreeing to work jointly and cooperatively to:
  --promote job creation and transportation infrastructure improvements 
        along the border;
  --foster technological exchanges;
  --support trade development;
  --collaborate on tourism initiatives;
  --preserve our national resources; and
  --identify issues to bring to the attention of our respective 
        national governments.
    Since this successful Summit, working groups have been meeting to 
pursue these initiatives, and are using these developing relationships 
to address the safety and security needs of post September 11.
    For our part, Premier Harris and I met again on October 16 to 
discuss the impact of security on trade and the economy in light of the 
September 11 attacks. We discussed holding separate roundtable sessions 
with business and government leaders to gain their insights into these 
issues. Ontario held its roundtable on November 2, followed by a 
Western New York Roundtable on Border Issues on November 28. The 
results of these sessions will be used to develop and submit a series 
of recommendations to appropriate Federal and State governments in the 
United States and Canada.
    With our Quebec neighbors, I met in April with Quebec Premier 
Landry to more formally open a dialogue on a number of issues, 
including trade and the flow of traffic through the borders. Quebec and 
New York also worked together this summer to raise the awareness of New 
York State citizens to the many facets of Quebec culture. The Quebec/
New York 2001 event, largely organized by the Chambre de Commerce du 
Quebec and the Plattsburgh Chamber of Commerce, was a special three 
week event during the summer of 2001, that brought Quebec culture to 
New York State citizens through a flotilla of small ships descending 
Lake Champlain. This event was to culminate in the signing of an 
agreement between our State and the Province of Quebec on September 15 
at the World Trade Center in New York City. Tragically, this event had 
to be postponed, but Premier Landry and I did meet on November 29 in 
New York City to renew the dialogue.
    The focus of this meeting was to ensure optimum security throughout 
North America while maintaining the smooth flow of people and goods 
between our nations. As a result of this positive meeting, New York 
State and Quebec have agreed to work together on security and trade 
issues, to continue to pursue coordinated infrastructure improvements, 
and to hold a Quebec-New York summit next spring. Similar to the 
efforts underway and formalized at the Federal level earlier this week 
by Attorney General Ashcroft and Canadian Officials, including 
Solicitor General MacAulay and Immigration Minister Caplan, Premier 
Landry and I also both supported the establishment of a North American 
Security Perimeter.
    In a demonstration of the strong relationships we have established 
with Quebec at all levels of government, New York State Department of 
Transportation Commissioner Joseph Boardman joined Quebec's Ministry of 
Transportation, Guy Chevrette on December 3 to announce a $75 mCAN 
investment on the Quebec side of the border to complement the over $100 
mUS in improvements that are underway or programmed along the northern 
I-87 corridor in New York and the funding being pursued at the 
Champlain/Lacolle border facility. This was followed on December 4 with 
a joint agreement signed by the Chambre de Commerce du Quebec and the 
Plattsburgh Chamber of Commerce to establish a Quebec/New York 
corridor.
    The September 11 attacks have clearly had an impact on New York 
State security efforts. In response to September 11, I established the 
New York State Office of Public Security, charged with overseeing, 
coordinating, and directing the State's resources related to the 
detection and identification of, response to, and prevention and 
recovery from terrorist attacks perpetrated in the State. The Office of 
Public Security is the State's primary contact with the national Office 
of Homeland Security. The Office is also tasked with developing a 
comprehensive statewide strategy to secure New York State from acts of 
terrorism or terrorist threats. This is a large mission, but a critical 
one. In its initial efforts, the Office of Public Security has arranged 
a series of meetings to address transportation security issues and 
concerns, coordinating efforts both in the New York City metropolitan 
area and upstate New York with transportation and law enforcement 
officials. Clearly, security and transportation must work together.
    Immediately following September 11, our border traffic with Canada 
saw a decline and the State's border crossings experienced significant 
delays. As a result of increased security, delays ranged from one to 
two hours at crossings in central New York, including the Thousand 
Islands, Ogdensburg and Seaway International Bridges, to five to six 
hours at the Champlain/Lacolle crossing in eastern New York on I-87, to 
10 to12 hours at the major commercial crossings in Western New York, 
the Peace Bridge and the Lewiston-Queenston Bridge. In addition, due to 
the need to shift inspection personnel, the Whirlpool Rapids Bridge in 
Niagara Falls was closed to traffic immediately following the attacks, 
and remains closed. While these delays are significant, the drop-off in 
traffic at this time may have masked potentially longer delays as the 
nation adjusted to new and extensive security requirements.
    In the weeks following September 11, the additional border delays 
were eliminated, and commercial traffic, while still down in the range 
of 10 percent across the state, is returning to normal levels. The 
economic impact of the loss in commercial traffic is difficult to 
determine, since the value of cargo contained in the trucks is 
undetermined. Notably, however, the borders are still experiencing a 
loss in passenger traffic, on the order of 20 percent across the state, 
which will certainly play a role in tourism.
    While increased security measures have not significantly increased 
delays at New York's border crossings, they still raise the question of 
reliability of flow to the businesses which use these facilities. 
Businesses rely on suppliers to deliver on-time product shipments. If 
long unanticipated delays occur, major business disruptions could 
result. Thus, border security measures must continue to ensure 
reasonable predictable reliable crossing times.
    Increased security does not have to be inconsistent with increased 
border efficiency. One promising area to improve both the security and 
the fluidity of border crossings is the integration of rapidly 
improving intelligent transportation system (ITS) and commercial 
vehicle operations (CVO) technologies at our nation's border crossings. 
Integrating ITS/CVO systems nationally and internationally could 
provide huge benefits, by automating functions and/or pre-clearing low 
risk traffic, allowing limited border staff to focus on other tasks and 
higher risk travelers.
    Some examples of these technologies include:
  --New York's EZPass transponder for automated toll collection. These 
        transponders are now being deployed at the Peace Bridge in 
        Buffalo, and will be deployed at the Lewiston/Queenston bridge 
        in Buffalo in 2002. The next generation of these transponders 
        will potentially provide the basis for integrating customs, 
        immigration and commercial vehicle credentialing and safety 
        screening protocols for efficiently moving cross border 
        traffic.
  --The promising NEXUS technology, a smart card that provides 
        background information on the driver to border inspectors. 
        NEXUS was being piloted at the Blue Water Bridge in Michigan, 
        but the pilot has been suspended following September 11.
  --Integrated data systems such as the International Trade Data System 
        (ITDS), a U.S. Federal Government initiative to coordinate, 
        standardize and ultimately simplify Federal international trade 
        and transportation data by providing information to the 
        multitude of agencies who require data at the border through 
        one system. ITDS was to begin its pilot efforts in Buffalo this 
        fall. This pilot also has been placed on hold since September 
        11.
    While it is clear that our nation's security needs must be reviewed 
and integrated into these technologies, they could provide major 
assistance to improving both security and efficiency. Promising ITS 
technologies are one element, however these must be coupled with modern 
efficient border crossing facilities (including, for example, dedicated 
lanes for pre-cleared traffic), and adequately and appropriately 
staffed border stations to both ensure security with maximum 
efficiency.
    In this regard, New York State looks to the Federal government to 
provide funding for the development and deployment of ITS and CVO 
technology, modern data systems, the realization of border improvements 
such as the General Service Administration's $35 million Port of 
Excellence improvement project at the Champlain/Lacolle crossing, and 
to provide funding for more border personnel along the Northern border. 
Specifically, the recently signed USA Patriot Act committed to 
increased protections at the Northern border with Canada including 
authorizing funds necessary to triple Border Patrol, Customs, and 
Immigration and Naturalization Service (INS) personnel on the Northern 
border, and authorizing $50 million each to INS and Customs to make 
improvements to the technology and acquire the necessary equipment for 
the Northern border. Funding should be provided to fulfill these 
important commitments.
    Finally, New York State looks to the Federal government to ensure 
that funds provided to the States for border security and border 
infrastructure development such as those provided under the 
Transportation Equity Act for the 21st Century (TEA-21's) Border 
Infrastructure Program, are provided equally to the Northern and 
Southern borders. Further, TEA-21's Border Infrastructure and National 
Corridor Planning and Development programs share the same pot of money, 
and are administered together. While there is no official breakdown of 
border versus corridor projects, it is clear that border projects 
represent the minority of grant awards, dropping from about one-third 
of the projects awarded in 1998, to just over 15 percent of the funds 
provided in 2001. In light of September 11, important border facility 
needs should receive equal treatment.
    New York recognizes that there are challenges ahead, but as we 
refocus following September 11, there is also an opportunity to provide 
positive changes that move us forward. New York State looks forward to 
working with this Subcommittee and Congress to find appropriate ways to 
protect our nation's citizens, but to remain strong economically.
    I thank you for this opportunity to comment.

                         Conclusion of hearings

    Senator Dorgan. This hearing is recessed.
    [Whereupon, at 11:07 a.m., Wednesday, December 5, the 
hearings was concluded, and the subcommittee were recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
